App. 1
APPENDIX A
IN THE COURT OF APPEALS
OF MARYLAND
No. 52
September Term, 2019
MARYLAND RECLAMATION ASSOCIATES, INC.
v.
HARFORD COUNTY, MARYLAND
Barbera, C.J.
McDonald
Watts
Hotten
Getty
Booth
Biran,
JJ.
Opinion by Booth, J.
Filed: April 24, 2020
This case requires us to examine a property
owner’s right to invoke the original jurisdiction of the
courts by filing an inverse condemnation case pursuant to Article III, § 40 of the Maryland Constitution,
where the constitutional claim was not raised during

App. 2
the administrative agency proceeding before the Harford County Board of Appeals.
We consider these principles against the backdrop
of 30 years of litigation between the parties. This is the
fourth Court of Appeals case arising out of litigation
between Maryland Reclamation Associates, Inc.
(“MRA”), and Harford County, Maryland (“Harford
County” or the “County”), in connection with MRA’s
efforts to construct and operate a rubble landfill on
approximately 62 acres of land (the “Property”) located
on Gravel Hill Road, in Harford County. See Md. Reclamation Assocs., Inc. v. Harford Cty., 342 Md. 476
(1996) (“MRA II”);1 Md. Reclamation Assocs., Inc. v.
Harford Cty., 382 Md. 348 (2004) (“MRA III”); Md. Reclamation Assocs., Inc. v. Harford Cty., 414 Md. 1 (2010)
(“MRA IV”).
The earlier litigation between the parties concluded
with this Court’s 2010 opinion in MRA IV, which rejected all of MRA’s substantive claims by upholding all
the factual determinations and legal conclusions of the
Harford County Board of Appeals (sometimes hereinafter referred to as the “Board”). See MRA IV, 414 Md.
at 65. After losing on each substantive claim, including
the constitutional and non-constitutional claims that
were raised in the context of the administrative
1

We refer to our first opinion as MRA II because there was
an initial appeal to the Court of Special Appeals. See Holmes v.
Md. Reclamation Assocs., Inc., 90 Md. App. 120 (1992), cert. dismissed sub nom. Cty. Council of Harford Cty. v. Md. Reclamation
Assocs., Inc., 328 Md. 229 (1992). The initial appeal has been referred to in our previous cases as “MRA I.”

App. 3
hearing and upheld by this Court, MRA filed a separate inverse condemnation case alleging that Harford
County’s actions constituted an unconstitutional taking of its Property in violation of Article III, § 40 of the
Maryland Constitution. Over the decades of litigation,
conspicuously absent from the constitutional claims
asserted by MRA was any allegation that the application of zoning regulations—Bill 91-10—to its Property,
and the denial of a variance, would deprive MRA of all
beneficial use of the Property, thereby creating an unconstitutional taking without just compensation. We
must determine whether, under our exhaustion of administrative remedies jurisprudence, a landowner may
withhold a claim alleging an unconstitutional taking
arising from the application of a zoning regulation
from the administrative agency’s consideration and
present the claim to a jury in a separate action invoking the court’s original jurisdiction.
For the reasons set forth more fully in this opinion,
we hold that, under our abundance of case law applying the exhaustion of administrative remedies doctrine
in the context of a constitutional takings claim arising
from the application of a zoning regulation, the property owner must raise its takings claims within the
administrative agency proceeding prior to seeking
judicial review or filing a separate legal proceeding.
Our case law firmly establishes that under the Express
Powers Act, Md. Code (1974, 2013 Repl. Vol., 2019
Cum. Supp.), Local Government Article (“LG”) § 10101, et. seq., the Harford County Board of Appeals
had original jurisdiction to make the initial factual

App. 4
determination of whether there were any other beneficial uses that could be made of the Property, and to
grant relief in the form of a variance to avoid an unconstitutional taking, if MRA had, in fact, established
that under the Harford County Code, there were no
other beneficial uses that could have been made of the
Property, other than a rubble landfill. By failing to
raise these claims before the Board of Appeals, MRA
did not exhaust its administrative remedies and dismissal of this case was required.
I. BACKGROUND AND LEGAL PROCEEDINGS
On February 19, 2013, MRA filed a Civil Complaint and Demand for Jury Trial in the Circuit Court
for Harford County alleging one count, which it titled
“Violations of Article III, Section 40 of the Maryland
Constitution, Article 19 of the Maryland Declaration of
Rights and Article 24 of the Maryland Declaration of
Rights.” Over two years later, on June 15, 2015, MRA
filed an Amended Complaint for Inverse Condemnation and Demand for Jury Trial, again alleging one
count for inverse condemnation titled “Violations of
§ 40 of Article III of the Maryland Constitution and
Articles 19 and 24 of the Maryland Declaration of
Rights.”
The First Amended Complaint (“Complaint”) recites the same facts and procedural history concerning
MRA’s attempt to obtain approvals to operate a rubble
landfill on its property that were litigated by MRA in
appellate proceedings before this Court. The facts

App. 5
alleged in the Complaint—which formed the basis for
the jury’s $45 million plus verdict—were first summarized by Judge Eldridge on behalf of this Court in
MRA II, 342 Md. at 480–87. We repeat those facts once
again, as follows.
In August 1989, MRA contracted to purchase the
Property. MRA intended to construct and operate a
rubble landfill on the Property and began the process
of obtaining a rubble landfill permit from the Maryland Department of the Environment (“MDE”) pursuant to Maryland Code (1982, 1996 Repl. Vol),
Environment Article §§ 9-204 through 9-210. MRA II,
342 Md. at 480.
MRA first requested that Harford County include
the Property in Harford County’s Solid Waste Management Plan (“SWMP”) as a rubble landfill. Id. By a vote
of 4-3, the Harford County Council (the “Council”)
amended its SWMP to include MRA’s Property as a
rubble landfill. The Property’s inclusion in the Harford
County SWMP, however, was made subject to 27 conditions, including a minimum landscape buffer of 200
feet. Id. On November 16, 1989, Harford County advised MDE that MRA’s Property had been included in
the County’s SWMP as a rubble landfill site. Id.
MRA next sought approval for its rubble landfill
permit from MDE. Id. On November 20, 1989, MRA
received Phase I permit approval from MDE. Id. MRA
then filed with MDE the necessary reports and studies
for Phase II and Phase III approvals. Id.

App. 6
MRA had entered into a contract to purchase the
Property in August 1989, before its inclusion in the
SWMP. Id. at 481. Allegedly relying on the Property’s
inclusion in the Plan, and on MDE’s Phase I approval,
MRA consummated the purchase on February 9, 1990,
for $732,500. Id. The settlement occurred on the last
possible day under the terms of the contract of sale. Id.
Four days after the settlement date, the newly
appointed Harford County Council President and a
Council member introduced County Resolution 4-90,
which provided for the removal of the Property from
the County’s SWMP. Id. In the litigation that ensued
over this legislation, the Court of Special Appeals held
that Resolution 4-90 was invalid because it was
preempted by the State’s authority over solid waste
management plans and the issuance of rubble landfill
permits. Id. (citing Holmes v. Md. Reclamation Assocs.,
Inc., 90 Md. App. 120, cert. dismissed sub nom. Cty.
Council of Harford Cty. v. Md. Reclamation Assocs.,
Inc., 328 Md. 229 (1992) (“MRA I”)).
While the litigation over Resolution 4-90 was
pending, in February 1991, Bill 91-10 was introduced
by the Harford County Council as an emergency bill.
Id. at 482. Bill 91-10 proposed to amend the requirements for a rubble landfill by increasing the minimum
acreage requirements, buffer requirements, and height
requirements. Id. The Bill, inter alia, would establish
a minimum rubble fill size of 100 acres and a buffer
zone of 1,000 feet. Id. After public hearings, the County
Council passed the Bill in March 1991. Id.

App. 7
In April 1991, Bill 91-16 was introduced by the
Harford County Council. Id. This Bill authorized the
County Council to remove a specific site from the
County’s SWMP if the site did not comply with certain
zoning regulations, if a permit had not been issued by
MDE within 18 months of the site being placed in the
County’s SWMP, or if the owner of the site had not
placed the site in operation within the same 18-month
period. Id. Bill 91-16 was also passed by the County
Council. Id.
That same month, the President of the Harford
County Council sent a letter to MDE enclosing a copy
of enacted Bill 91-10 and advising the Department
that the provisions of the Bill could call into question
the status of sites which were in the process of obtaining rubble landfill permits. Id. at 483. MDE advised
the County Council in May 1991 that if a permit were
to be issued to MRA, such issuance would not authorize MRA to violate any local zoning or land use requirements. Id.
Also in May 1991, the County’s Director of Planning sent a letter to MRA informing it of Bill 91-10,
indicating that MRA’s Property would apparently fail
to meet the requirements of Bill 91-10, stating that
MRA should submit documentation showing that the
Property could meet the requirements of the zoning
ordinances, and stating that, if the site could not meet
such requirements, MRA would need a variance to
operate a rubble landfill on the Property. Id. at 483–84.
MRA did not file for a variance in response to the Director’s May letter; however, MRA did file an “appeal”

App. 8
to the Harford County Board of Appeals from the “administrative decision pursuant to Section 267-7E in a
letter dated 5/2/91,” requesting that the Board “review
and reverse the decision of the Zoning Administrator
interpreting that the standards of Council Bill 91-10
apply to the Applicant.” Id. at 484. The “application” to
the Board of Appeals asserted that Bill 91-10 was inapplicable to the Property and that, if it was applicable, it was invalid. Id.
In May 1991, Resolution 15-91 was introduced in
the Harford County Council. Id. at 485. This resolution
purported to interpret Harford County law and determine that the Property was not in compliance with the
county law. Id. The resolution purported to remove the
site from the County’s SWMP. Id. The County Council
passed Resolution 15-91 in June 1991. Id.
A. The Prequel—MRA II, MRA III, and MRA
IV—A Procedural Labyrinth of Zoning
History
This case is procedurally unique given the related,
tortuous litigation history that preceded the instant
matter, involving the same underlying zoning regulation—the enactment of Bill 91-10—and its application
to MRA’s Property. Because of the relationship between the earlier cases and our analysis and holding
in this case, it is necessary to summarize this “prequel.” As discussed in the ensuing chapters of the prequel, the very issues that were presented to the jury
in this case were decided, or should have been decided,

App. 9
in the proceedings before the Harford County Board of
Appeals and were finally adjudicated by this Court in
MRA IV.
Chapter 1 – MRA II
MRA filed a complaint in the Circuit Court for
Harford County in June 1991, seeking a Declaratory
Judgment and Injunctive Relief against Harford
County and the Harford County Council. Id. MRA requested, inter alia, the following: (1) a declaration
that Bills 91-10 and 91-16 and Resolution 15-91 were
“null and void” as to MRA’s Property; (2) an injunction
preventing the County from enforcing Bills 91-10 and
91-16 and Resolution 15-91 against MRA; and (3) an
injunction staying all further action on MRA’s appeal
to the Board of Appeals. Id. MRA advanced several
legal theories to support its complaint for declaratory
relief. Id.
In June 1991, the circuit court issued an interlocutory injunction preventing the enforcement of the local legislation against MRA. Id. The circuit court’s
order expressly authorized MDE to continue its processing of MRA’s pending permit application. Id. The
order also stayed the processing of MRA’s administrative “appeal” of the Planning Director’s “decision” contained in the Director’s May 2, 1991 letter. Id. Finally,
the interlocutory order prohibited MRA from commencing any construction without court approval. Id.
at 485–86.

App. 10
While the parties were litigating the matter in the
circuit court, in February 1992, MDE issued to MRA a
permit to operate a rubble landfill on its property. Id.
at 486. The MDE permit was expressly conditioned
upon compliance with local land use requirements. Id.
After considering cross-motions for summary
judgment, in May 1994, the circuit court filed an opinion and judgment, “declaring that Harford County was
entitled to enact new zoning laws that may prevent
MRA from operating a rubble landfill, and that Bills
91-10 and 91-16 were not invalid on the grounds asserted by [MRA].” Id. The court declared that Resolution 15-91 was invalid on its face. Id. The circuit court
determined that “the Harford County Council was acting as a legislative body when it passed the resolution”
and that its passage “constituted an illegal attempt to
interpret and apply the laws which the Council had
previously enacted.” Id. MRA filed an appeal to the
Court of Special Appeals. Id. Before there were any
further proceedings in that court, this Court issued a
writ of certiorari. Id.
On appeal, MRA asserted state and federal constitutional challenges, as well as non-constitutional arguments. Id. at 486–87. Two of MRA’s arguments were
grounded upon the due process clauses of the Fourteenth Amendment of the United States Constitution
and Article 24 of the Maryland Declaration of Rights.
Id. at 487. The primary argument advanced by MRA
was that “it had a ‘constitutionally protectable property interest in the Harford County Solid Waste Management Plan’ and had ‘vested rights in the permit

App. 11
process’ . . . and that Harford County had ‘retroactively’ abrogated those rights in violation of due process principles.” Id. MRA’s second constitutional
argument was that the two Harford County ordinances
violated MRA’s “substantive due process rights because the ordinances [were][ ] arbitrary and capricious
and unreasonable.” Id. (cleaned up). With respect to
the two non-constitutional arguments, MRA: (1) urged
the Court to adopt the doctrine of zoning estoppel and
hold that Harford County is estopped from applying
the ordinances to MRA’s Property; and (2) argued
that the two Harford County ordinances, as applied to
MRA’s Property, were preempted by the provisions of
state law relating to solid waste disposal and the state
permit issued to MRA. Id. at 488.
In MRA II, we explained that during oral argument, MRA’s contentions were “clarified somewhat”
with respect to any potential takings claims that MRA
may have been asserting. Id. at 488–90. Notably, the
Court clarified that MRA was not alleging in the context of this case that the ordinances were unconstitutional as applied to its Property. Id. at 489. Because
the takings claim—and MRA’s failure to raise this
claim in MRA II, MRA III, and MRA IV—is significant
and relevant to our exhaustion analysis in this case,
we reiterate Judge Eldridge’s summary and clarification of these matters as they appear in MRA II:
Both in the circuit court and in its brief in this
Court, [MRA] relied upon principles and cases
relating to the question of whether particular
governmental regulation of a landowner’s use

App. 12
of his property had gone so far as to constitute
a “taking” of the property without just compensation in violation of the Fourteenth
Amendment and the Just Compensation
Clause of the Fifth Amendment and/or Article
III, § 40 of the Constitution of Maryland. In
light of this reliance, the Court inquired
whether [MRA’s] counsel was making a “takings” argument, and counsel stated that he
was not. The following colloquy occurred:
“THE COURT: Mr. Grieber [Attorney for [MRA]], are you . . . one thing
I’m not sure about, are you making
. . . in addition to a substantive due
process argument, are you making a
takings argument under the [Just
Compensation] Clause of the Fifth
Amendment, or . . .
Mr. GRIEBER:
Honor.

No, I am not, your

THE COURT: . . . under Article III,
section 40, of the Maryland Constitution?
Mr. Grieber:
Honor.
THE COURT:

No, I am not, Your
Okay.

MR. GRIEBER: That’s, that’s a viable option later should this Court not
agree with me. But at this point in
time, no, we are not.”

App. 13
In addition, counsel for [MRA] confirmed that
[MRA] was “not making a facial attack” upon
the ordinances, but was “arguing that [they
are] invalid as applied to” the . . . [P]roperty.
Counsel for Harford County then argued
that questions of validity as applied should
initially be raised and decided in the appropriate administrative proceedings, and that
[MRA] had failed to invoke and exhaust the
administrative remedies available to it.
[MRA’s] counsel responded that, because the
same persons who are members of the County
Council are also members of the Board of Appeals in Harford County, it would be futile to
invoke and exhaust administrative remedies.
Id. at 489 (footnotes omitted).
Prior to reaching the merits of MRA’s substantive
arguments, the Court explained that the “threshold
issue in this case is whether, and to what extent,
[MRA] was required to invoke and exhaust administrative remedies available under the Harford County
Code and the Express Powers Act, Maryland Code . . . ,
Art. 25, § 5(U) (setting forth the jurisdiction and procedural requirements with respect to boards of appeals
in chartered counties).” Id. at 490.
After discussing the applicable provisions of the
Harford County Code and the Express Powers Act, we
held that MRA had not exhausted its administrative
remedies, including appealing the Zoning Administrator’s ruling to the Board of Appeals, and applying to
the Zoning Administrator for variances. Id. at 492.
This Court then considered the consequence of MRA’s

App. 14
failure to exhaust its administrative remedies with
respect to each legal argument. Id.
Concerning any due process claim arising from the
United States Constitution, we explained that such
an action, which would arise under 42 U.S.C. § 1983,
would not be subject to the state law requirements that
administrative remedies must first be exhausted. Id.
We noted that the “Supreme Court has held that a
plaintiff is entitled to maintain an action under 42
U.S.C. § 1983 in a state court without having exhausted available administrative remedies.” Id. (citing
Felder v. Casey, 487 U.S. 131, 146–47 (1988)). Although
we determined that the federal constitutional claims
were not subject to the exhaustion requirement, we
held that any potential federal takings claims were not
ripe for judicial consideration until MRA applied for a
variance and received a final decision from the Board.
Id. at 505.
Turning to the remaining claims arising under the
state constitution, as well as MRA’s non-constitutional
claims, we held that the circuit court erred in considering the merits of MRA’s claims. Id. at 497. We cited
several of our cases for the holding that “[w]here a legislature has provided an administrative remedy for a
particular matter, even without specifying that the administrative remedy is primary or exclusive, this Court
has ‘ordinarily construed the pertinent [legislative] enactments to require that the administrative remedy be
first invoked and followed’ before resort to the courts.”

App. 15
Id. at 492 (quoting Bd. of Educ. for Dorchester Cty. v.
Hubbard, 305 Md. 774, 786 (1986)) (collecting cases).2
MRA argued that any exhaustion requirement under the circumstances would be futile because the
Board of Appeals was comprised of the same members
of the Harford County Council who opposed the rubble
landfill on policy grounds. Id. at 495. We rejected
MRA’s contention, stating that “[t]his argument . . .
furnishes no sound basis for a judicially created exception to the exhaustion requirement set forth in Art.
25A, § 25(U).” Id. We noted that in Turf Valley Associates v. Zoning Board, 262 Md. 632, 643–44 (1971), we
“held that ‘there is no fundamental barrier to conferring on the legislative branch of a chartered county
the right to constitute itself a zoning body,’ and to delegate to that zoning body both quasi-legislative and
quasi-judicial zoning functions.” MRA II, 342 Md. at
495–96. We also pointed out that in Klein v. Colonial
Pipeline Co., 285 Md. 76, 82–83 (1979), “this Court held
that constituting the Harford County Council as the
Harford County Board of Appeals was valid, and that
2

In describing the requirement for exhausting administrative remedies, we noted that we recognized a limited “constitutional” exception, where the exhaustion principle does not apply
“where the constitutionality of a statute on its face is challenged,
and where there exists a recognized declaratory judgment or
equitable remedy.” Md. Reclamation Assocs., Inc. v. Harford Cty.,
342 Md. 476, 494 (1996) (“MRA II”) (quoting Ins. Comm’r v. Equitable, 339 Md. 595, 621 (1995)). We did not consider this exception
because counsel for MRA conceded that it was not making a facial
challenge to the ordinances. Id. at 495. Rather, all four of MRA’s
arguments related to the validity of the ordinances as applied to
MRA’s Property. Id.

App. 16
the Harford County Board of Appeals was a board of
appeals pursuant to [the Express Powers Act], and that
the language of [the Act] expressly provides that a decision by the Harford County Board of Appeals is a prerequisite to an action in the circuit court.” MRA II, 342
Md. at 496. We explained that that it would undermine
the holdings in these cases to adopt MRA’s reasoning
“that the Harford County Board of Appeals can be bypassed whenever a case involves Harford County ordinances reflecting a policy which is arguably inconsistent with the plaintiff ’s position, simply because the
members of the County Council also constitute the
Board of Appeals.” Id. We explained that:
If [MRA] were to seek a decision or decisions
by the Harford County Board of Appeals, the
Board would be considering the issues raised
by [MRA] in a quasi-judicial capacity, and its
decision would be fully subject to judicial review in the Circuit Court for Harford County.
If the Board of Appeals commits an error of
law, if its rulings are arbitrary or capricious,
or if critical factual findings are unsupported
by substantial evidence, the Board’s decision
will be reversed. Nevertheless, under [the Express Powers Act], the Board’s decision-making function cannot be circumvented.
Id. at 496–97.
We held that the circuit court below should not
have considered the merits of MRA’s state law and
state constitutional challenges to the application of

App. 17
Bills 91-10 and 91-16 to the Property and vacated the
judgment of the circuit court. Id. at 497.
Chapter 2 – MRA III
Following just one part of this Court’s directive in
MRA II, MRA filed requests for an interpretation of
Bills 91-10 and 91-16 from the Zoning Administrator.
MRA III, 382 Md. at 350. After receiving unfavorable
rulings, MRA appealed to the Board of Appeals. Id.
However, MRA did not seek a variance from the strict
application of the legislation which had been incorporated into the zoning provisions of the Harford County
Code. Id. at 360. The Board, through its Hearing Examiner, conducted a hearing and issued a decision in
April 2002 that the application of Bill 91-10 to the proposed rubble landfill did not violate federal, state, or
local laws. Id. at 359. As summarized by Judge Harrell
writing for this Court in MRA III, the Hearing Examiner’s findings and conclusions underlying this decision were as follows:
1.

Bill 91-10 applies to MRA’s property on
Gravel Hill Road.

2.

The requirements of Bill 91-10 can be validly applied to MRA’s property on Gravel
Hill Road under the circumstances of this
case and in light of the Environmental
Article of the Maryland Code as well as
other principles of Maryland law.

3.

MRA’s operation of a rubble landfill on its
property at Gravel Hill Road pursuant to

App. 18
its state permit will violate applicable
Harford County Zoning law. . . . Moreover, the Hearing Examiner questions
whether the permit issued to MRA by
MDE is validly issued as it was based on
misinformation provided to the State by
MRA regarding the conformance of the
property and use with Harford County
Zoning law.
4.

MRA cannot obtain a grading permit unless it can meet the requirements of
Harford County Zoning law. To the extent
MRA does not meet specific standards it
must seek a variance and obtain a variance from provisions with which it cannot
comply. MRA’s reliance on site plan approvals that pre-date the enactment of
Bill 91-10 is without merit.

5.

MRA’s operation of a rubble landfill on its
property at Gravel Hill Road pursuant to
its State-issued Refuse Disposal Permit
No. 91-12-35-10-D and as renewed by
Refuse Disposal Permit 1996-WRF-0517
will violate applicable Harford County
zoning law.

6.

Harford County is not prohibited by the
principles of estoppel from applying the
provisions of Harford County Bill 91-10
. . . to MRA’s property and specifically, to
MRA’s operation of a rubble landfill on its
property.

7.

MRA’s rubble landfill did not acquire
vested rights in its use that would

App. 19
insulate it from the application of Bill
91-10 to that use. It is the vested rights
doctrine itself that allows a landowner to
raise issues of constitutional protections.
There is no constitutional infringement on
the rights of MRA because a vested right
was not established. Applying the provisions of Bill 91-10 to MRA’s Gravel Hill
Road property is, therefore, not prohibited by the United States Constitution
and/or the Maryland Declaration of
Rights.
8.

Harford County is not preempted by the
Environmental Article of the Maryland
Code, particularly sections 9-201 et seq.
and 9-501 et seq., from applying Bill 9110 to MRA’s Gravel Hill Road property.

9.

MRA’s operation of a rubble landfill on its
Gravel Hill Road property is not a valid
non-conforming use pursuant to Harford
County Zoning Code.

MRA III, 382 Md. at 359–60 (emphasis added).
In June 2002, the Board of Appeals adopted the
Hearing Examiner’s decision. Thereafter, Harford
County refused to issue MRA a grading permit or zoning certificate. Id. at 360. MRA did not file a request
for a variance—either in response to the Board of
Appeals’ final decision, or on a parallel course to its
request for interpretation by the Zoning Administrator
to its nine questions presented. Id. at 361.

App. 20
MRA filed a petition for judicial review to the Circuit Court for Harford County. Id. at 360. In October
2003, the circuit court affirmed the decision of the
Board of Appeals, concluding that “all nine requests for
interpretation were answered correctly . . . in accordance with the law, and based on substantial evidence,
and the decision was also correct when it upheld the
zoning administrator’s denial of [MRA’s] request for a
zoning certificate.” Id. at 357–58. MRA appealed to the
Court of Special Appeals. Id. at 351. Prior to any proceedings before the Court of Special Appeals, we issued
a writ of certiorari. Id.
Once again, we held that MRA had not exhausted
its available administrative remedies. Id. at 361. We
reiterated that “[a] fundamental precept of administrative law is the requirement that exclusive or primary administrative remedies ordinarily be exhausted
before bringing an action in court.” Id. at 361–62 (collecting cases). We explained that, “[e]ight years ago in
MRA II, this Court instructed MRA that before it may
obtain judicial review in the Circuit Court for Harford
County of any adverse administrative decisions in this
case, it must exhaust its available administrative remedies under the applicable laws.” Id. at 363 (citing
MRA II, 342 Md. at 497) (emphasis added). We stated
our directive in MRA II, that “this Court identified the
administrative remedies available to MRA: (1) request
an interpretive ruling from the Zoning Administrator
and, if that ruling were adverse to MRA’s interests,
appeal to the Board of Appeals; (2) if the Board of Appeals’ decision was adverse to MRA, it should apply for

App. 21
zoning variances or exceptions.” Id. at 363 (citing MRA
II, 324 Md. at 501).
MRA argued that the “proper application to its situation of the exhaustion of administrative remedies
principle should permit a ‘two-step process’ by which it
may pursue in turn judicial review of each discrete adverse administrative decision.” Id. We rejected MRA’s
interpretation of the exhaustion requirements stating:
MRA believes that this Court must decide the
issues it advances in the present case and, if
decided adversely to MRA’s position, it retains
“the option of seeking a variance from the application of Bill 91-10 and other Harford
County regulations to its property.” We do not
subscribe to this inefficient and piecemeal approach. Seeking zoning variances is not, as
MRA contends, merely an “option.” The right
to request zoning interpretations and a zoning certificate and, if denied, the right to seek
variances are two parallel or successive remedies to be exhausted, not optional selections
on an a la carte menu of administrative entrees from which MRA may select as it
pleases.
Id. at 363–64 (emphasis added). We noted that “Judge
Eldridge, speaking for this Court, pellucidly explained
the doctrine of administrative remedies, as applied to
the circumstances of this dispute, in MRA II. As MRA
appears not to have appreciated completely the directions of MRA II, we can only reiterate the reasoning
here.” Id. at 365 (emphasis added). Once again, we restated that:

App. 22
MRA’s failure to exhaust administrative remedies, before bringing this judicial review action, applies to the federal constitutional
issues as well as state constitutional and
non[-]constitutional issues. . . . For the reasons extensively discussed in MRA II, supra.,
342 Md. at 497–506, . . . we hold that the
federal constitutional issues raised by [MRA]
also are not now ripe for judicial decision.
Id. at 366–67 (emphasis added).
We also explained the process whereby a circuit
court should stay final consideration of the merits of
one matter where the resolution of said matter may
depend upon the exhaustion of administrative remedies:
Under the circumstances, a stay by the Circuit Court of final consideration of the merits
of this petition for judicial review is the correct disposition for the present, rather than
dismissal of the petition. When a litigant is
entitled to bring two separate legal proceedings in an effort to obtain relief in a particular
matter, when the litigant institutes the first of
those proceedings and the case is pending in
a trial court, and when the trial court is unable to decide the merits of that case because of
primary jurisdiction or exhaustion principles
associated with the second proceeding, the
trial court ordinarily should stay the first
proceeding for a reasonable period of time.
During that period, the litigant may pursue
and obtain a final administrative decision in
the second proceeding. If still aggrieved, the

App. 23
litigant will be able to file an action for judicial review in the second proceeding, and the
trial court may hear the two cases together.
Id. at 367.
By the conclusion of MRA II and MRA III, several
legal principles should have been clear. First, that
MRA had to exhaust all its administrative remedies,
including seeking a zoning variance from the application of Bill 91-10 prior to judicial review of the merits
of any legal claims. Second, that the exhaustion requirement applied to MRA’s constitutional and nonconstitutional claims. In other words, before proceeding
with any judicial review or filing a separate judicial
proceeding asserting that Bill 91-10 was unconstitutional as applied to MRA’s Property, MRA had to apply
for a zoning variance and raise any constitutional and
non-constitutional claims within the administrative
agency proceeding.
Chapter 3 – MRA IV
In the final chapter of this prequel, once again,
MRA proceeded to follow just one part of the Court’s
directives enunciated in MRA II and MRA III.
In May 2005, MRA finally requested from the
Harford County Hearing Examiner several variances
from the provisions of Bill 91-10, which had been incorporated into the Harford County Zoning Code.
MRA IV, 414 Md. at 15. The variances sought were to
permit:

App. 24
•the disturbance of the 30-foot buffer yard;
•the disturbance within the 200-foot buffer
from adjoining property lines;
•the operation of a rubble landfill on less than
100 acres;
•the operation of a landfill without satisfying
the buffer requirement;
•the deposit of solid waste less than 500 feet
from the flood plain district;
•the disturbance of the 1,000-foot buffer from
a residential or institutional building;
•the use of a landfill within a Natural Resource District, to permit the disturbance of
the Natural Resources District buffer, and to
disturb the minimum 75-foot wetlands buffer
in the Agricultural District;
Id.
Over the period of 10 months, the Hearing Examiner presided over 17 hearings, and heard testimony
from MRA’s 11 witnesses, eight of whom were experts;
six experts offered by a group of individuals who live
in the neighborhood surrounding the proposed rubble
landfill and who were opposed to its development
(“Opponents”); 16 residents from the community and
parishioners of the St. James African Methodist Episcopal (“AME”) Church; and the acting director of the
Harford County Department of Planning and Zoning.
MRA IV, 414 Md. at 16–17. The Hearing Examiner
issued a 78-page decision dated February 28, 2007

App. 25
recommending that the Board deny MRA’s variance
requests. Id.
Notably, although MRA applied for a variance and
argued that it satisfied the variance standards under
the Harford County Code, it did not allege or assert
before either the Hearing Examiner, or the Board of
Appeals, that the application of Bill 91-10 to its Property, and the denial of a variance, would deprive MRA
of all beneficial uses of the Property, thereby creating
an unconstitutional taking of its Property without just
compensation.
The Hearing Examiner applied the variance factors under the Harford County Code3 and, inter alia,
made the following findings:
The proposed rubble landfill has the potential
of causing a great impact on the neighbors
who reside on Gravel Hill Road, and on users
of Gravel Hill Road.
****
3

Under the provisions of the Harford County Code, § 26711(A), to obtain a variance from an applicable zoning provision of
the Harford County Code, the applicant was required to demonstrate, and the Board was required to find, that:
(1) By reason of the uniqueness of the property or
topographical conditions, the literal enforcement
of [the provisions of the Code] would result in
practical difficulty or unreasonable hardship.
(2) The variance will not be substantially detrimental to adjacent properties or will not materially impair the purpose of [the provisions of the
Code] or the public interest.

App. 26
[T]he disturbance of the 200-foot buffer during the rubble landfill operation would increase the disturbance to be seen and
experienced by adjoining owners and residents. As a result, they would suffer an adverse impact.
****
MRA’s parcel is 55 acres in size. Section 26740.1(A) requires that the site be at least 100
acres. Obviously, the Applicant will not have a
rubble-fill regardless of the finding on the
other variances, unless it is granted a variance to the 100-acre requirement. The variance requested is substantial, with the
Applicant suggesting that an area of just
slightly more than one-half of the minimum
acreage requirement is sufficient for approval. . . . [T]he Applicant’s argument in favor . . . is that[,] “[e]nlarging the site to 100
acres would serve no purpose and would be a
practical difficulty.” Again, no statutory or
case authority exists which would justify the
granting of a variance based on a perceived
lack of need for the requirement for which the
variance is requested. . . . Furthermore, the
Applicant cannot allege a disproportionate
impact of the 100 acres requirement upon it.
All properties of less than 100 acres in size
are similarly impacted by the prohibition
against rubble-fills on parcels of less than that
size. The Applicant is treated no differently

App. 27
than any other similarly situated property
owner[s].
Id. at 16–21 (italics in original omitted).
With respect to the request for a variance to allow
for the disturbance of the 1,000-foot buffer requirement from residential or institutional buildings, the
Hearing Examiner noted that relaxing this requirement would have a severe impact upon the St. James
AME Church and its congregation. Id. at 22. There was
considerable testimony in the record before the Hearing Examiner that the St. James AME Church and its
graveyard had significance to the African-American
community. Id. at 19. The Hearing Examiner stated
that, “[b]eing the final resting place of African[-]American soldiers who fought in the Civil War is itself a factor sufficient to mandate that the Church and its
graveyard be given all possible protections to help preserve their historical significance and the prominent
place they continue to play in the history of our County
and State.” Id. The Hearing Examiner found that
MRA’s operations, including the use of the trucks operating five-and-a-half days a week, would have an adverse impact on the historic church, its congregation,
and the surrounding residential properties. Id. at 22.
MRA appealed the Hearing Examiner’s decision to
the Board. Id. at 23. On June 5, 2007, the Board voted
7-0 to deny the requested variances and adopted the
Hearing Examiner’s decision. Id.
MRA noted an appeal to the circuit court, which
affirmed the findings of the Board of Appeals by order

App. 28
filed on July 11, 2008. Id. With the denial of the variance in hand, MRA also renewed its 2003 appeal in the
circuit court. Id. On September 3, 2008, the circuit
court affirmed its October 2003 decision. Id. MRA filed
an appeal of the denial of the variance and the circuit
court’s affirmance of its 2003 decision to the Court of
Special Appeals. Id. Once again, on our own initiative,
we granted certiorari on both matters. Id.
On appeal, Judge Adkins, writing for this Court,
addressed separately MRA’s claims related to the denial of the variance (“Case No. 143 Issues”) and its
substantive claims associated with the Zoning Administrator’s determination, which were affirmed by the
circuit court in its 2003 decision (“Case No. 144 Issues”).
Case No. 143 Issues – Denial of the Variances
Consistent with the presentation of its testimony
and argument below, MRA failed to argue that it was
entitled to a variance from the provisions of the Harford County Code because the effect of a denial would
constitute an unconstitutional taking of its Property
without just compensation. Because the takings claim
was not part of the case, this Court, in MRA IV, proceeded to determine only whether the Board erred in
determining that MRA had not satisfied the requirements for a variance as set forth in Harford County
Zoning Code, Chapter 267, Section 267-11(A). Id. at 24.
After reviewing the testimony and evidence presented to the Hearing Examiner, we held that the

App. 29
Board did not err in finding that the requested variances would be substantially detrimental to adjacent
properties. Id.
A. Proposed Rubble Landfill Adverse Impacts on St. James AME Church and its
Historic Graveyard
Our analysis of the Board’s denial of the variances
began with the review of the variance factors under
the Harford County Code, and the Hearing Examiner’s application of the factors to the evidence presented at the hearings. Id. at 25. Under the Harford
County Code, the Board’s denial of MRA’s requested
variances “shall be upheld if the proposed rubble landfill will be ‘substantially detrimental’ to adjacent properties.” Id. (citing Harford County Code, Chapter 267,
§ 267-11(A)(2)).4 We concluded that the Board “did not
err in denying the requested variances because there
was sufficient evidence that MRA’s proposed rubble
landfill will ‘adversely affect the public health, safety,
and general welfare,’ will ‘jeopardize the lives or property of people living’ [in the surrounding area] and result [in] ‘dangerous traffic conditions’ in the Gravel
Hill and St. James communities.” Id.
In finding substantial evidence to support the
Board’s findings, we noted that the Board had relied
4

The Harford County zoning regulations are set forth in
Chapter 267 of the Harford County Code. For purposes of brevity,
we omit additional Chapter references and shall cite only to the
applicable section reference.

App. 30
upon the expert testimony establishing the use of
heavy equipment between the hours of 7:00 a.m. and
5:00 p.m., and the adverse impacts that the rubble
landfill operation would have on the historic AfricanAmerican church site, which lies 25 feet from the outer
boundary of MRA’s property. Id. at 26. The graveyard
is a Harford County historic place because it serves as
a resting place of soldiers who served in the United
States Colored Troops (“U.S.C.T.”) during the Civil War.
Id. at 28. We pointed out that the Hearing Examiner’s
findings of fact referenced the testimony that was provided by Carl Westmoreland, an expert in the preservation of historic African-American sites, to discuss the
potential adverse effect that the rubble landfill would
have on the historic preservation of the St. James site.
Id. at 26. Mr. Westmoreland testified that:
The imposition or the activation of a dump
site would create an industrial environment
that would be in conflict with the 18th and
19th century environment that predominates
at this point and would compromise the historical integrity and the cultural legitimacy of
this community that has existed for over 150
years and that has attempted to function
within the mores and the cultural traditions
of Maryland.
To me, when you arrive there, if you didn’t
know that it was a black church, it’s just a little modest church. When you see the Civil War
monuments, the only reason you know they’re
black is because it says USCT, but it’s typical of what you would see in the Maryland

App. 31
landscape. And I think that’s what people in
Havre de Grace and in Gravel Hill have struggled for, to become part of the American mainstream and this documents their efforts.
Id. at 27.
The Opponents also presented the testimony of an
expert archeologist, Dr. James Gibb, who testified concerning the potential adverse impacts that a rubble
landfill would have on the Church and its historic cemetery. Id. at 28. Dr. Gibb, who holds a doctorate in anthropology, and had experience as an instructor in
anthropology and archeology, “testified that dust will
be permitted to blow onto the cemetery, which will destroy the historic setting of the cemetery. [Dr.] Gibb
also testified that the slopes around the existing graves
are stabilized with vegetation and that destabilizing
the vegetation could be detrimental to the graves.” Id.
MRA argued that the Board should have relied
upon its archeological expert, Michael Clem, who
“opined that the proposed rubble fill would not adversely affect the historic cemetery located on the
Church property and that the ‘graves will actually be
better protected from erosional forces by filling.’ ” Id.
at 29. We rejected MRA’s argument, explaining that
“when there are differing opinions of two well-qualified
experts and a zoning issue is fairly debatable, then the
County Board could ‘quite properly’ accept the opinion
of one expert and not the other.” Id. (citing Dundalk
Holding Co. v. Horn, 266 Md. 280, 292 (1972)). We reiterated our previous holding “that ‘[c]ourts, under these

App. 32
circumstances, should not substitute their judgment
on a fairly debatable issue for that of the administrative body.’ ” Id. (quoting Dundalk Holding Co., 266 Md.
at 292). We explained that, “[t]he Board was in the best
position to evaluate the credible position of these two
experts and it was within its bailiwick to give greater
weight to the appellee’s expert’s opinion.” Id.
We also rejected MRA’s contention that Dr. Gibb’s
testimony was “devoid of substantial supporting facts,”
noting that “he discussed the detrimental effects that
would result from construction and operating the rubble fill”:
So in order to use that quarry again, it will
have to be deforested. You have to remove the
trees before you can get the trucks in; and
that’s just logical. And that will be fairly extensive deforestation.
So that will affect the setting. And as far as
physical effects on the site, we’ve got dust,
which is unavoidable in cases where any kind
of clearing goes on. And I presume . . . that
problem will be exacerbated with trucks moving large quantities of rubble.
So dust is going to affect the fabric of the
building, the church. It may [affect] the gravestones too. I haven’t really looked at it in those
terms, but the dust will affect the building.
Dust gets into all the cracks and crevices. We’ve
had a temperate winter, but sooner or later
we’re going to have a cold, wet winter. That
dust, once it gets into the crevices, will absorb

App. 33
water. It will expand and contract and cause
deterioration of the building.
Id. at 30 (emphasis in original). We also pointed out
that Dr. Gibb refuted Dr. Clem’s testimony that the filling activities associated with the proposed rubble landfill would create a positive impact by a better view shed
and grave protection:
[Gibb]: In the present condition of the land,
I would say no because you would have to
clear those slopes before you can fill them.
Right now the slopes down from the cemetery,
the quarry face, have stabilized. They’ve revegetated. There must be 30, 40 years of
growth there at least.
Id. at 31. Accordingly, we concluded “that there is sufficient evidence in the record to support the Board’s
finding that the rubble landfill activities will be ‘substantially detrimental’ to the St. James church and
graveyard.” Id.
B. Detrimental Impacts on the Health and
Welfare of the People in the Gravel Hill
Community.
In the proceedings before the Board, the Opponents averred that the rubble landfill would adversely
affect the property in the surrounding area. Id. We
described testimony before the Hearing Examiner, concluding that “[t]he evidence of decreased vegetation
and increased diesel fumes is sufficient to support a
finding that the rubble landfill would negatively affect

App. 34
the health and welfare of the individuals in the surrounding area.” Id. at 33. Concerning the testimony
from 14 individuals who live or attend church in the
area of Gravel Hill Road, we found the Opponents’
characterization to be accurate: “[t]he individuals who
testified explained how permitting a rubble landfill to
operate in their community will interfere with the enjoyment of their homes and yards through the introduction of increased traffic, noise, dust, vermin, and
general unpleasantness of having a landfill in close
proximity to their homes.” Id.
C. Traffic Conditions Along Gravel Hill Road.
Concerning traffic impacts, we commented that
“[a]ccording to the parties’ stipulation of facts, ‘MRA
anticipates that approximately 50 trucks per day will
enter Gravel Hill Road[,]’ ” which, according to the
County, represented “virtually a 50-fold increase from
the non-existent [traffic] that presently exists on the
road.” Id. We noted that although MRA’s traffic expert,
Jeffrey Lawrence, testified that the increased truck
traffic “would only add a 12.5 second increase to time
spent at the traffic intersection and would not jeopardize the safety of the community[,]” Mr. Lawrence admitted that he did not know how many children lived
along the road, did not know where and how many
school buses stopped along the road, and testified that
in reaching his conclusion, he did not take into consideration any activities that take place at the public
park, St. James AME Church, or graveyard. Id. at 33–
34.

App. 35
From the testimony, we discerned that the “school
bus issue—rather than the sheer number of vehicles
passing through—. . . formed a key component of the
hearing.” Id. at 34. We commented that one resident
testified that “four different school buses stop along
Gravel Hill Road” at least twice a day, and that parents
and grandparents testified that “they fear for the
safety of their children crossing the street in light of
the 50 additional trucks crossing their road.” Id. at 34.
We noted that MRA failed to address the child safety
concerns, and we determined that “there was sufficient
evidence to support the Board’s findings and conclusion in favor of the Appellees.” Id.
D. Conclusions with Respect to the Variance
Standards.
In conclusion, we noted that the “Board rested its
decision to deny all of these requested variances because [MRA] did not meet the second requirement of
[the Harford County Code][ ] Section 267-11(A)(2) that
each ‘variance will not be substantially detrimental to
adjacent properties.’ ” Id. We concluded “that there was
sufficient evidence, with respect to each requested variance, to support the Board’s conclusion.” Id. Accordingly, we upheld the Board’s denial of the variances. Id.
Case No. 144 Issues—Preemption, Constitutional Claims, and Estoppel Claims
In Case No. 144, MRA advanced several legal
theories as to why, under the circumstances, Bill 91-10

App. 36
could not be applied to the Property. Id. at 35. We summarize each argument presented by MRA in MRA IV,
and our analysis and holdings, as follows.5
A. Preemption.
First, MRA contended that Harford County was
preempted from enacting zoning laws that conflict
with the state’s comprehensive statutory scheme for
permitting rubble landfills. Id. at 36–37. We rejected
this contention, explaining that MRA’s argument conflates zoning with permitting. Id. at 37–41. We explained that although state law gives the State
government the authority to issue permits for rubble
landfills, the Express Powers Act “clearly contemplates
zoning as an activity that exists in a sphere separate
from the operations of State level regulation.” Id. at 38.
We concluded that MRA’s preemption argument failed
because it did not account for the dual nature of the
zoning and permitting processes. Id. at 40–41 (citing
Ad + Soil, Inc. v. Cty. Comm’rs of Queen Anne’s Cty., 307
Md. 307 (1986)). We recognized that zoning and permitting “perform different functions and can occur in
tandem and with different results.” Id. at 44. We concluded that the “County’s right to enact and enforce
5

We have not summarized MRA’s contentions that the rubble landfill use constituted a valid non-conforming use, that it was
entitled to a grading permit, or that its 1989 site plan approval
caused its rights to vest. These arguments were summarily discussed and rejected (see Md. Reclamation Assocs. v. Harford Cty.,
414 Md. 1, 63–64 (2010) (“MRA IV”)) and are not germane to the
issues presented in this case.

App. 37
zoning regulations is not preempted by the state statute governing landfills.” Id.
B. Constitutional Issues.
1. Vested Rights.
MRA contended that Harford County was precluded by the United States Constitution and 42 U.S.C.
§ 1983, and the Maryland Constitution and the Maryland Declaration of Rights, from applying county zoning regulations enacted or revised after MDE began
processing Phase II of MRA’s rubble landfill permit application for its Property. Id. at 35. MRA’s contention
rested on its argument that it had a vested right in its
prior county zoning approval to proceed with Phases II
and III of MDE’s rubble landfill permitting process. Id.
at 45–46.
Based upon the facts that were established in the
record, we held that the Board applied the correct principles of law in determining that MRA had not established a vested right to use its property for a rubble
landfill under the applicable zoning laws when the permitting process had commenced. Id. at 45–50. Writing
for this Court, Judge Adkins noted that the Court has
set forth a “clear standard for determining when a person has obtained a vested right in an existing zoning
use:”
Generally, in order to obtain a vested right in
an existing zoning use that will be protected
against a subsequent change in a zoning ordinance prohibiting that use, the owner must

App. 38
initially obtain a valid permit. Additionally, in
reliance upon the valid permit, the owner
must make a substantial beginning in construction and in committing the land to the
permitted use before the change in zoning ordinance has occurred.
Id. at 44–45 (citing Powell v. Calvert Cty., 368 Md. 400,
411–12 (2002)) (quoting O’Donnell v. Bassler, 289 Md.
501, 508 (1981)). MRA argued that it had a vested right
to use its property for a rubble landfill because it: (1)
“made a substantial change of position in relation to
the land (i.e., it purchased the land after it received
zoning and [SWMP] approval)”; (2) “made substantial
expenditures (it spent over a million dollars in land
acquisition, engineering and legal fees)”; and (3) “incurred substantial obligations [by] proceed[ing] with
the engineering development plans for Phases II and
III of the State’s permitting process[ ].” Id. at 45.
We held that the Hearing Examiner correctly rejected MRA’s contention that its previous expenditures
created a vested right, and that the Examiner relied
upon “clear Maryland precedent on the issue.” Id. (citing Ross v. Montgomery Cty., 252 Md. 497, 506–07
(1969) (holding that expenditures on architectural
planning do not create vested rights) and Cty. Council
for Montgomery Cty. v. District Land Corp., 274 Md.
691, 707 (1975) (holding that one million dollars in expenditures and a valid building permit did not create
a vested right in a previous zoning classification of the
land at issue)).

App. 39
We observed that MRA “attempts to carve out a
new category of use that will grant it ‘a vested right
in a County zoning approval in the context of a Statecontrolled permitting process,’ ” which is in essence, a
vested right in zoning approval. Id. Rejecting MRA’s
argument that it had a vested right in the zoning in
effect at the time that it sought its initial permit, “[w]e
follow[ed] many decades of Maryland law in holding
that MRA needs more than a state permit and site plan
approval in order to have a vested right.” Id. at 46.
We concluded that the Hearing Examiner’s findings, which were subsequently adopted by the Board,
were supported by substantial evidence in the record,
and both applied the correct principles of law to determine that MRA had no vested right to use its Property
as a rubble landfill. Id. at 49–50.
2. Whether the Application of Bill 91-10
to MRA was Arbitrary and Capricious.
MRA contended that Bill 91-10 unfairly targeted
MRA and that Harford County’s application of Bill
91-10 to MRA was arbitrary and capricious. Id. at 50.
We rejected this argument, holding that there was
“sufficient evidence on the record to support the
Board’s factual findings under the ‘substantial evidence’ standard.” Id. We noted that there were four
other proposed landfill projects at the time Bill 91-10
passed, some of which were also negatively affected. Id.
at 50–51. We observed that “the record is replete with

App. 40
complaints of residents who lived near these [other]
landfills. It is not surprising that the result of this
public outcry was a tightening of the zoning laws with
respect to rubble landfills.” Id. at 51.
MRA argued that “because of the animus towards
the proposed rubble landfill, the County singled out
MRA’s proposal when passing Bill 91-10 and point[ed]
to testimony indicating that the County was poised to
stop MRA in its efforts.” Id. We pointed out that we had
previously rejected this argument in MRA II and
brought cases to MRA’s attention regarding the motivation of legislators. Id. (citing MRA II, 342 Md. at 505
n.15). We reiterated that “ ‘a judiciary must judge by
results, not by the varied factors which may have determined legislators’ votes. We cannot undertake a
search for motive.’ ” Id. (quoting Daniel v. Family Sec.
Life Ins. Co., 336 U.S. 220, 224 (1949)). We also pointed
out that: “It is well-settled that when the judiciary
reviews a statute or other governmental enactment,
either for validity or to determine the legal effect of
the enactment in a particular situation, the judiciary
is ordinarily not concerned with whatever may have
motivated the legislative body or other governmental
actor.” Id. (quoting Workers’ Comp. Comm’n v. Driver,
336 Md. 105, 118 (1994)). Based upon established case
law, we repeated that “we shall not delve into the motives of legislators when there is ample evidence that
Bill 91-10 was directed at landfills in general and
was emergency legislation because of the great public concern over all of the proposed landfills at the
time.” Id.

App. 41
C. Estoppel.
MRA argued that Harford County was estopped
from applying Bill 91-10 to its Property, resting its argument both on principles of equitable estoppel and
zoning estoppel. Id. at 52.
1. Equitable Estoppel.
Turning to MRA’s equitable estoppel contention,
we noted that in Hill v. Cross Country Settlements,
LLC, 402 Md. 281, 309 (2007), we provided the general
definition of equitable estoppel:
Equitable estoppel is the effect of the voluntary conduct of a party whereby he is absolutely precluded both at law and in equity,
from asserting rights which might perhaps
have otherwise existed, either of property, of
contract, or of remedy, as against another person, who has in good faith relied upon such
conduct, and has been led thereby to change
his position for the worse and who on his part
acquires some corresponding right, either of
property, of contract, or of remedy.
MRA IV, 414 Md. at 52. We observed that, although
there are cases where estoppel may be applied to a municipal corporation, such “examples are scarce.” Id. We
further determined that MRA’s reliance on Rockville
Fuel & Feed Co. v. City of Gaithersburg, 266 Md. 117
(1972), was misplaced. MRA IV, 414 Md. at 52. We
explained that the Court’s primary analysis in that
case was that the “doctrine of estoppel would appear

App. 42
applicable to this case only if . . . Plaintiff had a vested
right. . . .” Id. at 53 (quoting Rockville Fuel, 266 Md. at
135) (emphasis in original). Once again, we reiterated
our vested rights holding that “with only a permit, land
purchase, and engineering studies, MRA has no vested
rights in the property at issue. As such, Rockville Fuel
does not support the notion that the county is estopped
under the circumstances of this case.” Id. (emphasis
added). We explained that Rockville Fuel did not stand
for the proposition that “the mere purchase of land in
reliance on existing zoning is itself sufficient to create
an estoppel that would preclude a change in the zoning, regardless of whether the zoning authority knew
of the landowner’s plans. Indeed, . . . we consider such
a proposition unwise.” Id.
2. Zoning Estoppel.
MRA urged us to hold that specific principles of
zoning estoppel applied thereby preventing Harford
County from applying Bill 91-10 to its Property. Id. at
54. We noted that in Sycamore Realty Co. v. People’s
Counsel of Baltimore County, 344 Md. 57, 64 (1996), we
acknowledged the application of the doctrine of zoning
estoppel in some other states, without recognizing it in
Maryland:
A typical zoning estoppel scenario arises
when the government issues a permit to a
citizen that allows him or her to develop property in some way. Commonly, after the citizen
has incurred some expense or has changed his
or her position in reliance upon the permit,

App. 43
the property for which the permit was granted
is rezoned so that the citizen’s intended use is
illegal. In such a situation, many courts allow
the citizen to assert zoning estoppel as a defense to the government’s attempt to enjoin
the property use that violates the new zoning
scheme.
The traditional, “black-letter” definition of zoning
estoppel is:
“A local government exercising its zoning
powers will be estopped when a property
owner,
(1) relying in good faith,
(2) upon some act or omission of the government,
(3) has made such a substantial change in
position or incurred such extensive obligations and expenses that it would be
highly inequitable and unjust to destroy
the rights which he ostensibly had acquired.”
Id. at 54 (quoting David G. Heeter, Zoning Estoppel:
Application of the Principles of Equitable Estoppel and
Vested Rights to Zoning Disputes, 1971 Urb. Law Ann.
63, 66 (1971)).
Although we recognized that there may be a circumstance for which the application of zoning estoppel
is warranted, we declined to adopt the doctrine in
MRA IV:

App. 44
We have not explicitly adopted the doctrine of
zoning estoppel, but we recognize that as zoning and permitting processes become more
complex, the need for such a doctrine grows.
Today, land use is much more highly regulated
than it was fifty years ago—environmental
concerns abound, and vehicular traffic demands seem to mushroom every year. Thus, a
property owner who seeks to build or develop
may well incur sizable expenses for experts
in engineering, various environmental fields,
traffic flow, archeology, etc., before putting a
spade into the ground. With increasing public
appreciation for open space and environmental protection causing apprehension about
new construction, the likelihood a developing
landowner will face serious opposition is high.
Indeed, a developer faces quite a tortured process. . . .
But we also cannot ignore a local government’s responsibility to its residents, and
thus, Maryland courts should not apply the
doctrine casually. As open space disappears,
and scientific knowledge about the adverse
environmental impact from people’s use of
land grows, local governments struggle to
balance the legitimate interests and rights of
land owners wishing to develop against
equally legitimate environmental and community concerns. Due to the delicacy of this
balancing act, and the overriding need to protect the public, local government cannot always chart a steady course through the Scylla
and Charybdis of these disparate interests.
Land developers must understand that, to a

App. 45
limited extent, the local government will meander, and before they incur significant expense without final permitting, they must
carefully assess the risk that the government
will shift course. On the other hand, there
may be situations in which the developer’s
good faith reliance on government action in
the pre-construction stage is so extensive and
expensive that zoning estoppel is an appropriate doctrine to apply.
Id. at 56–57 (emphasis in original).
Despite our recognition that there may be circumstances where we would apply the doctrine, we stopped
“short of adopting zoning estoppel in this case as the
facts set forth in this record do not support its application.” Id. at 57–58. We noted that “[f ]or decades
Maryland has maintained a stricter stance than most
states in protecting government’s right to downzone in
the face of planned construction.” Id. at 57–58 (citing
9-52D Patrick J. Rohan & Eric Damian Kelly, Zoning
and Land Use Controls § 52D.03 (2009)). We explained
that “[a]lthough we may sometimes adopt a new principle of law in a case in which the facts do not fit the
doctrine, the doctrine of equitable estoppel is so factspecific that it would be imprudent to depart from this
history before we are faced with a case presenting circumstances for its application.” Id. at 58. We stated
that “zoning estoppel must be applied, if at all, sparingly and with utmost caution. . . . Squaring with this
cautious approach, we conclude that the burden of
establishing the facts to support that theory must fall

App. 46
on the person or entity claiming the benefit of the doctrine.” Id.
Reviewing the facts in the record, we concluded
that “zoning estoppel does not fit these facts because
there was no substantial reliance by MRA.” Id. We
noted that “[u]nder the theory of zoning estoppel, if the
developer ‘has good reason to believe, before or while
acting to his detriment, that the official’s mind may
soon change, estoppel may not be justified.’ ” Id. (emphasis in original) (quoting Robert M. Rhodes, et al,
Vested Rights: Establishing Predictability in a Changing Regulatory System, 13 Stetson L. Rev. 1, 4 (1983)).
“At the heart of establishing ‘good faith’ is proof that
the claimant lacked knowledge of those facts that
would have put it on sufficient notice that it should not
rely on the government action in question.” Id. (citing
Heeter, 1971 Urb. Law. Ann. at 77–82).
We determined that “[m]any facts were available
to MRA at the time of its February 1990 purchase of
the Property that should have alerted them to the real
possibility that its plans for a rubble landfill would not
come to fruition.” Id. at 59. Specifically, we pointed out
that, on November 14, 1989, when the County Council
voted for the inclusion of the Property into the SWMP
by a favorable vote of four council members, two members abstained because they felt that they had inadequate information, and one member abstained because
his son was the president of MRA. Id. We noted that
the inclusion in the SWMP “was achieved by a fragile
majority, and MRA knew, as did the Council when it
voted, that MRA had no permit from MDE and many

App. 47
additional steps had to be taken before MRA could actually construct the rubble landfill.” Id. We commented
that “[i]nclusion of the Property in the County SWMP
was a necessary, but not a sufficient step in the process
of obtaining a state rubble fill permit from MDE.” Id.
Indeed, we noted that at the November 14 hearing, the
Council President told MRA that “what we are doing
tonight is approving a process. We are not exactly approving the landfill site. We are approving a step in a
process.” Id.
We pointed out that MRA’s president acknowledged that at the public hearing before the Hearing
Examiner “there was ‘strong’ public opposition to the
rubble landfill by ‘hundreds’ of persons at the November 7 and 14, 1989 hearings.” Id. We observed that the
composition of the Council changed, and that these
events occurred before MRA closed on its purchase on
February 9, 1990. Id. We also noted that the Hearing
Examiner found that the inclusion of the Property in
the SWMP was debated further at a County Council
meeting on February 6, 1990—three days prior to
MRA’s settlement. Id. at 60.
Additionally, we explained that “the closing on
MRA’s purchase of the Property is not the definitive
mile-marker in a zoning estoppel analysis. Generally,
purchase of land, by itself, is insufficient to constitute
substantial reliance.” Id at 60–61 (internal citations
omitted). We reasoned that “[t]o hold otherwise would
mean that a purchaser could lock in the zoning of any
parcel simply by the act of purchasing property and
asking for a permit.” Id. at 61. We stated that:

App. 48
For us to decide that the good faith reliance
element of zoning estoppel is established by
proof that an entity purchases land for the
purpose of constructing a highly controversial
rubble landfill based on a vote by the County
Council approving one step in the State permitting process, while knowing that the new
membership of [the] County Council likely opposes that use, would disregard the caution
with which we approach such a doctrine.
Id.
We concluded that MRA “must prove substantial
reliance by something other than its purchase of the
[Property].” Id. MRA attempted to do so by “focusing
on the expenses it incurred for engineering fees during
the period of its alleged good faith reliance.” Id. We
noted that “[a]lthough MRA asserts in its brief that,
relying on the County’s action, it ‘proceeded to spend
over a million dollars on the purchase of the property
and on engineering fees[,]’ it gives us no extract references to support this statement.” Id. Specifically, we
pointed out that the land purchase cost of $732,500
was insufficient to prove detrimental reliance, and
that MRA “gives us no specifics about the balance of
the alleged costs.” Id. Indeed, we added that we had
“searched the record extract ourselves,” and could only
definitely point to $25,000 that had been spent on engineering fees between August 1989 and November 20,
1989, and that the record “does not suggest, let alone
prove, that the $25,000 was spent in reliance on the
vote for inclusion in the SWMP at the November 14
hearing.” Id. at 61–62.

App. 49
We stated that:
In short, all we glean from the record is that
MRA closed on the land on February 6, 1990,
after the [C]ouncil’s November 14, 1989 vote
to include the Property in the SWMP. There
was insufficient evidence to show how much,
if any, of the engineering fees were incurred
after and in good faith reliance upon the results of the November 14 hearing. Bald allegations and general testimonial statements
that MRA spent $300,000 on engineering fees
are simply insufficient to meet MRA’s burden
to prove the fact and extent of its reliance on
the County Council’s action.
Id. at 63. Accordingly, we held that “MRA has failed to
establish the necessary good faith reliance on the
County Council’s vote to include the Property in its
SWMP either through purchase of the property or engineering expenses, or both.” Id. Therefore, we concluded that “MRA has not proven zoning estoppel
against the County according to the criteria used in
states that have adopted that doctrine.” Id.
The Epilogue to Our Prequel
To summarize our holdings in MRA IV on MRA’s
substantive claims, we held that: (1) Harford County
was not preempted from enacting zoning laws addressing rubble landfills; (2) MRA did not have a constitutionally protected vested right to operate a rubble
landfill based upon prior county zoning approval; (3)
the application of Bill 91-10 to MRA’s Property was not

App. 50
arbitrary or capricious, and MRA did not have any
substantive or procedural due process right in a rubble fill operation under the Maryland Constitution, the
Maryland Declaration of Rights, or 42 U.S.C. § 1983;
and (4) the County was not estopped from applying Bill
91-10 to MRA’s Property because MRA had no vested
right. Additionally, we declined to adopt the zoning estoppel doctrine, and further determined that, even if
we were inclined to adopt the doctrine, MRA had not
proven the zoning estoppel elements according to the
criteria used in states that had adopted the doctrine.
MRA IV, 414 Md. at 36–64. This Court also upheld the
Board’s denial of the variance requests, under the variance standards set forth in the Harford County Code.
Id. at 24–35.
As first noted by Judge Eldridge in MRA II, conspicuously absent from the host of claims asserted by
MRA was any claim that the application of Bill 91-10,
and a denial of a variance to operate a landfill, would
deprive MRA of all beneficial use of its Property,
thereby creating an unconstitutional taking without
just compensation in violation of § 40 of Article III of
the Maryland Constitution. MRA II, 342 Md. at 489.
B. Proceedings in this Case
Almost six years after the denial of its variance by
the Board of Appeals and over two-and-one-half years
after this Court’s decision in MRA IV, in February
2013, MRA filed suit against Harford County. The
Complaint alleges a “cause of action for inverse

App. 51
condemnation” arising from the County’s actions precluding MRA from operating a landfill. MRA sought
just compensation from a jury pursuant to Article III,
§ 40 of the Maryland Constitution, based upon “the deliberate actions of the County Council and the County
which unlawfully deprived MRA of the beneficial use
of its Property by precluding it from utilizing its MDE
permit to operate a rubble landfill on its Property in
Harford County.”
A review of MRA’s Complaint, and the testimony,
evidence, and arguments presented to the jury over the
course of a two-week trial, reflect that the building
blocks of MRA’s “takings” claim arise out of the same
operative facts and legal arguments, which this Court
specifically rejected in MRA IV. In a nutshell, MRA’s
“takings theory” is that: (1) MRA had a constitutionally
protected right to operate a rubble landfill and the
County’s adoption of Bill 91-10 interfered with that
right, thereby entitling MRA to compensation for its
“investment-backed expectation to build a rubble fill
on the property”; and (2) the County’s actions in adopting Bill 91-10 were undertaken with an express intention to deprive MRA of its protected interest in
operating a rubble landfill. Below, we point out a few
examples of MRA’s claims, testimony, and argument
presented in this case that are in direct contrast with
our express holdings in MRA IV.

App. 52
MRA’s Theory Submitted to the Jury was that
Bill 91-10 was Arbitrary and Capricious
MRA alleged in its Complaint that Bill 91-10 was
“made applicable to the Property for the purpose of
depriving MRA of the beneficial use of its Property”
and that the “County’s actions over many years constituted arbitrary and capricious post hoc zoning changes
specifically and intentionally targeted and aimed at
MRA to prevent MRA from operating a rubble landfill
on its Property.”
MRA further alleged that the County violated its
due process rights arising under the Maryland Constitution and the Maryland Declaration of Rights, asserting that:
The County’s actions and inactions . . . were
outrageous, egregious, callous, irrational, arbitrary[,] capricious[,] and deliberately indifferent governmental acts in violation of the
due process clauses of the Maryland Constitution and the Maryland Declaration of Rights,
which assure MRA, as a property owner, the
right to be free from arbitrary or irrational
zoning and government actions.
At trial, MRA called its expert Robert Lynch, a
former Harford County employee and a practicing attorney, to testify that in his view, he considered the
adoption of Bill 91-10 as “targeting MRA.” During
closing arguments, counsel for MRA argued to the jury
that the adoption of Bill 91-10 “was a devious scheme
concocted by the County to make sure that [MRA’s
President,] Mr. Schaefer, and MRA would never have a

App. 53
rubble fill on this property. But the County was careful.
They were trying to cover it up. But we figured it out.”
The allegations in MRA’s Complaint, as well as
testimony, and arguments presented at trial, which included its characterization of the County’s application
of Bill 91-10 to MRA’s Property, and its assertions of
improper legislative motives, were unequivocally rejected by this Court and were inconsistent with our
holding in MRA IV. MRA IV, 414 Md. at 50–51 (upholding the Board’s rejection of MRA’s argument that the
application of Bill 91-10 to MRA’s Property was arbitrary and capricious, or was enacted to target MRA,
noting that the record reflected that the Bill applied to
several other rubble landfills in the County). We rejected—not once, but twice—MRA’s argument that the
County singled out MRA’s Property when it passed
Bill 91-10. See MRA IV, 414 Md. at 51 (noting that in
MRA II, we brought cases to MRA’s attention regarding the motivation of legislators and reiterated that
this Court would not delve into the “motives of legislators when there is ample evidence that Bill 91-10 was
directed at landfills in general . . . and the great public
concern over all of the proposed landfills at that time.”).
Given our holding in MRA IV, it was improper for MRA
to present evidence and argument that the application
of Bill 91-10 was arbitrary or capricious, or that the
County had “devious motives” and was engaged in a
“cover up.” However, this was the bread and butter of
MRA’s case.

App. 54
MRA’s Testimony and Arguments Related to a
Vested or Constitutionally Protected Property
Right to Operate a Rubble Landfill
Although MRA’s Complaint does not use the
phrase “vested right,” MRA’s takings theory was premised upon MRA having a vested right6 or constitutionally protected interest in the operation of a rubble
landfill. During closing, counsel for MRA repeatedly argued to the jury that MRA had presented “overwhelming [evidence] that we had a reasonable investmentbacked expectation in this property to build and operate a rubble fill,” and that the County interfered with
that right by enacting Bill 91-10. These legal arguments directly contradict our holding in MRA IV that
MRA did not have a vested right (i.e., a constitutionally
protected interest) in a rubble fill operation, thereby
giving MRA a due process or takings claim arising
from such a right.7 MRA IV, 414 Md. at 44–50, 52–63.
6

A “vested right” has been described as
the right to initiate or continue the establishment of a
use or construction of a structure which, when completed, will be contrary to the restrictions or regulations of a recently enacted zoning ordinance. If a vested
right to initiate the use or complete construction is
found to exist, the use or structure will generally be allowed to continue as a protected nonconforming use.
4 Rathkopf ’s The Law of Zoning and Planning § 70:2 (4th ed. Rev.
2019) (hereinafter “Rathkopf ”).
7
Throughout this case, MRA has combined two legally separate and distinct constitutional takings theories. First, MRA
claimed that it had a legally compensable vested right to operate
a rubble landfill under the Harford County Code arising from the
Property’s inclusion in the SWMP and its Phase I permit, and
MRA’s alleged reliance on those conditions when it acquired the

App. 55
It was error for the circuit court to allow a jury to determine just compensation where this Court previously held that no such constitutionally protected right
existed. See Neifert v. Dep’t of Env’t, 395 Md. 486, 522
(2006); 4 Rathkopf ’s The Law of Zoning and Planning
§ 70:3 (4th ed. Rev. 2019) (“Rathkopf ”) (explaining that
“[w]hether a vested right exists under a particular
state’s law is often an important issue in court adjudication of constitutional due process and takings claims.
If a court finds under the facts of a particular case that
a vested right does not exist, the plaintiff owner or developer may be held not to have secured under state law
a ‘property interest’ protected by these constitutional
guarantees”) (emphasis added).
With respect to the damages arising from the alleged unlawful taking of its Property, MRA was permitted, over the County’s objection, to present
Property and incurred additional professional expenses and fees
in connection with permitting activities. Second, if MRA had no
legally compensable or vested right to operate a rubble landfill,
then MRA claims that the application of Bill 91-10 as applied to
its Property denied it of all beneficial use, thereby entitling MRA
to just compensation under Article III, § 40 of the Maryland Constitution. MRA’s blending of these constitutional theories under a
general takings umbrella was legally incorrect, given our holding
in MRA IV that MRA had no vested or constitutionally protected
interest in a rubble landfill operation. See Neifert v. Dep’t of Env’t,
395 Md. 486, 522 (2006) (explaining that “[i]n order to make a
successful claim under the Takings Clause, appellants must first
establish that they possess a constitutionally protected property
interest”); Rathkopf § 70:3 (explaining that where no vested right
is found to exist, dismissal of constitutional claims is appropriate). However, we will not address this point further, given our
holding that MRA failed to exhaust its administrative remedies.

App. 56
valuation testimony based entirely on the proposed
landfill’s projected revenues and capitalized profits,
which MRA’s expert asserted the landfill purportedly
would have generated. MRA offered no expert testimony on the fair market value of the Property. As reflected on the verdict sheet, the jury found that “MRA’s
inability to operate a rubble landfill” was a “regulatory
taking” and awarded MRA damages in the amount of
$45,420,076.
Harford County filed an appeal to the Court of
Special Appeals. On appeal, the intermediate appellate
court held that MRA exhausted its administrative
remedies, but that MRA’s takings claim is barred by
the statute of limitations because it was filed more
than three years after it accrued on June 5, 2007, the
date of the Board’s final decision denying MRA’s variance requests. Harford Cty. v. Md. Reclamation Assocs.,
Inc., 242 Md. App. 123 (2019).
MRA petitioned for writ of certiorari, and Harford
County filed a conditional cross-petition for writ of certiorari. Md. Reclamation Assocs., Inc. v. Harford Cty.,
466 Md. 309 (2019). We granted certiorari to consider
the questions presented in the petition and conditional-cross petition, which we have reordered:
1.

Should MRA’s takings claim be dismissed
based on MRA’s failure to raise this constitutional issue in any administrative
proceeding?

2.

Is MRA’s takings claim barred by the
statute of limitations when it was filed

App. 57
more than three years after the final administrative agency decision denying
MRA’s variance requests?
3.

Did the Board’s decision prohibiting a
proposed rubble landfill to protect the
public constitute a taking for which compensation is due?

4.

Did the jury’s damages award of more
than $45 million as compensation for
an unconstitutional taking contravene
Maryland law when the damages are not
the fair market value of MRA’s Property
but are, instead, the capitalized profits of
a hypothetical business?

We answer question 1 in the affirmative. Given
our holdings concerning question 1, we shall not reach
questions 2 through 4.
II.

DISCUSSION

A. Parties’ Contentions8
The County argues that MRA’s takings claim is
subject to and barred by the same administrative exhaustion requirement which resulted in the dismissal
of MRA’s constitutional and non-constitutional claims
in MRA II and MRA III. The County contends that under this Court’s jurisprudence, including MRA II and
MRA III, this Court has consistently taken the position
that constitutional issues, including an allegation that
8

Because we do not reach questions 2 through 4, we shall
not discuss the parties’ contentions related to those questions.

App. 58
the application of statute or legislation is unconstitutional as applied to a particular property, must be
raised and initially decided in the same statutorily
prescribed administrative proceedings. The County asserts that, because MRA never raised its constitutional
takings claims as part of the Board of Appeals’ administrative proceeding, it failed to exhaust its administrative remedies and therefore cannot bring a separate
action raising these arguments in this matter.
In response to the County’s exhaustion argument,
MRA contends that its takings claim was not subject
to the exhaustion doctrine and argues that there is
no case law which supports the proposition that a
landowner must bring a takings claim for just compensation in, as opposed to after, an administrative proceeding.
B. Standard of Review
The issue presented involves a pure question of
law. To determine whether the trial court’s decision
was legally correct, “we give no deference to the trial
court findings and review the decision under a de novo
standard of review.” Lamson v. Montgomery Cty., 460
Md. 349, 360 (2018). “Whether a plaintiff must exhaust
administrative remedies prior to bringing suit . . . is a
legal issue on which no deference is due to the lower
court and which an appellate court may address even
if a lower court did not.” Falls Road Cmty. Ass’n v. Baltimore Cty., 437 Md. 115, 134 (2014). Therefore, we

App. 59
review the merits of the question presented concerning
exhaustion of administrative remedies de novo.
C. Analysis
We shall first address the County’s assertion that
MRA failed to exhaust its administrative remedies
because issues concerning primary jurisdiction and exhaustion are treated like jurisdictional questions. Bd.
of Educ. for Dorchester Cty. v. Hubbard, 305 Md. 774,
787 (1986). Indeed, “[t]his Court has pointed out, time
after time, that because of the important public policy
involved, the Court will address sua sponte the related
issues of primary jurisdiction, exhaustion of administrative remedies, [and] finality of administrative decisions. . . .”. Renaissance Centro Columbia, LLC v.
Broida, 421 Md. 474, 487 (2011).
The County alleges that MRA was required to
raise its takings claim in an administrative proceeding
before it could seek just compensation in the circuit
court. For the reasons set forth herein, we agree.
Takings Claims—They Aren’t All the Same
Article III, § 40 of the Maryland Constitution provides: “The General Assembly shall enact no Law authorizing private property, to be taken for public use,
without just compensation, as agreed upon between
the parties, or awarded by a Jury, being first paid or
tendered to the party entitled to such compensation.”
Section 40 “has been determined to ‘have the same

App. 60
meaning and effect in reference to an exaction of property, and [ ] the decisions of the Supreme Court on the
Fourteenth Amendment are practically direct authorities.’ ” Litz v. Md. Dep’t of Env’t, 446 Md. 254, 266 (2016)
(footnote omitted) (quoting Bureau of Mines v. George’s
Creek Coal & Land Co., 272 Md. 143, 156 (1974)). Although this constitutional provision covers eminent
domain actions, it also applies to inverse condemnation
claims. Id.
An inverse condemnation claim is “characterized
as a shorthand description of the manner in which a
landowner recovers just compensation for a taking of
his property when condemnation proceedings have not
been instituted.” Id. (quoting Coll. Bowl, Inc. v. Mayor
& City Council of Baltimore, 394 Md. 482 (2006) (additional citations omitted)). “Essentially, a plaintiff may
‘recover the value of property which has been taken in
fact by the governmental defendant, even though no
formal exercise of the power of eminent domain has
been attempted by the taking agency.’ ” Id. (quoting
Coll. Bowl, Inc., 394 Md. at 489).
An inverse condemnation claim may arise in a
number of ways:
[T]he denial by a governmental agency of access to one’s property, regulatory actions that
effectively deny an owner the physical or economically viable use of the property, conduct
that causes a physical invasion of the property, hanging a credible and prolonged threat
of condemnation over the property in a way
that significantly diminishes its value, or . . .

App. 61
conduct that effectively forces an owner to
sell.
Coll. Bowl, Inc., 394 Md. at 489 (citing Amen v. City of
Dearborn, 718 F.2d 789 (6th Cir. 1983)).9
Because every governmental action underlying an
asserted takings claim is not the same, it is critical
that we analyze the takings claim within our jurisprudence specific to the type of government action that is
alleged to create a constitutional taking. Here, MRA is
asserting a non-possessory regulatory taking arising
from the adoption and application of a zoning regulation. Accordingly, we examine MRA’s takings claim under our case law specific to regulatory takings claims
arising out of the application of zoning regulations.
Regulatory Takings Claims Arising from
the Application of Zoning Regulations
The United States Supreme Court and this Court
have repeatedly held that zoning regulations are a
valid exercise of a government’s police power so long
as the limitations imposed are in the public interest
and are substantially related to the health, safety, or
general welfare of the community. See, e.g., Penn Cent.
Transp. Co. v. City of New York, 438 U.S. 104, 125–26
(1978) (“[I]n instances in which a state tribunal reasonably concluded that ‘the health, safety, morals, or
9

In addition to the above-described governmental conduct,
we have held that an inverse condemnation claim may arise
through governmental inaction in the face of an affirmative duty
to act. See Litz v. Dep’t. of Env’t, 446 Md. 254, 273 (2016).

App. 62
general welfare’ would be promoted by prohibiting particular contemplated uses of land, [the Supreme Court]
has upheld land-use regulations that destroyed or adversely affected recognized real property interests. . . .
Zoning laws are, of course, the classic example, . . .
which have been viewed as permissible governmental
action even when prohibiting the most beneficial use
of the property.”) (citations omitted); Casey v. Mayor &
City Council of Rockville, 400 Md. 259, 279 (2007) (“It
is well-settled that the adoption and administration of
zoning procedures are an exercise of police power
delegated to specific individual political subdivisions
and municipalities of the State.”); Anne Arundel Cty.
Comm’rs v. Ward, 186 Md. 330, 338 (1946) (“[Z]oning,
in general, is a valid exercise of the police power.”).
As part of the exercise of its police powers, it is appropriate for a local government to adopt comprehensive zoning regulations addressing, inter alia, the
types of uses that it will permit in a particular zoning
district, and bulk, size, area, and height restrictions to
ensure compatibility of such proposed uses with the
surrounding areas. Zoning matters, such as the adoption of a text amendment applicable to all properties
within a zoning district, are legislative functions. See
White v. Spring, 109 Md. App. 692, 697 (1996) (Cathell,
J.), cert. denied, 343 Md. 680 (1996) (“The creation of
zoning policy is a matter reserved for the legislative
body of government; it is neither normally an administrative nor a judicial function.”). Here, the specific exercise of police powers involved the Harford County

App. 63
Council’s legislative enactment of zoning regulations
to govern rubble landfills.
Bill 91-10—A Valid Exercise of Police Powers
Bill 91-10 consisted of a text amendment to the
Harford County Code, which established, among other
things, a minimum parcel size of 100 acres for a property proposing to be used as a rubble landfill, and a
1,000-foot buffer from the nearest residence. The Bill
applied uniformly to all rubble landfills in the County.
In the Hearing Examiner’s April 2002 decision, the
Hearing Examiner stated that between 1988 and 1991,
five rubble landfills were operational or in the planning stages in Harford County. The Hearing Examiner
explained that the law was “modeled in large part on
zoning legislation that had been enacted the prior year
in Anne Arundel County.” The Harford County Council
had the authority to enact Bill 91-10, which constituted a valid exercise of its police powers.10 In MRA IV,
we upheld the County’s right to enact Bill 91-10 and to
apply it to MRA’s Property. MRA IV, 414 Md. at 50–51.
The legitimacy of Bill 91-10 having been established
by this Court in MRA IV, and not subject to further
judicial proceedings, we turn to whether MRA could
maintain an independent takings claim arising from
the application of Bill 91-10 to its Property.

10

In Md. Reclamation Assocs., Inc. v. Harford Cty., 342 Md.
476, 489 (1996) (“MRA II”), we explained that MRA was not making a facial attack of Bill 91-10, and its arguments arose solely
from the application of the Bill to its Property.

App. 64
When Does the Exercise of Police Powers Go Too
Far and Create a Regulatory Taking?
As we explained in Casey v. Mayor & City Council
of Rockville, 400 Md. 259 (2007), “[the] exercise of the
local legislature’s police power [to adopt zoning regulation] is not absolute . . . and, if it goes too far, may constitute a regulatory taking of the land.” Id. at 306
(citing Penn. Cent. Transp. Co., 438 U.S. at 127 (“[A] use
restriction on real property may constitute a ‘taking’ if
not reasonably necessary to the effectuation of a substantial public purpose, or perhaps if it has an unduly
harsh impact upon the owner’s use of the property.”)).
The difficulty arises in deciding whether a restriction is an exercise of the police power, or whether
the governmental action constitutes an exercise of its
eminent domain power. “What constitutes a ‘taking of
property’ under the eminent domain power and what
is a reasonable curtailment of the use and enjoyment
of one’s property not requiring payment of compensation depends upon the facts in each individual case.”
Stanley D. Abrams, Guide to Maryland Zoning Decisions, § 10.01 (5th ed. 2012). “It is an accurate statement to say that every restriction upon the use and
enjoyment of property is a ‘taking’ to the extent of such
restriction; but every ‘taking’ is not a ‘taking’ in a constitutional sense for which compensation need be
paid.” City of Annapolis v. Waterman, 357 Md. 484, 497

App. 65
(2000) (citing Stevens v. City of Salisbury, 240 Md. 556,
562–63 (1965)).11
In City of Baltimore v. Borinsky, 239 Md. 611, 622
(1965), we summarized the applicable test for takings
where zoning regulations are involved:
The legal principles whose application determines whether or not the restrictions imposed
by the zoning action on the property involved
are an unconstitutional taking are well established. If the owner affirmatively demonstrates that the legislative or administrative
determination deprives him of all beneficial
use of the property, the action will be held unconstitutional. But the restrictions imposed
must be such that the property cannot be used
for any reasonable purpose. It is not enough
for the property owners to show that the zoning action results in substantial loss or hardship.
(emphasis added); see also Casey, 400 Md. at 307 (collecting cases); State v. Good Samaritan Hosp. of Md.,
Inc., 299 Md. 310, 324–25 (1984) (“For government restriction upon the use of property to constitute a ‘taking’ in the constitutional sense, so that compensation
11

Of course, a takings claim only arises where there is a constitutionally protected property interest. See Neifert, 395 Md. at
522. Because this Court held in MRA IV that MRA did not have a
constitutionally protected vested right to operate a rubble landfill,
the only way MRA could have established a constitutional taking
was to prove that the application of Bill 91-10 to its Property
would deny MRA of all beneficial use of the Property. Because
MRA never raised this issue in its decades of litigation, it was not
considered by the Board or this Court.

App. 66
must be paid, the restriction must be such that it essentially deprives the owner of all beneficial uses of the
property.”); Pitsenberger v. Pitsenberger, 287 Md. 20, 34
(1980) (“To constitute a taking in the constitutional
sense . . . the state action must deprive the owner of all
beneficial use of the property. . . . [I]t is not enough for
the property owner to show that the state action
causes substantial loss or hardship.”); Pallace v. Inter
City Land Co., 239 Md. 549, 558 (1965) (“If an owner
affirmatively demonstrates that the zoning action deprives him of all reasonable beneficial use of his property, the action will be held unconstitutional, but the
restriction upon the property imposed by the zoning
action must be such that the property cannot be used
for any purpose to which it is reasonabl[y] adapted.”)
(emphasis added).
Stanley Abrams summarizes Maryland law governing takings claims arising from the application of
zoning regulations and the precipitous hurdle which
the property owner must overcome:
The applicability of these principles with respect to judicial review of zoning decisions is
now firmly established in Maryland. Simply
stated, unless a physical taking has occurred,
the contention by a property owner that the
action of a local zoning authority is confiscatory and thereby constitutes an unconstitutional “taking” of his property will fail unless
it can be demonstrated by substantial evidence that the governmental action, decision
or requirement deprives him of all beneficial
use of the property and that the property

App. 67
cannot be used for any other reasonable purpose under its existing zoning.
Abrams, Guide to Maryland Zoning Decisions, § 10.01
(emphasis added).
Applying our long-settled jurisprudence specific to
takings claims arising from the application of zoning
regulations, for MRA to assert a successful takings
claim, MRA was required to prove that the application
of Bill 91-10 to its Property deprives it of all beneficial
use of the Property and that the Property cannot be
used for any other purpose under the existing zoning
established in the Harford County Code.
Having established the legal standard that MRA
was required to satisfy for a successful takings claim,
before we consider whether MRA had the right to present a takings claim to a jury, we must first answer a
threshold question—who makes the initial factual determination that a rubble landfill is the only beneficial
use that can be made of the Property under the zoning
provisions in the Harford County Code? The Hearing
Examiner and the Harford County Board of Appeals?
Or a jury? Without a factual determination that there
are no other beneficial uses that can be made of the
Property aside from a rubble landfill under the Harford County Zoning Code, there can be no regulatory
taking, and consequently, no right to a jury determination of damages under Article III, § 40 of the Maryland
Constitution. Our analysis of this threshold issue
takes us full circle to Chapter 1 of our prequel—MRA
II, where this Court first explained the requirement

App. 68
that MRA exhaust administrative remedies in connection with the application of Bill 91-10 to its Property.
The Exhaustion Doctrine Applies to All
Constitutional Claims Arising from the
Application of Zoning Legislation to Property
This case requires us to examine MRA’s asserted
right to bring a takings claim arising out of the application of a zoning regulation, in the context of our settled and long-standing jurisprudence developed over
many decades that requires a litigant to exhaust his
or her administrative remedies where the General
Assembly has vested original jurisdiction with an administrative agency—in this instance, the Board of
Appeals.
Generally, the doctrine of exhaustion of administrative remedies requires that, under circumstances
where a party’s claim “is enforceable initially by administrative action,” the party must “fully pursue administrative procedures before obtaining limited
judicial review.” Maryland-Nat’l Capital Park & Planning Comm’n v. Wash. Nat’l Arena, 282 Md. 588, 602
(1978) (internal citations omitted); see also Arroyo v.
Bd. of Educ. of Howard Cty., 381 Md. 646, 661 (2004)
(explaining that “[t]he exhaustion of administrative
remedies doctrine requires that a party must exhaust
statutorily prescribed administrative remedies . . . before the resolution of separate and independent judicial
relief in the courts.”) (emphasis in original).

App. 69
As we explained in MRA II, 342 Md. at 494, Harford
County is a chartered county, and therefore, is subject
to the Express Powers Act, LG § 10-101, et. seq.12 The
Express Powers Act, in LG §§ 10-305 and 10-324, provides the zoning authority for all charter counties except Montgomery and Prince George’s Counties.13
Section 10-305 authorizes a charter county to establish
a board of appeals and provides that a board of appeals
shall have exclusive appellate jurisdiction over, inter
alia, a variety of adjudicatory zoning matters. Specifically, under the Express Powers Act, LG § 10-305(b),
the Legislature has given the chartered counties the
authority to establish a board of appeals with
original jurisdiction or jurisdiction to review
the action of an administrative officer or unit
of county government over matters arising
under any law, ordinance, or regulation of
the county council that concerns: (1) an
12

Given our volumes of jurisprudence explaining the Express Powers Act, particularly, our discussion of a board of appeals’ exclusive appellate jurisdiction arising out of Article 25,
§ 5(U), it is worth noting that Md. Code (1974, 2013 Repl. Vol,
2019 Supp.), Local Government Article (“LG”) § 10-305 was previously codified as Article 25, § 5(U). See, e.g., Holiday Point
Marina Partners v. Anne Arundel Cty., 349 Md. 190, 198–99
(1998); MRA II, 342 Md. at 476, 491–92; Prince George’s Cty. v.
Blumberg, 288 Md. 275, 292–94 (1980). Article 25A, § 5(U) was
re-codified without substantive change, in LG § 10-305. See 2013
Md. Laws, Chap. 119.
13
The zoning authority to Montgomery and Prince George’s
Counties is set forth in the Maryland-Washington Regional District Act (“RDA”), previously codified in Article 28 of the Maryland
Code, and codified now in Md. Code (2012, 2019 Supp.), Land Use
Article (“LU”) § 20-101, et. seq.

App. 70
application for a zoning variance or exception
. . . ; (2) the issuance, renewal, denial, revocation, suspension, annulment, or modification
of any license, permit, approval, exemption,
waiver . . . , or other form of permission or of
any adjudicatory order. . . .
When issuing its decision, the Board of Appeals is required to “file an opinion that shall include a statement
of the facts found and the grounds for the decision.” LG
§ 10-305(c). Any person aggrieved by that decision may
seek judicial review by the circuit court for the respective county, with a further right to appeal the decision
of the circuit court to the Court of Special Appeals. LG
§ 10-305(d).
Consistent with the authority granted by the Express Powers Act, Harford County has established the
Harford County Board of Appeals. Harford County
Code § 267-9. The Board is vested with the authority
to, inter alia, “hear and decide any zoning case brought
before the Board and to impose such conditions or limitations as may be necessary to protect the public
health, safety, and welfare.” Harford County Code
§ 269-9(B)(1). The Board “may employ Hearing Examiners to hear zoning cases within the jurisdiction of the
Board.” Harford County Code § 269-9(C). “The Hearing
Examiner shall have the authority, duty and responsibility to render recommendations in all cases, subject
to final approval of the Board.” Id. Furthermore, “[p]roceedings before the Hearing Examiner and the Board
shall be quasi-judicial in nature and conducted in accordance with the rules of procedure of the Board in

App. 71
such a manner as to afford the parties due process of
law.” Harford County Code § 269-9(E). In accordance
with the requirements of the Express Powers Act,
“[t]he decision of the Board shall be in writing and
shall specify findings of fact and conclusions of law.”
Harford County Code § 269-9(H).
We have repeatedly held in MRA II, 342 Md. at
492, and MRA III, 382 Md. at 363, as well as numerous
other cases, that under the Express Powers Act, where
a litigant is attempting to challenge, in a court proceeding, the application of a zoning regulation to his
or her property, the litigant must first exhaust administrative remedies. See, e.g., Holiday Point Marina, v.
Anne Arundel Cty., 349 Md. 190, 198–99 (1998); Prince
George’s Cty. v. Blumberg, 288 Md. 275, 292–294
(1980).
As we explained in MRA II, the application of Bill
91-10 to MRA’s Property was subject to the exhaustion
requirements under the Express Powers Act. MRA II,
342 Md. at 491. We held that prior to MRA filing a complaint in the circuit court seeking a declaratory judgment and injunctive relief against Harford County
challenging the application of the Bill to its Property,
it was required to seek a variance and to exhaust its
administrative remedies before the Harford County
Board of Appeals. Id. at 491–93. In connection with its
variance request, we explained that: “under Maryland
law, the Harford County Board of Appeals would be
authorized and required to consider any of the constitutional and other issues raised by [MRA] to the extent
that those issues would be pertinent in the particular

App. 72
proceeding before the Board.” Id. at 491–492 (emphasis
added).
After this Court issued its second directive to MRA
in MRA III, MRA finally applied for a variance. However, it did not present any evidence, nor did it make
any legal argument before the Hearing Examiner or
the Board of Appeals, that a failure to grant a variance
would deprive it of all beneficial use of its Property,
which would thereby entitle it to just compensation
under Article III, § 40 of the Maryland Constitution.14
14

The only whiff of evidence that MRA presented during any
administrative agency proceeding that comes close to a takings
assertion came in the form of expert testimony from Robert S.
Lynch, an attorney and former Director of Planning and Zoning
in Harford County. Mr. Lynch did not testify in the variance proceeding—he testified in the 2001 hearing which challenged the
Zoning Administrator’s interpretation of Bill 91-10 and its application to MRA’s property. During the hearing, Mr. Lynch testified
that because of the Property’s physical condition, which he described as “likening it to a moonscape,” his opinion was that the
Property would have to be reclaimed by utilizing it as a rubble
landfill. Mr. Lynch testified that the Property “does not have any
economically beneficial use other than as a landfill.” This testimony was refuted by testimony of Arden McClune, a Harford
County employee. As summarized in the Hearing Examiner’s Decision dated April 2002, Ms. McClune testified that she believed
there were many other permitted uses that could be made of the
property, as well as additional uses that could be permitted by
special exception. Ms. McClune testified that some of the other
uses “could include: construction services and suppliers, open
space, parkland, residential or institutional uses, golf and driving
range, [and] shooting range.” She “also disagreed with [Mr.
Lynch’s] earlier testimony that the [P]roperty needed to be reclaimed through rubble.” Ms. McClune further testified that she
“was in agreement with the affidavit of former Planning Director
William Carroll that there were other types of uses that could be

App. 73
This was a fatal flaw, which prevented any court from
considering the matter further. We explain.
Under our zoning jurisprudence, few legal tenets
have received greater acceptance than the principle
that where a landowner alleges that the application of
a zoning regulation to his or her property is invalid or
unlawful, all constitutional and non-constitutional
claims must be raised within the context of the administrative proceeding. MRA III, 382 Md. at 366; MRA II,
342 Md. at 490–92; see also Prince George’s Cty. v.
Ray’s Used Cars, 398 Md. 632, 651 (2007) (dismissing
a landowner’s declaratory judgment action alleging
constitutional violations arising from the application
of a zoning regulation to its property on the ground
that the landowner was required to invoke and exhaust its administrative remedies, explaining that
“[n]ot only are administrative agencies fully competent
to decide constitutional issues, but this Court has consistently held that exclusive or primary remedies must
be pursued and exhausted, before resort to the courts,
made of the MRA site.” Although this testimony concerning alternative uses was provided at the initial administrative hearing,
MRA never made a takings claim in that proceeding. Accordingly,
neither the Zoning Administrator, Hearing Examiner nor the
Board made any findings concerning a takings claim. See Md.
Reclamation Assocs., Inc. v. Harford Cty., 382 Md. 348, 357–68
(2004) (“MRA III”) (summarizing the Hearing Examiner’s nine
findings and legal conclusions). Additionally, MRA never presented any evidence or legal argument during the variance proceeding that the denial of a variance would create an unlawful
taking. Accordingly, the claim was not presented to the Hearing
Examiner or the Board as part of the variance case, and therefore,
was not considered by this Court in MRA IV.

App. 74
in cases presenting constitutional issues.”); Holiday
Point Marina, 349 Md. at 199 (“This Court has consistently held over the past fifty years that the question of
a zoning ordinance’s validity, as applied to the property
involved, is an appropriate issue for an administrative
zoning agency.”); Ins. Comm’r v. Equitable Life Assurance Soc’y, 339 Md. 596, 619 (1995) (explaining that
“where a party is not challenging the validity of the
statute as a whole, but is arguing that the statute as
applied in a particular situation is unconstitutional,
and where the legislature has provided an administrative remedy, this Court has regularly held that the
constitutional issue must be raised and decided in the
statutorily prescribed administrative and judicial review proceedings”); Arnold v. Prince George’s Cty., 270
Md. 285, 294–99 (1973) (requiring a property owner,
asserting that a zoning ordinance was unconstitutional as applied to his property, to exhaust his administrative remedy); Hartman v. Prince George’s Cty., 264
Md. 320, 323–25 (1972) (reviewing numerous cases
holding that constitutional arguments must be made
in the statutorily prescribed administrative proceedings); Gingell v. Bd. of Cty. Comm’rs, 249 Md. 374, 376–
77 (1968) (rejecting the plaintiff ’s argument that she
need not exhaust her administrative remedy on the
theory that only a court may declare the statute unconstitutional); Mayor of Balt. v. Seabolt, 210 Md. 199,
207 (1956) (holding that the zoning appeals board
was authorized to grant “ ‘exceptions’ . . . by holding
the [zoning] ordinance pro tonto invalid”); Hoffman
v. Mayor of Balt., 197 Md. 294, 305–06 (1951)

App. 75
(“Application for an ‘exception’ is an appropriate way
to raise” the issue of whether a zoning ordinance is
invalid).
Nor do our cases carve out any “takings exception”
from the exhaustion requirement. In Prince George’s
County v. Blumberg, 288 Md. 275 (1980), this Court reversed a trial court’s judgment entered against Prince
George’s County in favor of the property owners in the
amount of $3.6 million because the property owners
did not exhaust their administrative remedies under
the Express Powers Act and the Prince George’s
County Code. Id. at 282–94. With respect to the property owners’ claim that the exhaustion requirements
did not apply to takings claims, we explained that:
“This Court has held on many occasions, when faced
with a claim of an agency’s unconstitutional taking of
property, that such issues must still go through the administrative process, particularly when judicial review
is provided.” Id. at 293 (emphasis added) (citations
omitted).
It is also clear from our jurisprudence concerning
unconstitutional takings claims arising from the application of zoning regulations that the Board makes the
initial factual determination of whether a property
owner can use its property for any other beneficial use,
not the courts. See Poe v. City of Balt., 241 Md. 303, 311
(1966) (explaining that where a landowner is not attacking the constitutionality of a statute as a whole,
but only its validity as applied to his property, “the determination of the basic fact—whether the property
can be used, under existing circumstances, for any

App. 76
reasonable purpose under the zoning classification—is
left for primary determination to the expertise of the
Board, with full right of appeal to the courts on the
questions of law involved.”) (emphasis added); see also
Gingell, 249 Md. at 376 (affirming the dismissal a
property owner’s constitutional attack on an ordinance because the property owner failed to exhaust
administrative remedies, explaining that one of “[t]he
reasons for requiring exhaustion of administrative
remedies before resorting to the courts are that it is
within the expertise of the administrative agency involved to hear and consider the evidence brought before it and make findings as to the propriety of the
action requested. . . .”); Spaid v. Board of Cty. Comm’rs
for Prince George’s Cty., 259 Md. 369 (1970) (board
making initial determination of takings claims arising
from zoning regulation, subject to court’s judicial review); City of Balt. v. Borinsky 239 Md. 611 (1965)
(board making the initial determination on the property owner’s takings claim, subject to court’s judicial
review). There are several reasons for this exhaustion
requirement.
First, the types of uses that can be made of a property involve the application of local zoning regulations
to a specific property. Each governmental jurisdiction
with planning and zoning authority has the authority
to adopt a zoning ordinance, which includes land uses
permitted within a particular zoning district, as well
as the authority to establish conditions applicable to
the particular use designed to protect adjacent properties from potential adverse effects. Maryland appellate

App. 77
courts have repeatedly held that “[i]n zoning matters,
the zoning agency is considered to be the expert in the
assessment of the evidence, not the court.” Bowman
Grp. v. Moser, 112 Md. App. 694, 698 (1996); see also
Gingell, 249 Md. at 375 (noting that one reason for “requiring the exhaustion of administrative remedies before resorting to the courts [is] [ ] that it is within the
expertise of the administrative agency involved to hear
and consider the evidence brought before it and make
findings as to the propriety of the action requested”);
Poe, 241 Md. 307–08 (explaining that “[i]t is particularly within the expertise of an administrative body
such as the Board to marshal and sift the evidence presented in a hearing upon an application for a special
exception and to make an administrative finding as to
whether . . . the application of the ordinance to the
property involved deprives the owner of any reasonable use of it”).
Second, the zoning administrative agency—not
the court—is vested with the authority to grant the
necessary relief on either constitutional or non-constitutional grounds. As discussed in more detail below,
where the application of a zoning regulation will deny
the landowner of all beneficial use of its property, the
Board of Appeals has the authority to grant an administrative remedy in the form of a variance—a constitutional “relief valve"—to avoid a takings claim.

App. 78
The Use of a Variance in Zoning Regulations—
A Constitutional Relief Valve for Takings Claims
In the context of a validly enacted legislative zoning amendment, a variance is an essential tool that can
be utilized to address a potential unconstitutional taking. “A variance refers to administrative relief which
may be granted from the strict application of a particular development limitation in the zoning ordinance
(i.e., setback, area and height limitations, etc.).” Mayor
& Council of Rockville v. Rylyns Enter., Inc., 372 Md.
514, 537 (2002) (quoting Stanley D. Abrams, Guide to
Maryland Zoning Decisions, § 11.1 (3d ed. 1992)); see
also Rathkopf § 58:1 (“A variance is the right to use or
to build on land in any way prohibited by strict application of a zoning ordinance. It is permission given to
a property owner to depart from the applicable zoning
requirements by constructing or maintaining a building or structure or establishing or maintaining a use of
land that otherwise would not be allowed.”).15
Although different jurisdictions use slightly different standards for granting a variance, there is a common purpose behind allowing variances: The variance
is a means of correcting occasional inequities that may

15

“A ‘use’ variance generally permits a land use other than
the uses permitted in the particular zoning ordinance . . . while
an ‘area’ variance generally excepts an applicant from area,
height, density, setback or sideline restrictions.” Belvoir Farms
Homeowners Ass’n, Inc. v. North, 355 Md. 259, 275 n.10 (1999).
Here, a rubble landfill is a permitted use in the AG (Agricultural)
Zoning District. MRA was seeking an area variance for relief from
the minimum parcel size and setback requirements.

App. 79
be created under general Euclidean16 zoning ordinances. Specifically, the variance is an administrative
zoning tool that can act as a “safety valve” to avoid
the application of an otherwise valid zoning regulation in a manner that could create an unconstitutional
taking. See, e.g., Bacon v. Town of Enfield, 840 A.2d 788,
799 (N.H. 2004) (Nadeau, J., dissenting) (noting that
the variance standard “was designed to loosen the
16

For a thorough description of “Euclidean” zoning, see
County Council of Prince George’s County v. Zimmer Development
Co., 444 Md. 490, 511 (2015) (Harrell, J.) and Mayor & Council
of Rockville v. Rylyns Enterprises, Inc., 372 Md. 514, at 534–35
(2002) (Harrell, J.). As discussed in Rylyns, “Euclidean zoning is
a fairly static and rigid form of zoning named after the basic zoning ordinances upheld in Village of Euclid v. Ambler Realty Corp.,
272 U.S. 365 [ ] (1926).” Id. at 534. We summarized the rationale
behind Euclidean zoning in Zimmer:
Early zoning ordinances sought to separate incompatible land uses through a method that would become
known as “Euclidean” zoning. Under a Euclidean zoning scheme, a zoning authority divides geographically
an area into use districts. Certain permitted uses are
specified by local ordinance and allowed in particular
geographic areas . . . and the zoning assigned to them
are then recorded on an official zoning map. The number of classifications that are available to be applied
within a district has increased exponentially since the
early schemes, but Euclidean zoning remains a basic
framework for implementation of land use controls at
the local level. Euclidean Zoning aimed to provide stability and predictability in land use planning and zoning. . . . A school of thought evolved that the stability
and predictability of Euclidean zoning amounted sometimes to undesirable rigidity.
444 Md. at 511–13 (cleaned up) (internal citations and paragraph
breaks omitted). Special exceptions and variances give Euclidean
zoning some flexibility. Id. at 513–14.

App. 80
strictures which have made it essentially impossible
for a [zoning agency] [ ], honoring the letter of the law
. . . to afford the relief appropriate to avoid an unconstitutional application of an otherwise valid regulation”) (internal citations omitted); Mustang Run Wind
Project, LLC v. Osage Cty. Bd. of Adjustment, 387 P.3d
333 (Okla. 2016) (“A zoning variance . . . granted by a
local government entity [is a] [ ] historic procedure[ ]
designed to . . . act as a safety valve when applying a
zoning regulation to prevent governmental restrictions
from operating in such a manner that the burden on
an individual landowner amounts to a taking.”)
(cleaned up); Rathkopf § 58:1 (explaining that the variance “is a kind of ‘escape hatch’ or ‘safety valve’ of zoning administration”); Jonathan E. Cohen, Comment, A
Constitutional Safety Valve: The Variance in Zoning
and Land-Use Based Environmental Controls, 22 B.C.
Envtl. Aff. L. Rev. 307, 330 (1995) (explaining how the
variance was originally conceived as a means to ensure
the constitutionality of zoning ordinances adopted under traditional Euclidean zoning by operating as a
“comprehensive zoning’s constitutional ‘safety valve’ ”
where the application of a zoning regulation would impose an undue hardship on a landowner).
Likewise, this Court has held that a variance is
an appropriate land use tool that can be applied by an
administrative zoning agency to alleviate a constitutional violation arising out of the application of an
otherwise valid zoning regulation. In Holiday Point
Marina, we explained that under our exhaustion jurisprudence relating to assertions of governmental

App. 81
takings arising out of zoning regulations, “[w]e have
held that, if a restriction under a zoning ordinance cannot constitutionally or validly be applied, this is a
proper ground for the administrative agency to grant
an exception or a variance.” 349 Md. at 199 (collecting
cases).17
In Belvoir Farms Homeowners Association v.
North, 355 Md. 259 (1999), we explained the difference
in Maryland between the “unwarranted hardship” or
“unreasonable hardship” variance standard used in
local zoning codes18 and the unconstitutional takings
standard. Id. at 275–82. Writing for this Court, Judge
Cathell undertook an extensive analysis of the variance tool in administrative zoning proceedings. Id.
After examining the various judicial interpretations
of the “unwarranted” or “unreasonable” hardship
17

A “special exception” is another land use tool “that adds
flexibility to a comprehensive zoning scheme by serving as a
‘middle ground’ between permitted uses and prohibited uses in a
particular zone.” People’s Counsel for Balt. Cty. v. Loyola Coll.,
406 Md. 54, 71 (2008).
18
Different local zoning codes and ordinances adopt similar,
but slightly different language when describing the “hardship”
prong of the variance standard. In Belvoir Farms Homeowners
Association v. North, 355 Md. 259, 275 (1999), we considered
whether the “unwarranted hardship” standard required for a critical area variance was less restrictive than the “unnecessary
hardship” or “undue hardship” standard generally applied to
“use” variances. We determined that these terms were indistinguishable. Id. Similarly, for purposes of our discussion in this
case, we find no substantive distinction between the “unwarranted hardship” standard described in Belvoir Farms, and the
“unreasonable hardship” standard described in the Harford
County Code, Chapter 267, § 267-11(A)(2).

App. 82
standard adopted by other states in the application of
their respective variance standards, we explained that
“[a]uthorities throughout the country . . . define the
unnecessary, unreasonable, unwarranted, or similarlyworded hardship standard to be either the denial of
beneficial or reasonable use or the denial of all viable
economic use, the unconstitutional taking standard.”
Id. at 281. We stated that “[i]t is important to note here
that the purpose of a variance is to protect the landowner’s rights from the unconstitutional application of
zoning law.” Id. (emphasis added) (citations omitted).
We explained, however, that the fact that “a variance
may [ ] be granted in cases in which [the] application
of a particular zoning ordinance would result in an unconstitutional taking of property” does not mean that
a variance could not be used to grant relief where the
applicable local zoning variance standard required
proof of something less than an unconstitutional taking. Id.
We held that the “unwarranted hardship” standard, or similar standard, is less restrictive than the
unconstitutional taking standard, and determined
that the unwarranted hardship standard, and its
similar manifestations, are equivalent to the “denial of
reasonable and significant use of the property.” Id. at
282. We also held that “whether a property owner has
been denied reasonable and significant use of his property is a question of fact best addressed by the expertise of the Board of Appeals, not the courts.” Id.

App. 83
Our holding in Belvoir Farms is significant because although we held that the “unwarranted hardship” or similar standard is not as restrictive as the
unconstitutional takings standard, we nonetheless reiterated that a variance is a device that may be used to
alleviate an unconstitutional taking. 355 Md. at 281.
In other words, simply because a board has the authority to grant a variance where the applicant proves
something less than an unconstitutional taking under
an “unwarranted hardship” or “unreasonable hardship” standard, it does not follow that a variance cannot be used to grant relief when the property owner
proves a greater hardship consisting of an unconstitutional taking of property arising from the application
of facially valid zoning regulation. See, e.g., Holiday
Point Marina, 349 Md. at 199 (collecting cases).
City of Baltimore v. Borinsky, 239 Md. 611 (1965),
is instructive on the manner in which takings claims
are presented to a board of appeals when a property
owner asserts that the application of zoning regulations will deny him or her the right to any beneficial
use of their property. In Borinsky, the property owner
filed a special exception seeking to permit the construction of a warehouse on the property. Id. at 618.
The property had been improved by the property
owner’s deceased parents by 53 garages, which were
rented to neighbors for the storage of automobiles in
the 1920s. Id. at 617. The property had fallen into disrepair. Id. at 618. The property was located in a residential zoning district, but was surrounded by
commercial uses, with the exception of row houses

App. 84
along one boundary. Id. As part of its application before
the board of appeals, the property owner testified that
the property could not be feasibly used for residential
purposes. Id. at 618–19. The property owner called an
architect, who testified that the irregularly shaped lot
was not feasible for residential construction. Id. at 619.
The property owner also presented a developer/real estate expert, who testified that it would be economically
unsound to build houses on the lot, which was irregularly shaped, that the surrounding uses had been
transformed from residential to commercial uses, and
that in his opinion, “it would be ‘most difficult’ to secure
financing for the construction of residential dwellings
on the property.” Id.
The board considered the property owner’s takings
arguments and denied the requested relief. Id. at 620.
On appeal, this Court affirmed the board’s decision. Id.
at 627. We noted that “[t]he legal principles whose application determines whether or not the restrictions
imposed by the zoning action on the property involved
are an unconstitutional taking are well-established.”
Id. at 622. We reiterated the takings standard when
the underlying governmental action involves the application of zoning regulations:
If the owner affirmatively demonstrates that
the legislative or administrative determination deprives him of all beneficial use of the
property, the action will be held unconstitutional. But the restrictions imposed must be
such that the property cannot be used for any
reasonable purpose. It is not enough for the

App. 85
property owners to show that the zoning action results in substantial loss or hardship.
Id. (citations omitted).
This Court reviewed the testimony of the property
owner’s witnesses that, in their opinion, the property
could not be used economically or feasibly for residential purposes. Id. However, we also recognized that the
“facts adduced by the evidence must also be considered.” Id. at 623. In evaluating the evidence, we observed that some of the garages on the property were
being rented for storage of building materials and personal property. Id. This Court further noted that although many uses in the surrounding area were
commercial, there were residential areas in the immediate proximity of the property. Id. We recognized that
there were “material gaps” in the experts’ testimony
and reiterated that the burden is on the property
owner to show that the “property cannot be used for
any reasonable purpose.” Id. We also explained that
the property owner had not presented any evidence
that the property could not be used for other permitted
uses under the present zoning, such as an apartment
building, church, or synagogue. Id. at 623–24.
We distinguished this case from other cases, where
we found that the expert testimony presented to the
board, did, in fact, support a conclusion that the zoning action constituted a taking. Id. at 24 (distinguishing City of Balt. v. Sapero, 230 Md. 291 (1962)
(upholding a board’s determination of a taking where
the overwhelming commercialization of the area was

App. 86
undisputed, including an adjacent service station and
shopping area across from the lot), and Frankel v. City
of Balt., 223 Md. 97, 103 (1960) (upholding the board’s
determination of a taking where the expert opinion
was supported by uncontroverted physical facts)). We
explained that “when the expert opinion testimony was
not supported by substantial factual evidence, we have
held that general claims of economic unfeasibility are
not sufficient to prove an unconstitutional taking.” Id.
Based upon our review of the evidence presented by
the property owner, we held that “[o]n the record and
the authorities, we find that the [landowner] has not
sustained the burden of demonstrating that the present zoning of her property and the refusal of the
Board to allow an exception constitute an unconstitutional taking.” Id. at 625.
After considering and denying the property
owner’s takings claim, the Court proceeded to consider
whether the Board erred in denying the requested exception under the standards set forth in the Baltimore
City Zoning Ordinance. Id. at 625–27. We held that the
question of whether to grant or deny the exception was
fairly debatable, and that the Board’s denial was not
arbitrary, unreasonable, or discriminatory. Id. at 627.
We held that the trial court erred in reversing the
Board’s action. Id.
Where a property owner asserts that the application of a zoning regulation will create a takings claim,
Borinsky demonstrates how a landowner should present his or her evidence and legal arguments asserting
an unconstitutional taking to the board of appeals, in

App. 87
addition to presenting evidence on the variance or special exception standards adopted by the local jurisdiction. As part of the administrative agency proceeding,
the landowner is required to submit evidence and testimony to satisfy his or her heavy burden that the application of the zoning regulation and the denial of a
variance will deny the landowner all beneficial use of
the property. This evidence will necessarily include
“substantial factual evidence” that there are no other
permitted uses that can be made of the property, instead of “general claims of economic unfeasibility”
which we have held “are not sufficient to prove an unconstitutional taking.” Id. at 624.
MRA claims that “no case has ever held that a
landowner must bring its takings claim for just compensation in (as opposed to after) an administrative
proceeding.” MRA also argues that requiring MRA to
present its takings evidence and arguments to the
Board of Appeals will interfere with its constitutional
right to a jury trial because the Hearing Examiner and
Board of Appeals are not empowered to award just
compensation. MRA contends that “only a jury may
decide a takings claim under Article III, Section 40 of
the Maryland Constitution.” MRA’s argument is inconsistent with our wealth of exhaustion jurisprudence,
which conclusively establishes the following.
First, all constitutional claims arising out of the
application of a zoning regulation must be exhausted
at the administrative agency level before a court may
consider the claims as part of a petition for judicial
review or in a separate proceeding filed under the

App. 88
original jurisdiction of the court. See, e.g., MRA III, 382
Md. at 361; Ray’s Used Cars, 398 Md. at 651 (collecting
cases); MRA II, 342 Md. at 492; Holiday Point Marina,
349 Md. at 199–200 (collecting cases); Equitable Life,
339 Md. at 619; Hartman, 264 Md. at 323–25 (collecting cases). Our jurisprudence carves out no exception
from this requirement for takings claims. To the contrary, our case law requires that takings claims be
raised in the administrative proceeding. See Blumberg,
288 Md. at 293 (collecting cases).
Second, as part of the administrative proceeding,
the administrative agency has original jurisdiction to
make the initial determination of whether the application of a zoning regulation to a property, and the denial
of a variance to permit the use, will deprive the property owner of all beneficial use of the property. See, e.g.,
Gingell, 249 Md. at 375; Poe, 241 Md. at 311; Borinsky,
239 Md. at 622–25; Bowman, 112 Md. App. at 698.19

19

In rejecting the County’s assertion that MRA had not exhausted its administrative remedies, the Court of Special Appeals
relied upon Suitum v. Tahoe Reg’l Planning Agency, 520 U.S. 725,
737 (1997). See Md. Reclamation Assocs., 242 Md. App. at 144.
The intermediate appellate court concluded that once MRA’s variance request was denied, MRA’s takings claim became “justiciable” and quoted Suitum for the proposition that a takings claim
is justiciable once “the administrative agency has arrived at a final, definitive position regarding how it will apply the regulations
to the particular land in question.” Id. (quoting Suitum, 520 U.S.
at 737). The Court of Special Appeals concluded that the County’s
position was “final [ ] when the Board denied MRA’s requested
variances in June 2007.” Id. at 145. We find Suitum to be inapposite to the exhaustion issue presented in this case. In Suitum,
the “sole question [was][ ] whether the claim [was] ripe for

App. 89
Third, where a property owner establishes before
the administrative agency that the application of a
zoning regulation will deprive the property owner of
adjudication.” Id. at 729. Ripeness and exhaustion of administrative remedies principles often overlap, but they are nonetheless
distinct. See Renaissance Centro Columbia, LLC v. Broida, 421
Md. 474, 485–86 (2001); MRA II, 342 Md. at 502–06 (explaining
the practical differences between exhaustion of administrative
remedies and ripeness and concluding that a zoning ordinance
does not deprive the landowner of any concrete property interests
when the ordinance does not decide finally the permitted uses
of a particular parcel of land). In Suitum, the property owner’s
takings claim arose from a planning agency’s determination that
her property was ineligible for development under development
regulations, but she was entitled to receive Transferable Development Rights (“TDRs”). Id. at 731. The Supreme Court concluded that under Williamson County Regional Planning Comm’n
v. Hamilton Bank of Johnson City, 473 U.S. 172 (1985), the property owner’s takings claim was “final” because there was no question that the regulations applied to the property owner’s property,
and because the agency had no discretion concerning how the regulations would be applied. Id. at 739. The Court noted that the
regulations in question did “not provide for the variances and exceptions of conventional land use schemes” Id. at 730, and that
because the planning agency had no discretion as to how the regulations would be applied, the takings claim was final and ripe
for adjudication. Id. at 739–40. Unlike the facts of Suitum, here,
the Board had discretionary authority to grant a variance to alleviate a potentially unconstitutional taking. Moreover, under our
exhaustion jurisprudence, the Board was required to make the
initial determination of whether there were any other beneficial
uses that could be make of the Property. See Poe v. City of Balt.,
241 Md. 303, 311 (1966). Although MRA sought a variance under
the Harford County Code, it did not seek a variance to alleviate a
takings claim, nor did it present evidence or argument that the
denial of the variance would deprive it of all beneficial use of the
Property. These claims were required to be presented to the
Board. The Board was not able to consider these issues because
MRA withheld these claims from the Board’s consideration.

App. 90
all beneficial use of its property, the administrative
agency has the authority to grant relief in the form of
a variance. See Belvoir Farms, 355 Md. at 281; Holiday
Point Marina, 349 Md. at 199. If the administrative
agency grants this relief and permits the use by granting a variance, the property owner no longer has a takings claim and the right to alternative relief in the
form of just compensation.
Fourth, the fact that an administrative agency
does not have the ability to award just compensation if
a regulatory taking is established and relief in the
form of a variance is not granted, does not negate the
requirement that the landowner first address grievances through the Board of Appeals. See Blumberg, 288
Md. at 292–93 (explaining that the property owner’s
requirement to exhaust his administrative remedies
was not excused where the Prince George’s County
Board of Appeals only had the ability to grant partial
relief over the alleged county violation and did not
have the power to grant relief over the landowner’s
assertion of error by the Washington Suburban Sanitary Commission); Bits “N” Bytes Comput. Supplies,
Inc. v. Chesapeake & Potomac Tel. Co., 97 Md. App. 557,
570 (1993) overruled on other grounds by Bell Atl. of
Md., Inc. v. Intercom Sys. Corp., 366 Md. 1, 28 (2001)
(holding that the fact that the Public Service Commission was unable to grant money damages “does not
necessarily mean that the agency lacks jurisdiction
over the matter or that the administrative remedy
need not be invoked and exhausted”) (internal citations omitted).

App. 91
Turning to MRA’s argument that our abovedescribed exhaustion jurisprudence is inconsistent
with MRA’s constitutional rights, MRA’s contention
overstates the scope of its right to a jury trial. Article
III, § 40 of the Maryland Constitution (often referred
to as the “Just Compensation Clause”) provides that
“[t]he General Assembly shall enact no Law authorizing private property to be taken for public use, without
just compensation, as agreed upon by the parties, or
awarded by a Jury, being first paid or tendered to the
party entitled to such compensation.” The constitutional right to a jury under the Just Compensation
Clause consists of a right to a jury determination of just
compensation, nothing more.
In The Maryland State Constitution, Judge Dan
Friedman explains that in the context of a physical
takings case arising under the Maryland Constitution,
Article III, § 40, as well as takings claims arising under
the Fifth Amendment of the United States Constitution, there are “four principal questions: (1) is there a
‘taking’?; (2) is it ‘property’?; (3) is the taking for ‘public use’?; and (4) is ‘just compensation paid’?” Dan
Friedman, The Maryland State Constitution, at 181
(Oxford University Press 2011) (quoting Erwin
Chemerinsky, Constitutional Principles and Policies,
504–05 (1997) (describing federal law)). Judge Friedman notes that “[u]nlike the first three issues, which
are decided by the court, just compensation is a jury
issue.” Id. (emphasis added) (citing J.L. Mathews, Inc.
v. Md.-Nat’l Capital Park & Planning Comm’n, 368
Md. 71, 88 (2002) (“In a condemnation case, a jury is

App. 92
responsible for determining the amount of just compensation due to the property owner, while issues relating to other possible elements, such as the right to
condemn, public purpose, or necessity, are exclusively
for the judge.”)).
Just as the only issue presented to a jury in a condemnation or physical takings case is the issue of just
compensation after a judicial determination that a
taking has occurred, the same principles control here.
Applying our decades of exhaustion jurisprudence involving assertions of unconstitutional takings in the
context of the application of zoning regulations, MRA
had a constitutional right to a determination of just
compensation by a jury under the Just Compensation
Clause, Article III, § 40, only after MRA raised all its
constitutional challenges to the application of a zoning
regulation within the Board of Appeals proceeding, including the assertion that the denial of a variance will
deny MRA of all beneficial use of its Property. In the
context of a claim asserting an unconstitutional taking
of property arising from the application of a zoning regulation, a court is only permitted to consider the claim
after the zoning agency makes an initial factual determination of whether the property owner has been denied all beneficial use of its property.20

20

In its brief and at oral argument, MRA advanced a “procedural chaos” theory, asserting that if a court finally adjudicated
all of MRA’s claims as part of a judicial review proceeding, it could
result in an unfair application of res judicata with respect to any
separate takings claim filed under the court’s original jurisdiction. MRA’s theory is premised on its incorrect assumption that it

App. 93
Finally, MRA argues that if the above sequence is
followed, and MRA is required to submit its constitutional takings claim to the Board of Appeals as part of
its exhaustion of administrative remedies, a takings
claim arising from the application of a zoning regulation would never get to a jury. To be sure, such cases
will be rare, given: (1) the very steep burden a landowner bears to demonstrate that application of a zoning regulation and associated denial of a variance to
permit a particular use of a property will deny the
landowner of all beneficial use of a property; and (2)
the administrative agency’s ability to grant relief in
the form of a variance if an unconstitutional taking is
established. However, as demonstrated below, it is possible.

has a right to a jury determination of the factual question of
whether a government taking has occurred. As set forth supra, in
zoning regulations cases, the Board has original jurisdiction to
make the initial factual determination of whether an unconstitutional taking has been established. Such a factual determination
is not within the province of a jury. Accordingly, a circuit court’s
simultaneous consideration of a petition for judicial review and
a takings claim will not lead to the improper application of res
judicata, or otherwise interfere with a property owner’s right to a
jury determination of just compensation after a judicial determination of whether the property owner established a compensable
taking before the Board of Appeals. See City of Balt. v. Borinsky,
239 Md. 611, 622 (1965).

App. 94
The Application of the Exhaustion Doctrine to
Constitutional Claims Arising from the
Application of a Zoning Regulation—A Road Map
We demonstrate below the procedural path that
MRA should have followed under our exhaustion jurisprudence, including our holdings in MRA II and MRA
III, to highlight the correct means for challenging the
application of Bill 91-10, against the complicated procedural morass created by MRA in its 30 years of litigation.
After Harford County adopted Bill 91-10, in 1991,
MRA should have presented all its evidence and legal
arguments to the Board of Appeals. In either parallel
or successive proceedings before the Board, MRA
could have: (1) appealed the Zoning Administrator’s
determination that Bill 91-10 applied to its property;
and (2) applied for a variance, seeking relief from the
provisions of Bill 91-10.21 As part of either one parallel
21

This is precisely the format that Judge Harrell outlined in
MRA III, when the Court rejected MRA’s argument that exhaustion principles should permit a “two-step process” by which MRA
“may pursue in turn judicial review of each discrete adverse decision.” 382 Md. at 363. MRA argued that it should be permitted to
have judicial review of the Zoning Administrator’s decision, and,
if it was adversely decided against MRA, then seek a variance. Id.
We rejected this “inefficient and piecemeal approach.” Id. We explained that the right to seek a zoning interpretation and zoning
certificate from the Zoning Administrator, and, if denied, the
right to seek a variance “are two parallel or successive remedies to
be exhausted, not optional selections on an a la carte menu of administrative remedies from which MRA may select as it pleases.
Once both administrative remedies are pursued to completion,
MRA, if still feeling itself aggrieved, may pursue judicial review

App. 95
or two successive proceedings before the Board, MRA
could have raised all (instead of some of ) its constitutional arguments before the Board of Appeals.
Once the Board denied MRA’s claims and upheld
the Zoning Administrator’s determination, MRA
should have then pursued its variance application,
presenting evidence and arguments not only on the
variance standards set forth in the Harford County
Code, but also presenting its evidence and legal arguments on its constitutional takings claim—that the denial of a variance would deprive MRA of all beneficial
use of its Property.
The Board of Appeals was the administrative
agency charged with making the initial factual determination of whether there were other beneficial uses
that could be made of MRA’s Property under the Harford County Code, and whether the denial of the variances, would, in fact, create a condition under which
there was no other beneficial use that could have been
made of the Property under the zoning regulations.
Utilizing its zoning expertise, the Hearing Examiner
and Board would have been able to consider all of the
evidence in the context of the applicable zoning regulations, and make findings of fact regarding what, if
any, reasonable and beneficial uses could have been
made of the Property other than a rubble landfill.
Had MRA presented substantial evidence to the
Board that a variance was required because a rubble
of the County agencies’ adverse actions.” Id. at 363–64 (emphasis
added) (internal citations omitted).

App. 96
landfill was the only beneficial use that could be made
of its Property under the Harford County Code, and the
Board agreed, the Board had the authority to grant relief from a potential unconstitutional taking by granting a variance to enable the Property to be used as a
rubble landfill. In granting such relief, the Board also
had the authority to establish any reasonable restrictions or conditions in connection with the use to
mitigate any adverse impacts on surrounding properties. If the variance was granted on that basis, MRA
would have been entitled to operate a rubble landfill,
and it would not have been necessary for MRA to seek
further judicial review.
If, on the other hand, the Board had made factual
findings based upon substantial evidence that there
were other beneficial and reasonable uses that could
be made of the Property, and consequently, no taking
had occurred, MRA would have had the right to appeal
this determination to the circuit court, and ultimately,
the appellate courts. See Poe, 241 Md. at 311. The court
could then determine whether the Board’s factual determinations were supported by substantial evidence,
and whether the Board applied the correct legal standards, with the benefit of a fully developed record of
the evidentiary hearing. Id.
If the court determined that there was substantial
factual evidence of other beneficial uses that could be
made of the Property under the Harford County Zoning Code, MRA would not have established a taking,
and would not have been entitled to a determination
by a jury on the issue of just compensation.

App. 97
If, however, the court determined that MRA had
satisfied its burden of demonstrating that there were
no other beneficial uses that could be made of its Property under the Harford County Zoning Code, and that
the application of Bill 91-10 would create a taking of
MRA’s Property, the court could reverse and remand
the case to the Board with instructions that the Board
consider granting a variance to allow the use. See
Belvoir Farms, 355 Md. at 271–72 (explaining that
“[o]rdinarily, courts cannot either grant or deny variances[,]” and in circumstances where the court would
have the power to overrule the denial of a variance, “it
would have to remand the matter to the agency for further consideration using the proper standard”).
If the court remanded the case to the Board for
consideration of the application of a variance after a
judicial determination that MRA had established a
taking, the variance could be granted. Utilizing its
zoning expertise, the Board would have the ability to
establish reasonable conditions to limit any adverse
effects that the operation would have on adjacent or
nearby properties. If the Board granted the variance
relief to permit the Property’s use as a rubble landfill,
MRA would no longer have a takings claim for just
compensation arising under Article III, § 40 of the
Maryland Constitution.
If, however, the Board determined that the site is
simply not suitable for a rubble landfill, and declined
to grant the variance, MRA would then have the right
to proceed with a jury determination of just compensation of its Property under the Just Compensation

App. 98
Clause, Article III, § 40 of the Maryland Constitution.
In other words, simply because the Board has the authority to alleviate what would otherwise be an unconstitutional taking by granting a variance, it is not
required to grant it.
Indeed, there may be instances in which, when
faced with a takings claim, a local jurisdiction reasonably determines that a particular land use creates
such a conflict with adjacent uses or other legitimate
land planning objectives, that it does not want to permit a land use through the application of a variance
at that particular location. In such an instance—where
a taking is established by the application of a zoning
regulation (i.e. a factual determination is made that
there is no other beneficial use that can be made of the
property)—and the administrative agency declines to
grant a variance for reasons such as competing land
use conflicts, a governmental taking will have been
established. The matter of just compensation can then
be submitted to a jury under Article III, § 40 of the
Maryland Constitution.22

22

Although we do not reach the statute of limitations question given our holding that MRA failed to exhaust its administrative remedies, we agree with the Court of Special Appeals’
well-reasoned analysis on that issue. Specifically, we agree
with the Court of Special Appeals that our holding in Arroyo v.
Board of Education of Howard County, 381 Md. 646 (2004)
controls. Had MRA presented its takings claim within the variance proceeding, under Arroyo, the three-year statute of limitations would have commenced from the date that the Board of
Appeals issued its final decision denying MRA’s variance in
June 2007.

App. 99
III.

CONCLUSION

We hold that MRA failed to exhaust its administrative remedies by withholding its takings claim from
consideration by the Board of Appeals when it applied
for a variance from the strict application of Bill 91-10
to its Property. Under our exhaustion jurisprudence,
all constitutional claims arising from the application of
a zoning regulation to a property must be presented as
part of the administrative agency proceeding. There is
no exception to this requirement for takings claims.
Under our established case law applicable to takings
claims arising from the application of zoning regulation, the initial factual determination of whether there
are additional beneficial uses that can be made under
a zoning ordinance is made by the zoning administrative agency—the Board of Appeals in this case. The
Board has the authority to grant relief in the form of a
variance where the property owner can establish an
unconstitutional taking arising from the application of
the zoning regulation. It was error for MRA to circumvent the Board of Appeals’ original jurisdiction by
withholding its takings claim and presenting such a
claim to a jury in a separate judicial proceeding. Because MRA had not exhausted its administrative remedies, the instant case should have been dismissed.
JUDGMENT OF THE COURT OF
SPECIAL APPEALS IS AFFIRMED.
COSTS IN THIS COURT AND IN THE
COURT OF SPECIAL APPEALS TO
BE PAID BY PETITIONER.

App. 100
APPENDIX B
REPORTED
IN THE COURT OF SPECIAL APPEALS
OF MARYLAND
No. 788
September Term, 2018
HARFORD COUNTY, MARYLAND
v.
MARYLAND RECLAMATION
ASSOCIATES, INC.
Berger,
Nazarian,
Wells,
JJ.
Opinion by Berger, J.
Filed: August 1, 2019
The origin of this dispute dates back to 1990, when
Maryland Reclamation Associates, Inc. (“MRA” or
“Maryland Reclamation”), appellee, purchased sixtytwo acres of land for the purpose of constructing and

App. 101
operating a rubble landfill.1 After MRA acquired the
land, Harford County (the “County”), appellant, modified its zoning laws to disallow landowners – MRA included – from operating rubble landfills. For nearly
three decades, MRA has fought the County’s regulatory efforts in various administrative and judicial forums. The dispute now reaches the Maryland appellate
courts for the fifth time.2
In this appeal, the County appeals from a verdict
rendered by a jury in the Circuit Court for Harford
County, in which MRA prevailed on its inverse
condemnation claim and was awarded $45,420,076,
representing just compensation in the amount of
$30,845,553 plus $14,574,523 in interest. For the reasons explained herein, we reverse the judgment entered below, and remand the case for further
proceedings consistent with this opinion.
After the County enacted zoning regulations that
prohibited MRA from operating a rubble landfill, MRA
sought several variances. If approved, the variances
would have permitted MRA to proceed with its project.
1

A rubble landfill is a sanitary landfill that accepts only
trees, land clearing, construction, and demolition debris. See Md.
Code (1989, 2014 Repl. Vol.), § 9-210(c)(2) of the Environmental
Article.
2
See Holmes v. Md. Reclamation Assocs., Inc., 90 Md. App.
120 (1992), cert. dismissed sub nom. Cty. Council of Harford Cty.
v. Md. Reclamation Assocs., Inc., 328 Md. 229 (1992) (MRA I); Md.
Reclamation Assocs., Inc. v. Harford Cty., 342 Md. 476 (1996)
(MRA II); Md. Reclamation Assocs., Inc. v. Harford Cty., 382 Md.
348 (2004) (MRA III); Md. Reclamation Assocs., Inc. v. Harford
Cty., 414 Md. 1 (2010) (MRA IV).

App. 102
The Harford County Hearing Examiner denied MRA’s
requests, and in 2007, the Harford County Board of Appeals (the “Board of Appeals” or the “Board”) affirmed
the Hearing Examiner’s decision by a unanimous vote.
In MRA IV, 414 Md. 1 (2010), the most recent case between the parties, the Court of Appeals held, among
other things, that the County was not estopped from
amending its zoning laws, and that the County did not
err in denying MRA’s requests for variances.
On February 19, 2013, following MRA IV, MRA
filed suit in the Circuit Court for Harford County, alleging that the County’s actions constituted a regulatory taking in violation of the Maryland Constitution
and the Maryland Declaration of Rights.3 Thereafter,
the County filed a motion to dismiss and a motion for
summary judgment, arguing that MRA’s inverse condemnation claim was barred by the statute of limitations. The County averred that MRA’s claim accrued in
June 2007, when the Board of Appeals voted 7-0 to
deny MRA’s requests for variances. The circuit court
disagreed. In a memorandum opinion, Judge William
O. Carr denied the County’s motions, ruling that
MRA’s claim was timely because the claim accrued in

3

MRA further pursued a per se takings claim pursuant to
Lucas v. South Carolina Coastal Council, 505 U.S. 1003 (1992).
That claim did not proceed to trial. The circuit court granted the
County’s motion for summary judgment, ruling that MRA could
not succeed because the land still had a resale value. MRA filed a
cross-appeal contending that the circuit court erred in granting
the County’s motion.

App. 103
2010, when the Court of Appeals issued its opinion in
MRA IV.
The case was then tried before a jury in April 2018.
The jury ultimately found in favor of MRA on its takings claim and awarded damages in the amount of
$45,420,076. This timely appeal followed.4
On appeal, the County poses six questions, which
we set forth verbatim.

4

1.

Should MRA’s takings claim be dismissed
based on MRA’s failure to raise this constitutional issue in any administrative
proceeding?

2.

Is MRA’s takings claim barred by the
statute of limitations when it was filed
more than three years after the final administrative agency decision denying
MRA’s variance requests?

3.

Is MRA’s takings claim barred by the final judgment in MRA IV under the doctrines of res judicata and collateral
estoppel?

4.

Did the Board’s denial of MRA’s variance
requests to construct and operate a landfill constitute an unconstitutional taking

In addition, Montgomery County filed an amicus curiae
brief, urging us to reverse the judgment. Several other counties
and municipalities signed the brief, including Cecil County,
Prince George’s County, Howard County, Carroll County, the City
of Gaithersburg, the Mayor and Council of Rockville, the Mayor
and Common Council of Westminster, the Maryland Municipal
League, and the Maryland Association of Counties.

App. 104
when MRA has no vested property right
or interest with respect to such a use?
5.

Did the Board’s denial of variances to prevent public harm constitute a taking for
which compensation is due?

6.

Should the jury’s award of more than $45
million in damages be reversed when
MRA failed to present any evidence of the
Property’s fair market value?

In its cross-appeal, MRA presents an additional
question, which we set forth verbatim.
Did the Circuit Court err when it granted
summary judgment on MRA’s per se takings
claim under Lucas v. South Carolina Coastal
Council, 505 U.S. 1003 (1992)?
We hold – as a matter of law – that MRA’s inverse
condemnation claim accrued in 2007, when the Board
of Appeals denied MRA’s requests for variances. As a
result, MRA’s claim is time-barred. We, therefore, reverse the judgment entered by the circuit court and remand the case for the entry of judgment in favor of the
County.
BACKGROUND
This dispute concerns a sixty-two-acre plot of land
in Harford County, Maryland. We draw from the Court
of Appeals’ comprehensive opinions in MRA II, supra,
342 Md. 476 (1996), and MRA IV, supra, 414 Md. 1

App. 105
(2010), to summarize the history of the various administrative proceedings and earlier appeals.
In August 1989, the plaintiff-appellant,
Maryland Reclamation Associates, Inc., contracted to purchase property located adjacent
to Gravel Hill Road in Harford County, Maryland. Maryland Reclamation intended to construct and operate a rubble landfill on this
property; thus, it began the process of obtaining a rubble landfill permit from the Maryland Department of the Environment
pursuant to Maryland Code (1982, 1996 Repl.
Vol), §§ 9-204 through 9-210, §§ 9-501 through
9-521 of the Environment Article, and COMAR 26.03 through 26.04.
Maryland Reclamation first requested
that Harford County include the Gravel Hill
Road property in Harford County’s Solid
Waste Management Plan as a rubble landfill.
Thereafter, Harford County amended its Solid
Waste Management Plan to include Maryland
Reclamation’s Gravel Hill Road site as a rubble landfill. The property’s inclusion in the
Harford County Solid Waste Management
Plan, however, was made subject to twentyseven conditions, including a minimum landscape buffer of 200 feet. On November 16,
1989, Harford County advised the Maryland
Department of the Environment that Maryland Reclamation’s Gravel Hill Road property
had been included in the County’s Solid Waste
Management Plan as a rubble landfill site.

App. 106
Maryland Reclamation next sought approval at the state government level from the
Department of the Environment. On November 20, 1989, Maryland Reclamation received
Phase I permit approval from the Department
of the Environment. Maryland Reclamation
then filed with the Department the necessary
reports and studies for Phase II and Phase III
approvals.
[M]aryland Reclamation had entered into
a contract to purchase the property located
adjacent to Gravel Hill Road in August 1989,
before its inclusion in Harford County’s Solid
Waste Management Plan. Allegedly relying on
the property’s inclusion in Harford County’s
Solid Waste Management Plan and on the Department of the Environment’s Phase I approval, Maryland Reclamation consummated
the purchase of the Gravel Hill Road property
on February 9, 1990, for $732,500. The settlement occurred on the last possible day under
the terms of the contract of sale.
Four days after the settlement date,
newly appointed Harford County Council
President Jeffrey D. Wilson and Council Member Joanne Parrott introduced in the County
Council Resolution 4-90, which provided for
the removal of Maryland Reclamation’s property from the County’s Solid Waste Management Plan. [Footnote omitted.] In the
litigation that ensued over this resolution, the
Court of Special Appeals held that Resolution
4-90 was invalid because it was preempted
by the State’s authority over solid waste

App. 107
management plans and the issuance of rubble
landfill permits. [MRA I], 90 Md. App. 120, 600
A.2d 864, cert. dismissed sub nom. County
Council v. Md. Reclamation, 328 Md. 229, 614
A.2d 78 (1992). [Footnote omitted.]
While the litigation over Resolution 4-90
was pending, Bill 91-10 was introduced in the
Harford County Council, on February 12,
1991, as an emergency bill. Bill 91-10 proposed to amend the requirements for a rubble
landfill by increasing the minimum acreage
requirements, buffer requirements, and
height requirements. The bill, inter alia,
would establish a minimum rubble fill size of
100 acres and a buffer zone of 1000 feet. After
public hearings, the County Council passed
the bill on March 19, 1991, and the County
Executive signed the bill into law on March
27, 1991. [Footnote omitted.]
On April 2, 1991, Bill 91-16 was introduced in the Harford County Council. This bill
would authorize the County Council to remove a specific site from the County’s Solid
Waste Management Plan if the site does not
comply with certain zoning ordinances, if a
permit has not been issued by the State Department of the Environment within eighteen
months of the site being placed in the
County’s Solid Waste Management Plan, or if
the owner of the site has not placed the site in
operation within the same eighteen month period. Bill 91-16 was passed by the County
Council, signed into law by the County Executive on June 10, 1991, and is codified as

App. 108
§ 109-8.4 of the Harford County Code. [Footnote omitted.]
The President of the Harford County
Council, on April 25, 1991, sent a letter to the
State Department of the Environment, enclosing a copy of enacted Bill 91-10, and advising
the Department that the provisions of the bill
could call into question the status of sites
which were in the process of obtaining rubble
landfill permits. On May 2, 1991, the Department of the Environment advised the County
Council that if a permit were to be issued to
Maryland Reclamation, such issuance would
not authorize Maryland Reclamation to violate any local zoning or land-use requirements.
Also on May 2, 1991, the County’s Director of Planning sent a letter to Maryland Reclamation informing it of Bill 91-10, indicating
that Maryland Reclamation’s property would
apparently fail to meet the requirements of
Bill 91-10, stating that Maryland Reclamation should submit documentation showing
that the Gravel Hill Road site could meet the
requirements of the zoning ordinances, and
stating that, if the site could not meet such requirements, Maryland Reclamation would
need a variance to operate a rubble landfill on
the property. Maryland Reclamation did not
submit any documents pursuant to the May 2,
1991, letter and did not file an application for
a variance. [Footnote omitted.] Maryland Reclamation did file on May 21, 1991, an “appeal”
to the Harford County Board of Appeals from

App. 109
the “administrative decision pursuant to Section 267-7 E in a letter dated 5/2/91,” requesting that the Board “review and reverse the
decision of the Zoning Administrator interpreting that the standards of Council Bill 9110 apply to the Applicant.” The “application”
to the Board of Appeals asserted that Bill 9110 was inapplicable to the property and that,
if it was applicable, it was invalid. [Footnote
omitted.]
On May 14, 1991, Resolution 15-91 was
introduced in the Harford County Council.
This resolution purported to interpret Harford County law and determine that the
Gravel Hill Road site was not in compliance
with county law; the resolution went on to remove the site from the County’s Solid Waste
Management Plan. The County Council
passed Resolution 15-91 on June 11, 1991.
The resolution was apparently not submitted
to the County Executive for his approval.
Maryland Reclamation on June 20, 1991,
filed a complaint in the Circuit Court for Harford County, seeking a Declaratory Judgment
and Injunctive Relief against Harford County
and the Harford “County Council.” Maryland
Reclamation requested, inter alia, the following: (1) a declaration that Bills 91-10 and
91-16, as well as Resolution 15-91, are “null
and void as to the Gravel Hill Site;” (2) an
injunction preventing the County from enforcing Bills 91-10 and 91-16 and Resolution
15-91 against Maryland Reclamation; and (3)
an injunction staying all further action on

App. 110
Maryland Reclamation’s “appeal” to the Board
of Appeals. Maryland Reclamation advanced
numerous legal theories to support its complaint for declaratory and injunctive relief.
The circuit court on June 28, 1991, issued
an interlocutory injunction preventing enforcement of Bills 91-10, 91-16, and Resolution 15-91 against Maryland Reclamation.
The order expressly allowed the Department
of the Environment to continue its processing
of Maryland Reclamation’s pending permit
application. The order also stayed the processing of Maryland Reclamation’s administrative “appeal” from the Director of
Planning’s “decision” contained in the Director’s May 2, 1991, letter. Finally, the interlocutory order prohibited Maryland Reclamation
from starting any construction without court
approval.
On February 28, 1992, the State Department of the Environment issued to Maryland
Reclamation a permit to operate a rubble
landfill on its property. The Department expressly conditioned the permit upon Maryland Reclamation’s compliance with all local
land-use requirements. [Footnote omitted.]
Upon cross-motions for summary judgment, the circuit court on May 19, 1994, filed
an opinion and judgment, declaring that Harford County was entitled to enact new zoning
laws that may prevent Maryland Reclamation
from operating a rubble landfill, and that Bills
91-10 and 91-16 were not invalid on the

App. 111
grounds asserted by the plaintiff. The court,
however, declared that Resolution 15-91 was
invalid on its face. According to the circuit
court, the Harford County Council was acting
as a legislative body when it passed the resolution, and the passage of the resolution constituted an illegal attempt to interpret and
apply the laws which the Council had previously enacted.
Maryland Reclamation appealed to the
Court of Special Appeals with respect to the
circuit court’s declaration that Bills 91-10 and
91-16 were not invalid. The County did not
cross-appeal from the circuit court’s declaration that Resolution 15-91 was invalid. Before
any further proceedings in the intermediate
appellate court, this Court issued a writ of certiorari.
MRA II, supra, 342 Md. at 480-86. Ultimately, the
Court of Appeals held in MRA II that “MRA had not
exhausted its administrative remedies, including appealing the Zoning Administrator’s ruling to the Board
of Appeals, and applying to the Zoning Administrator
for variances.” MRA IV, supra, 414 Md. at 12 (citing
MRA II, supra, 342 Md. at 496-97).
Thereafter MRA filed requests for interpretation with the Zoning Administrator, presenting nine issues. After receiving
unfavorable rulings, MRA appealed to the
Board of Appeals. The Board, through its Zoning Hearing Examiner, conducted a hearing
and issued a decision dated April 2, 2002 that
the application of Bill 91-10 to the proposed

App. 112
rubble landfill did not violate federal, state, or
local laws. As summarized by Judge Harrell in
MRA III, the Hearing Examiner’s findings
and conclusions underlying this decision were
as follows:
1.

Bill 91-10 applies to MRA’s property on
Gravel Hill Road.

2.

The requirements of Bill 91-10 can be validly applied to MRA’s property on Gravel
Hill road under the circumstances of this
case and in light of the Environmental
Article of the Maryland Code as well as
other principles of Maryland law.

3.

MRA’s operation of a rubble landfill on its
property at Gravel Hill Road pursuant to
its state permit will violate applicable
Harford County Zoning law, particularly
Harford County Code §§ 267-40.1, 26728C, 267-28D(4) and 267-41. Moreover,
the Hearing Examiner questions whether
the permit issued to MRA by MDE is validly issued as it was based on misinformation provided to the State by MRA
regarding the conformance of the property and use with Harford County Zoning
law.

4.

MRA cannot obtain a grading permit unless it can meet the requirements of Harford County Zoning law. To the extent
MRA does not meet specific standards it
must seek a variance and obtain a variance from provisions with which it cannot
comply. MRA’s reliance on site plan

App. 113
approvals that pre-date the enactment of
Bill 91-10 is without merit.
5.

MRA’s operation of a rubble landfill on its
property at Gravel Hill Road pursuant to
its State-issued Refuse Disposal Permit
No. 91-12-35-10-D and as renewed by Refuse Disposal Permit 1996-WRF-0517
will violate applicable Harford County
zoning law.

6.

Harford County is not prohibited by the
principles of estoppel from applying the
provisions of Harford County Bill 91-10
(section 267-40.1 of the Harford County
Code) to MRA’s property and specifically,
to MRA’s operation of a rubble landfill on
its property.

7.

MRA’s rubble landfill did not acquire
vested rights in its use that would insulate it from the application of Bill 91-10
to that use. It is the vested rights doctrine
itself that allows a landowner to rais[e]
issues of constitutional protections. There
is no constitutional infringement on the
rights of MRA because a vested right was
not established. Applying the provisions
of Bill 91-10 to MRA’s Gravel Hill Road
property is, therefore, not prohibited by
the United State[s’] Constitution and/or
the Maryland Declaration of Rights.

8.

Harford County is not preempted by the
Environmental Article of the Maryland
Code, particularly sections 9-201 et seq.

App. 114
and 9-501 et seq., from applying Bill 9110 to MRA’s Gravel Hill Road property.
9.

MRA’s operation of a rubble landfill on its
Gravel Hill Road property is not a valid
non-conforming use pursuant to Harford
County Zoning Code.

MRA III, 382 Md. at 359-60, 855 A.2d at 357-58. After
the issuance of the Hearing Examiner’s decision, the
following transpired:
On 11 June 2002, the County Council, sitting as the Board of Appeals, adopted the Zoning Hearing Examiner’s decision. Harford
County, therefore, refused to issue to MRA a
grading permit or zoning certificate for the
proposed rubble landfill because of the strictures of Bill 91-10. Neither in response to the
Board of Appeals’s final decision, nor on a parallel course to its requests for interpretation
or a zoning certificate, did MRA seek variances for relief from the requirements of Bill
91-10.
On 21 June 2002, MRA . . . petition[ed]
the Circuit Court for Harford County for judicial review of the Board of Appeals’s decision.
The Circuit Court affirmed the decision of
the Board of Appeals on 22 October 2003. It
concluded that “all nine requests for interpretation were answered correctly . . . in accordance with the law, and based on substantial
evidence, and the decision was also correct
when it upheld the zoning administrator’s

App. 115
denial of Maryland Reclamations request for
a zoning certificate.”
MRA III, 382 Md. at 360-61, 855 A.2d at 358. On appeal
to this Court, we held that MRA again had failed to
exhaust its available administrative remedies because
it had not requested variances from the Code requirements at issue. Id. at 363, 855 A.2d at 359-60.
On May 12, 2005 MRA requested the following
variances to provisions of the Harford County Zoning
Code (“HCC”) before the zoning hearing examiner for
Harford County (“Hearing Examiner”):
•

Variance pursuant to Section 267-28C to
permit the disturbance of the 30 foot
buffer yard.

•

Variance pursuant to Section 267-28D(4)
to permit disturbance within the 200 foot
buffer from adjoining property lines.

•

Variance to Section 267-40.1A, B, C, and
D to permit the operation of a rubble
landfill on less than 100 acres.

•

Variance to Section 267-40.1A, B, C and D
to permit the operation of a landfill without satisfying the buffer requirement.

•

Variance to Section 267-40.1A, B, C, and
D to permit the deposit of solid waste less
than 500 feet from the flood plain district.

•

Variance to Section 267-40.1A, B, C, and
D to permit the disturbance of the 1,000
foot buffer from a residential or institutional building.

App. 116
•

Variances to Section 267-41D(2)(c); (3)(b);
(5)(e); and (6) to permit the use of a landfill within a Natural Resource District, to
permit the disturbance of the Natural resources District buffer, and to disturb the
minimum 75 foot wetlands buffer in the
Agricultural District.

Over a span of 10 months, the Hearing
Examiner, Robert F. Kahoe, Jr., presided over
17 nights of hearings, during which he heard
testimony from 11 witnesses produced by
MRA (eight of whom were experts); six experts offered by the Protestants; 16 residents
from the community and members of St.
James parish; and the acting director of the
Harford County Department of Planning and
Zoning. The Hearing Examiner issued a decision dated February 28, 2007 that denied several of MRA’s requests.
*

*

*

MRA appealed the Hearing Examiner’s
decision to the Board. On June 5, 2007, the
Board voted 7-0 to deny the requested variances to these sections of the Code, and
adopted the Hearing Examiner’s decision.
MRA then noted an appeal to the Circuit
Court for Harford County. The Circuit Court
affirmed the findings of the Board of Appeals
in an order filed on July 11, 2008.
MRA IV, supra, 414 Md. at 12-23.
Thereafter, MRA filed an additional petition for judicial review in the Circuit Court for Harford County.

App. 117
In its petition, MRA asked the circuit court to reconsider its October 2003 decision, in which it affirmed the
Board of Appeals’ interpretation of Bill 91-10, i.e., that
Bill 91-10 applied to MRA. On September 3, 2008, the
circuit court affirmed its 2003 decision. MRA then appealed both the circuit court’s affirmance of its 2003
decision, and the variance denials to this Court. The
Court of Appeals granted certiorari before we could review either appeal.
In MRA IV, the Court first addressed whether
there was sufficient evidence in the record to support
the Board of Appeals’ findings that “the requested variances would be substantially detrimental to adjacent
properties” and “would negatively affect the health and
welfare of the individuals in the surrounding area.”
414 Md. at 24, 33-34. Ultimately, the Court held that
the record contained sufficient evidence to support
those findings, and as a result, affirmed the Board of
Appeals’ 2007 decision. Id. at 34.
The Court then considered MRA’s argument that
it should be permitted to proceed with its project to operate a rubble landfill, notwithstanding the applicable
zoning regulations. Id. at 34-35. Primarily through the
lens of zoning estoppel and preemption, the Court held
that MRA is subject to the zoning regulations. As a result, MRA could not operate a rubble landfill on the
property. Id. at 34-64.
Following the decision of the Court of Appeals in
MRA IV, on February 19, 2013, MRA commenced this
inverse condemnation action in the Circuit Court for

App. 118
Harford County. In its complaint, as amended in June
2015, MRA alleged that the County’s zoning laws interfered with MRA’s “investment backed business expectations” to operate a rubble landfill on its property,
and that such interference constituted a regulatory
taking under Article III, Section 40 of the Maryland
Constitution, and Articles 19 and 24 of the Maryland
Declaration of Rights.
Thereafter, the County filed both a motion to dismiss and a motion for summary judgment, arguing
that MRA’s takings claim was time-barred because it
accrued in 2007, when MRA’s requests for variances
were denied by the Board of Appeals. In the alternative, the County asserted that it was entitled to judgment as a matter of law on a per se takings claim
brought under the Supreme Court’s decision in Lucas,
supra, 505 U.S. 1003. In a memorandum opinion, Judge
William O. Carr ruled that MRA’s claim was timely because it accrued in 2010, when the Court of Appeals
issued MRA IV. Judge Carr reasoned:
Irrespective of whether inverse condemnation is a continuing cause of action, this
claim satisfies the three year statute of limitations because this court finds that the final
decision issued by the Court of Appeals in
MRA IV on March 11, 2010 was the final decision which foreclosed on any possibility of using the property in question for rubble fill. The
Plaintiff filed this case on February 19, 2013
making the date of filing within the statute of
limitations.

App. 119
Nevertheless, Judge Carr ruled that MRA could not
proceed on a per se takings claim because the property,
at that time, retained a resale value.
Thereafter, the case was tried before a jury in April
2018. At trial, an expert witness testified on behalf of
MRA that the value of the property decreased by approximately $30 million after the alleged taking. After
deliberating, the jury found in favor of MRA on its inverse condemnation claim and awarded damages in
the amount of $45,420,076. This amount accounted for
$30,845,553 representing just compensation, plus
$14,574,523 in interest. This timely appeal followed.
STANDARD OF REVIEW
The County challenges both the circuit court’s denial of a motion to dismiss and a motion for summary
judgment on the grounds that MRA failed to exhaust
its administrative remedies and that its inverse condemnation claim is time-barred.5 To the extent that
these rulings were premised on purely legal issues, we
apply the same standard of review. “As the Court of Appeals has explained, where an order involves an interpretation and application of Maryland constitutional,
statutory or case law, our Court must determine
whether the trial court’s conclusions are ‘legally
5

Although the County raises additional arguments in this
appeal that may be subject to differing standards of review, we
decline to address the merits of these arguments because we reverse on statute of limitations grounds. Consequently, we need
not address the additional standards of review.

App. 120
correct[.]’ ” Elec. Gen. Corp. v. Labonte, 229 Md. App.
187, 196 (2016) (citations and quotations omitted),
aff ’d, 454 Md. 113 (2017).
To determine whether the trial court’s decision
was legally correct, “we give no deference to the trial
court findings and review the decision under a de novo
standard of review.” Lamson v. Montgomery County,
460 Md. 349, 360 (2018). We, therefore, shall review the
merits of the County’s exhaustion of administrative
remedies and statute of limitations arguments de novo.
In doing so, we evaluate the record in the light most
favorable to MRA as the non-moving party. Schneider
Elec. Bldgs. Critical Sys., Inc. v. W. Surety Co., 454 Md.
698, 705 (2017).
DISCUSSION
The County raises six arguments in this appeal.
First, the County contends that the case should not
have proceeded to trial because MRA failed to exhaust
its administrative remedies. Second, the County argues that MRA’s takings claim was filed outside the
three-year limitations period because the County’s last
action taken against MRA was in 2007 and MRA filed
its complaint in 2013. Third, the County maintains
that MRA’s claim is barred by res judicata and collateral estoppel. Fourth, and on the merits, the County
asserts that MRA could not sufficiently allege an inverse condemnation claim because it did not have a
vested property interest. Fifth, the County contends
that the denial of MRA’s requests for variances did not

App. 121
amount to an unconstitutional taking because the variances were denied to prevent public harm. Sixth, the
County avers that MRA failed to present evidence of
the property’s fair market value and that the jury verdict was, therefore, defective. Conversely, MRA argues
in its cross-appeal that the circuit court erred in granting the County judgment as a matter of law on its per
se takings claim.
I.
We address the County’s assertion that MRA
failed to exhaust its administrative remedies first because issues concerning primary jurisdiction and exhaustion are treated like jurisdictional questions. Bd.
of Educ. for Dorchester Cty. v. Hubbard, 305 Md. 774,
787 (1986); Priester v. Baltimore County, 232 Md. App.
178, 190 (2017), cert. denied, 454 Md. 670. The County
alleges that MRA was required to raise its inverse condemnation claim in an administrative proceeding before it could seek just compensation in the circuit court.
Accordingly, the County argues that the circuit court
should have dismissed the case. We disagree. As we
shall explain, MRA adhered to the prescribed administrative procedure before filing its inverse condemnation claim in the circuit court.
“A fundamental precept of administrative law is
the requirement that exclusive or primary administrative remedies ordinarily be exhausted before bringing
an action in court.” MRA III, supra, 382 Md. at 361.
Administrative agencies have the first opportunity to

App. 122
consider constitutional issues when “those issues
would be pertinent in the particular proceeding before
the [agency].” MRA II, supra, 342 Md. at 491-92. Accordingly, circuit courts are not “authorized to entertain [those] actions” when a party circumvents a
prescribed administrative procedure. Hubbard, supra,
305 Md. at 787.
This generally holds true in inverse condemnation
cases. See Prince George’s County v. Blumberg, 288 Md.
275, 293 (1980). Indeed, the Court of Appeals “has held
on many occasions, when faced with a claim of an
agency’s unconstitutional taking of property, that such
issues must still go through the administrative process, particularly when judicial review is provided.” Id.
Moreover, it is “settled law on principle and authority
that, absent most unusual circumstances, in zoning
matters where there is full opportunity for a property
owner to apply to the administrative agency for a special exception from the application of the general law
to the particular property, with adequate provision for
judicial review of the Board’s action, the court will not
take jurisdiction even though a constitutional issue is
raised, until the administrative remedy has been exhausted.” Poe v. City of Baltimore, 241 Md. 303, 311
(1966).
In our view, MRA did not fail to exhaust its administrative remedies. Indeed, MRA sought a ruling from
the Harford County Hearing Examiner and the Board
of Appeals that Bill 91-10 did not apply to MRA’s property. When that failed, MRA appealed the Board of Appeals’ decision to the circuit court, this Court, and the

App. 123
Court of Appeals. Thereafter, MRA sought another administrative remedy by requesting variances so that it
could operate a rubble landfill on its property notwithstanding Bill 91-10. Both the Harford County Hearing
Examiner and the Board of Appeals denied the requested variances, and MRA again appealed to the
courts. Ultimately, the Court of Appeals held in MRA
IV, supra that the Board of Appeals did not err in denying the requests for variances. To the extent that an
administrative remedy was available, MRA clearly
pursued it.
Moreover, the County presents us with no authority compelling a party to bring a claim for just compensation in an administrative forum before resorting to
the courts.6 In short, MRA’s takings claim became justiciable after MRA was denied the requested variances.
To hold otherwise would contradict case law from the
United States Supreme Court. See Suitum v. Tahoe
Reg’l Planning Agency, 520 U.S. 725, 737 (1997) (observing that a takings claim is justiciable once “the administrative agency has arrived at a final, definitive
position regarding how it will apply the regulations at
6

Were we to adopt the County’s argument and hold that
MRA had not exhausted its administrative remedies, it is unclear
how a claim for just compensation could ever get to a jury. Indeed,
administrative rulings are subject to a deferential standard of review. Accordingly, subjecting a just compensation claim to such a
deferential standard would seem to conflict with “Article III, § 40
of the Maryland Constitution[, which] provides the landowner
with the opportunity to have a jury award just compensation in
[takings] cases.” Montgomery County v. Soleimanzadeh, 436 Md.
377, 387 (2013).

App. 124
issue to the particular land in question”) (citation omitted). The County arrived at a “final, definitive position”
when the Board denied MRA’s requested variances in
June 2007. We, therefore, hold that MRA exhausted its
administrative remedies.
II.
We next address the County’s contention that
MRA’s inverse condemnation claim is time-barred. The
County argues that the circuit court erred in ruling
that MRA’s claim accrued after the Court of Appeals
issued its opinion in MRA IV, supra. The circuit court
denied the County’s motion to dismiss and motion for
summary judgment, and ruled that MRA’s inverse condemnation claim was timely filed. The time period in
which an inverse condemnation claim must be filed is
dictated by the Maryland Code:
A civil action at law shall be filed within
three years from the date it accrues unless another provision of the Code provides a different period of time with which an action shall
be commenced.
Md. Code (1973, 2013 Repl. Vol.), § 5-101 of the Courts
and Judicial Proceedings Article (“CJ”). See ElectroNucleonics, Inc. v. Wash. Suburban Sanitary Comm’n,
315 Md. 361, 374 (1989) (holding that CJ § 5-101 applies to inverse condemnation claims).
The rationale underlying the statute of limitations
is well established:

App. 125
The adoption of statutes of limitation reflects a policy decision regarding what constitutes an adequate period of time for a person
of reasonable diligence to pursue a claim.
Such statutes are designed to balance the
competing interests of each of the potential
parties as well as the societal interests involved. Thus, one of the purposes of such statutes is to assure fairness to a potential
defendant by providing a certain degree of repose. This is accomplished by encouraging
promptness in prosecuting actions; suppressing stale or fraudulent claims; avoiding inconvenience that may stem from delay, such as
loss of evidence, fading of memories, and disappearance of witnesses; and providing the
ability to plan for the future without the uncertainty inherent in potential liability. Another basic purpose is to prevent unfairness to
potential plaintiffs exercising reasonable diligence in pursuing a claim. Still another purpose is to promote judicial economy.
Poole v. Coakley & Williams Constr., Inc., 423 Md. 91,
130-31 (2011) (quoting Pierce v. Johns-Manville Sales
Corp., 296 Md. 656, 665 (1983)).
Accordingly, MRA had three years from the date
its cause of action accrued to file a timely complaint.
CJ § 5-101. We, therefore, must determine when MRA’s
inverse condemnation claim accrued. An inverse condemnation claim “accrues when the affected party
knew or should have known of the unlawful action and
its probable effect.” Duke St. Ltd. P’ship v. Bd. of Cty.
Comm’rs of Calvert Cty., 112 Md. App. 37, 49 (1996)

App. 126
(citing Millison v. Wilzack, 77 Md. App. 676, 685-86
(1989)). Although the statute of limitations does not
begin until the plaintiff discovers her claim, “[t]his
does not mean that the party need know all relevant
facts, including the precise nature and amount of the
economic impact.” Id. Rather, we must determine
“when all of [the] elements [of an inverse condemnation claim] have occurred . . . and when the plaintiff
knows, or, through the exercise of due diligence, should
have known . . . that they have occurred.” Millison, supra, 77 Md. App. at 685.
“To state a claim for inverse condemnation, a
plaintiff must allege facts showing ordinarily that the
government action constituted a taking.” Litz v. Md.
Dep’t of Env’t, 446 Md. 254, 267 (2016). “Thus, an inverse condemnation cause of action, at minimum, requires a taking by a government entity, and regardless
of what the plaintiff knows or should know, the statute
of limitations on an inverse condemnation cause of action does not begin to run until a taking has occurred.”
Litz v. Md. Dep’t of Env’t, 434 Md. 623, 653 (2013). A
taking may arise in several ways:
[T]he denial by a governmental agency of access to one’s property, regulatory actions that
effectively deny an owner the physical or economically viable use of the property, conduct
that causes a physical invasion of the property, hanging a credible and prolonged threat
of condemnation over the property in a way
that significantly diminishes its value, or,
closer in point here, conduct that effectively
forces an owner to sell.

App. 127
Litz, supra, 446 Md. at 267 (quoting Coll. Bowl, Inc. v.
Mayor of Baltimore, 394 Md. 482, 489 (2006)).
In its amended complaint, MRA alleges that the
County – by enacting various laws and modifying its
zoning regulations – unlawfully interfered with MRA’s
“investment backed business expectations associated
with its Property and the rubble landfill permit previously issued” by the Maryland Department of the Environment (the “MDE”). See ¶ 55 of MRA’s amended
complaint. In short, MRA asserts that the County
made it impossible to use the land for its intended purpose. MRA discovered the County’s allegedly unlawful
conduct no later than June 5, 2007, when the Board of
Appeals voted unanimously to deny MRA’s requests
for variances. Without the variances, MRA could neither construct nor operate a rubble landfill on the
property. Applying this logic, the County urges us to
hold that the alleged taking occurred on June 5, 2007
and, therefore, the statute of limitations on MRA’s inverse condemnation claim began to run on that date.
In support, the County cites Williamson County
Regional Planning Commission v. Hamilton Bank of
Johnson City, 473 U.S. 172, 186 (1985), overruled on
other grounds by Knick v. Township of Scott, ___ U.S.
___, 139 S. Ct. 2162 (2019), for the proposition that a
takings claim accrues when “the government entity
charged with implementing the regulations has
reached a final decision regarding the application of

App. 128
the regulations to the property at issue.”7 The County
further relies on the Court of Appeals’ decision in Arroyo v. Board of Education of Howard County, 381 Md.
646, 672 (2004), which held that a plaintiff need not
“obtain a final decision from the circuit court on judicial review before the administrative decision it reviewed can be considered a final administrative
determination.” Based on these cases, the County argues that the Board of Appeals’ decision in 2007 to
deny MRA’s requests for variances constitutes the “final administrative decision” triggering the running of
the statute of limitations in this case.
In response, MRA maintains that an inverse condemnation claim does not accrue until the taking becomes “permanent or stabilized.” See Litz, supra, 434
Md. at 654. MRA contends that the alleged taking did
not become permanent or stabilized until the Court of
Appeals, in MRA IV, affirmed the Board’s earlier decisions. Further, MRA relies on this Court’s opinion in
7

On June 21, 2019 – two weeks after oral argument in the
instant case – the United States Supreme Court overruled Williamson, in part. The Court held that a property owner need not
seek just compensation in state court before bringing an inverse
condemnation claim in federal court. Knick, 139 S. Ct. at 2179
(“The state-litigation requirement of Williamson County is overruled.”). Nevertheless, the Court observed that the “finality requirement [set forth in Williamson] . . . is not at issue here.” Id.
at 2169. The Court further stated that Williamson “could have
been resolved solely on the narrower and settled ground that no
taking had occurred because the zoning board had not yet come
to a final decision.” Id. at 2174. The Court clearly noted that the
finality requirement is “settled” and it, therefore, remains binding
law.

App. 129
Millison v. Wilzack, 77 Md. App. 676 (1989), for the
proposition that inverse condemnation claims are unlike other actions against administrative agencies, because such claims do not accrue until disputed
regulations are finally determined to be effective by a
court. According to MRA, the County’s reliance on Arroyo, supra is, therefore, misplaced. Finally, MRA asserts that even if Arroyo is applicable, the County’s
final administrative decision did not occur until July
2010, when the MDE declined to renew MRA’s rubble
landfill permit.
A. MRA’s Inverse Condemnation Claim Accrued on the Date of the County’s Final Administrative Decision.
To determine the accrual date of MRA’s cause of
action, we start with the principle that a constitutional
claim against a government entity “is not ripe until the
government entity charged with implementing the
regulations has reached a final decision regarding the
application of the regulations to the property at issue.”
Williamson Cty. Reg’l Planning Comm’n, supra, 473
U.S. at 186. “Finality . . . occurs in the administrative
sense when ‘the order or decision [disposes] of the case
by deciding all question[s] of law and fact and leave[s]
nothing further for the administrative body to decide.’ ”
Shaarei Tfiloh Congregation v. Mayor of Baltimore, 237
Md. App. 102, 128 (2018) (quoting Willis v. Montgomery
County, 415 Md. 523, 535 (2010)).

App. 130
The County asserts that in June 2007, the Board
of Appeals reached a final decision on whether MRA
could operate a rubble landfill on the property at issue.
The County contends that MRA’s claim accrued in
2007 and that it was, therefore, immaterial that the
Court of Appeals had not yet affirmed or reversed the
Board’s decision. We agree. Indeed, MRA has not presented us with any authority to support the proposition that an inverse condemnation claim is tolled or
does not otherwise accrue until all judicial appeals
have been exhausted.
The Court of Appeals was presented with a similar
issue, albeit in a slightly different context, in Arroyo,
supra, 381 Md. 646. In that case, an employee was terminated and subsequently challenged his termination
through the prescribed administrative procedures in
Howard County. Id. at 652-53. After the Maryland
State Board of Education upheld the employee’s termination in 1998, the employee petitioned for judicial review. Id. at 653. In 1999, the Circuit Court for Howard
County affirmed the State Board’s decision, and in
2000, we affirmed. Id. Two years later, the employee
brought a civil suit against Howard County, alleging
that he was wrongfully terminated. Id. In an attempt
to evade the statute of limitations, the employee asserted that he did not have a cognizable claim until
2000, when judicial review was completed. Id. at 66465.
The Court of Appeals disagreed. The Court specifically held that the employee’s claim accrued when the
State Board rendered its final decision, and not at the

App. 131
time when judicial review of that final decision was
completed. Id. at 671-72 (“It was the act of the State
Board, in its affirmance of the County Board’s decision
to terminate petitioner from his employment, that was
the final decision of the administrative agency[.]”) (emphasis omitted). See also Watson v. Dorsey, 265 Md. 509
(1972) (holding that a legal malpractice claim accrued
when the plaintiffs lost their case at trial, and not at
the point in time when the trial court’s decision was
later affirmed on appeal); Edwards v. Demedis, 118
Md. App. 541, 557 (1997) (stating that it is “not consistent with Maryland law” to hold that a cause of action accrues only after “the resolution of any
subsequent appeal”).8
In our view, MRA’s inverse condemnation claim accrued on June 5, 2007, when the Board of Appeals issued its final decision denying MRA’s requests for
variances. It was on that date that MRA discovered the
alleged taking of its property. See Coll. Bowl, Inc. v.
Mayor of Baltimore, 394 Md. 482, 489 (2006) (observing
that a taking may arise when there are “regulatory actions that effectively deny an owner the physical or
economically viable use of the property”). Although
MRA appealed the Board’s final decision to the circuit
8

Our research – thorough we trust – has found only one type
of claim that accrues when judicial review is completed. See, e.g.,
Heron v. Strader, 361 Md. 258, 265, 270 (2000) (holding that malicious prosecution claims, unlike claims of false arrest and false
imprisonment, arise when the underlying criminal proceedings
terminate because favorable termination is a required element).
Inverse condemnation claims, by contrast, contain no such requirement.

App. 132
court and ultimately the Court of Appeals, MRA’s appeal did not delay the accrual of its claim. Indeed, the
Court of Appeals explicitly rejected such a notion in Arroyo, supra. Critically, the Court of Appeals held in Arroyo that a claim against an administrative agency
accrues when the agency – or some administrative review board – renders its final decision, and not at the
time when judicial review of that final decision is completed. Arroyo, supra, 381 Md. at 671-72.
MRA endeavors to distinguish Arroyo by asserting
that it involved an employment dispute and is inapplicable to takings cases. We disagree. Indeed, there is no
language in the Court of Appeals’ opinion expressly
limiting its decision to employment cases. Notably, the
Court of Appeals has cited Arroyo in other contexts, including land use cases. See, e.g., City of Bowie v. Prince
George’s County, 384 Md. 413, 435 (2004) (“Our Arroyo
holding, although involving very different facts, a different procedural situation, and directed to different
legal doctrines, illustrates the trial court’s need to remain cognizant of the running of a period for further
action, be it judicial or administrative, during the pendency of judicial and administrative review processes.”).
MRA further asserts that the County’s reliance on
Arroyo is misplaced because “the administrative procedure in Arroyo differs significantly from that provided
by the Harford County Code.” The Harford County
Code provides that an “appeal stays all proceedings in
furtherance of the action appealed.” Harford Cty. Zoning Code, Chapter 267, § 267-9(J). According to MRA,

App. 133
this provision establishes that the Board’s June 2007
decision was automatically stayed, and as a result, not
final. We disagree. Section 267-9(J) allegedly stayed
any subsequent administrative actions or proceedings,
but there were no additional administrative proceedings to stay. Indeed, on June 5, 2007, the Harford
County Board of Appeals made its position clear: it
would not allow MRA to operate a rubble landfill on its
property. The County’s decision was final as there was
“nothing further for the agency to do.” Dorsey v. Bethel
A.M.E. Church, 375 Md. 59, 75 (2003) (citations, quotations, and emphasis omitted).
In the alternative, MRA asserts that even if Arroyo is applicable, the final administrative action did
not occur until 2010, when the MDE declined to renew
MRA’s permit to operate a landfill. We disagree. Indeed, the MDE’s decision was premised entirely on
MRA IV, in which the Court of Appeals affirmed the
Board’s earlier denial of the variance requests. In
short, the MDE’s decision constitutes the “continuing
effects of a single earlier act[,]” which is insufficient to
delay the limitations period. Mills v. Galyn Manor
Homeowner’s Ass’n, Inc., 239 Md. App. 663, 683 (2018)
(citations and quotations omitted), cert. granted on
other grounds sub nom., Andrews & Lawrence Prof ’l
Servs., LLC v. Mills, 463 Md. 523 (2019); Duke St. Ltd.
P’ship, supra, 112 Md. App. at 48 (“While there may
have been continuing ill effects from the original alleged violation, there was not a series of acts or course
of conduct by appellee that would delay the accrual of
a cause of action to a later date.”) (emphasis omitted).

App. 134
Moreover, we are not persuaded by MRA’s reliance
on Millison v. Wilzack, 77 Md. App. 676 (1989). According to MRA, this Court held in Millison that an inverse
condemnation claim does not accrue until a court concludes that challenged regulations are effective. We
disagree. In Millison, a landowner purchased property
in 1966 with plans to subdivide the property. 77 Md.
App. at 679. Thereafter, in 1972, the Maryland State
Department of Health and Mental Hygiene (the “Department”) promulgated regulations providing that “a
preliminary plan would become null and void if a record plat or subdivision plan is not filed within six
months of its approval.” Id. For plans that were approved before 1972, however, landowners would have
six months from the date the regulations were adopted
to record their plans. Id.
After the landowner failed to file the plan within
the prescribed six-month period, the Department
sought a declaration that the landowner’s untimely
recorded subdivision plan was null and void. Id. The
circuit court ruled that the regulations were inapplicable to the property and declared the subdivision plan
valid. Id. at 680. On appeal, this Court reversed and
held that the regulations applied to the property and
that the circuit court should have declared the plan
null and void. Id. (citing Millison v. Sec. of Health &
Mental Hygiene, 32 Md. App. 165, 173-74 (1976)). As a
result, the landowner’s plan was expunged. Id.
In 1987, eleven years later, the landowner brought
an inverse condemnation suit against the Department.
Id. On appeal, this Court held that the landowner’s

App. 135
claim was time-barred because the complaint was filed
more than three years after the alleged taking occurred. Id. at 688. This Court explained:
There is, in this case, no question raised concerning when the regulations, which form the
basis for appellant’s claim that his property
was taken, were promulgated or finally determined to be effective. Nor is there a question
concerning when appellant became aware of
the impact of the regulations upon his property. As to the former, the record is clear that
the regulations were promulgated in 1972.
They were finally determined to be effective
in 1976, either when this Court’s decision in
Millison I was filed, the Court of Appeals having denied certiorari that same year, or when,
pursuant to that Opinion, appellant’s subdivision plan was expunged from the Land Records on August 2, 1976. Appellant does not
argue here, as, indeed, he could not, that he
was not aware, at least as early as August 2,
1976, of the effect of the regulations on his
property.
Id. at 686.
In our view, Millison does not, as MRA argues,
stand for the proposition that an inverse condemnation
claim accrues only after judicial review is exhausted.
Such a holding would contradict the Court of Appeals’
more recent decision in Arroyo, supra, 381 Md. 646.
More importantly, whether the claim accrued in 1972
– when the regulations were promulgated – or in 1976
– when the Court of Appeals denied certiorari – was

App. 136
ultimately irrelevant. Indeed, the landowner sued in
1987 and both dates were well outside the three-year
limitations period. As a result, our discussion of when
the takings claim accrued was not essential to the disposition of the case. It, therefore, carries no binding effect. See Smith v. Wakefield, LP, 462 Md. 713, 720, 736
(2019) (observing that a general expression in an opinion, which is not essential to the disposition of the case
– i.e., dictum – is not controlling in subsequent cases);
see also Kastigar v. United States, 406 U.S. 441, 444-45
(1972) (“The broad language . . . relied upon by petitioners was unnecessary to the Court’s decision, and
cannot be considered binding authority.”). We, therefore, hold that MRA’s inverse condemnation claim accrued on June 5, 2007, when the Board of Appeals
issued its final decision denying MRA’s requests for
variances.
Finally, we observe that our holding will not lead
to the improbable scenario where an inverse condemnation claim does not become justiciable until after the
statute of limitations has run. Notably, the Court of Appeals has quelled such a concern. Indeed, the Court has
routinely observed that when a claim is not yet justiciable because of a pending administrative action or appeal, the circuit court should stay the case until the
pending appeal is decided. See Monarch Acad. Balt.
Campus, Inc. v. Balt. City Bd. of Sch. Comm’rs, 457 Md.
1, 13 (2017); Powell v. Breslin, 430 Md. 52, 67-70 (2013);
MRA III, supra, 382 Md. at 362 (holding that when one
case cannot be adjudicated because the other is

App. 137
pending or on appeal, a stay of one proceeding is the
appropriate course of action).
Accordingly, even if MRA’s inverse condemnation
claim was not yet ripe because of the pending appeal
in MRA IV, MRA could have filed its claim within the
limitations period to ensure that its claim was timely.9
The circuit court, if necessary, could have then stayed
the case to await the Court of Appeals’ decision. See,
e.g., Am. Home Assurance Co. v. Osbourn, 47 Md. App.
73, 87 (1980) (“[A]ppellant could have filed his action
. . . within the requisite three year time period and the
action could have been stayed pending the outcome of
the declaratory judgment suit.”). Instead, MRA filed its
claim nearly six years after it discovered the alleged
taking. We, therefore, hold – as a matter of law – that
MRA’s claim is barred by the statute of limitations.
B. MRA’s Inverse Condemnation Claim Became Permanent and Stabilized When the
Board Issued its Final Decision.
To avoid the effect of the statute of limitations,
MRA next argues that its inverse condemnation claim
did not become “permanent or stabilized” until the
Court of Appeals issued MRA IV in 2010. As discussed,
supra, constitutional claims against administrative
agencies ordinarily accrue when the agency renders a
9

It is noteworthy that MRA still had nearly three months to
file its complaint after MRA IV was reported. Indeed, the Court
issued MRA IV on March 11, 2010 and the limitations period did
not close until June 5, 2010.

App. 138
final administrative decision. See Williamson Cty. Reg’l
Planning Comm’n, supra, 473 U.S. at 186. Nevertheless, MRA urges us to disregard this well-established
principle by extending the Court of Appeals’ narrowly
tailored holding in Litz, supra, 434 Md. 623. MRA relies on Litz for the proposition that a regulatory taking
cannot become “permanent or stabilized” until an
agency’s final decision is affirmed by a court. We disagree. Indeed, the Litz Court did not consider what effect, if any, a judicial appeal has on a regulatory
takings claim.
In Litz, a landowner brought an inverse condemnation claim against the government, alleging that the
government failed to remedy continuous sewage and
wastewater discharges into a lake. 434 Md. at 631-33.
Ultimately, the incessant pollution adversely affected
the landowner’s nearby property to the point that the
property was foreclosed on years later. Id. at 633. In
opposition, the government asserted that the landowner’s claim was time-barred because the foreclosure
occurred several years after the landowner discovered
the pollution. Id. at 636. The trial court agreed and dismissed the case. Id.
On appeal, the landowner urged the Court of Appeals to reverse, arguing that the unconstitutional taking did not become permanent or stabilized until her
property was sold at a foreclosure auction. Id. at 651.
Based on the allegations in the complaint, the Court
held that “a reasonable trier of fact could conclude that
the final, complete taking of Litz’s property occurred

App. 139
[at the foreclosure sale], and is not time-barred by the
three-year statutory period.” Id. at 656.
In reaching its holding, the Court of Appeals noted
that “[a] complete taking . . . [does not occur] and the
statute of limitations does not begin to run until the
taking becomes permanent or stabilized.” 434 Md. at
654. In doing so, the Court cited United States v. Dickinson, 331 U.S. 745 (1947), in which the United States
Supreme Court held that a taking is not complete “until the full extent of the taking could be ascertained.”
Id. (citing Dickinson, supra, 331 U.S. at 749). The Litz
Court summarized Dickinson as follows:
In [Dickinson], a cause of action was brought
after the government built a dam that caused
the water level in a river to rise over the
course of several years, resulting in the flooding of Dickinson’s property. [331 U.S. at 74647.] The Supreme Court noted that “[t]he
source of the entire claim—the overflow due
to rises in the level of the river—is not a single
event; it is continuous[, a]nd as there is nothing in reason, so there is nothing in legal doctrine, to preclude the law from meeting such a
process by postponing suit until the situation
becomes stabilized.” [331 U.S. at 749.]
The Supreme Court further clarified that
“when the Government chooses not to condemn land but to bring about a taking by a
continuing process of physical events, the
owner is not required to resort either to piecemeal or to premature litigation to ascertain

App. 140
the just compensation for what is really
‘taken.’ ” [331 U.S. at 749.]
Litz, supra, 434 Md. at 654-55.
The Litz Court then relied on case law from the
United States Court of Appeals for the Federal Circuit,
observing that the Federal Circuit “has illuminated
the current state of the ‘stabilization’ concept[.]” Id. at
655. The Court provided the following quotation from
the Federal Circuit’s decision in Boling v. United
States, 220 F.3d 1365 (Fed. Cir. 2000):
[S]tablization occurs when it becomes clear
that the gradual process set into motion by
the government has effected a permanent taking, not when the process has ceased or when
the entire extent of the damage is determined.
Thus, during the time when it is uncertain
whether the gradual process will result in a
permanent taking, the plaintiff need not sue,
but once it is clear that the process has resulted in a permanent taking and the extent
of the damage is reasonably foreseeable, the
claim accrues and the statute of limitations
begins to run.
Litz, supra, 434 Md. at 655 (quoting Boling, supra, 220
F.3d at 1370-71).
Critically, however, the Federal Circuit has made
clear that the rule announced by the Supreme Court in
Dickinson is generally limited to gradual physical processes such as flooding. See, e.g., Mildenberger v. United
States, 643 F.3d 938, 945 (Fed. Cir. 2011) (“The stabilization doctrine recognizes that determining the exact

App. 141
point of claim accrual is difficult when the property is
taken by a gradual physical process rather than a discrete action undertaken by the Government such as a
condemnation or regulation.”); Goodrich v. United
States, 434 F.3d 1329, 1334-36 (Fed. Cir. 2006) (holding
that the “stabilization principle” is not applicable in
regulatory takings actions because a regulatory takings claim accrues on the date of the agency’s final regulatory decision); Fallini v. United States, 56 F.3d 1378,
1381 (Fed. Cir. 1995) (observing that the Supreme
Court has “more or less limited [Dickinson] to the class
of flooding cases to which it belonged”) (citations and
quotations omitted).10 In Fallini, the Federal Circuit illustrated when regulatory takings claims accrue
through the following hypothetical:
If a landowner owns a parcel of beachfront
property and the government enacts legislation demanding that the landowner allow others to walk along the shore, the government
has effected a taking of an easement on the
landowner’s property.

10

MRA cites to the United States Supreme Court’s decision
in Arkansas Game & Fish Commission v. United States, 568 U.S.
23, 36 (2012), for the proposition that the stabilization principle
applies to regulatory takings claims as well as physical takings.
In that case, the Supreme Court was not tasked with determining
when a takings claim accrues. Moreover, the Supreme Court did
not discuss the stabilization principle. Rather, the Court rejected
the government’s plea to categorically exclude flooding cases from
the Fifth Amendment, holding that there is “no solid grounding
in precedent for setting flooding apart from all other government
intrusions on property.” 568 U.S. at 36.

App. 142
*

*

*

For purposes of claim accrual, such a taking
occurs on the date of enactment of the legislation.
Fallini, supra, 56 F.3d at 1382-83. In short, in reviewing whether a regulatory takings claim is time-barred,
the Federal Circuit – like the Court of Appeals in
Arroyo, supra, 381 Md. 646 – looks to the date that
an administrative agency renders a final decision.
Goodrich, supra, 434 F.3d at 1336 (“Thus, we conclude
that the issuance of a [record of decision] and final [environmental impact statement] is sufficient to constitute the taking and hence accrue a takings claim,
regardless of when the consequences of the decisions
contained therein are felt.”).
Notably, our holding is consistent with the prevailing law across the country. See, e.g., Hacienda Valley
Mobile Estates v. City of Morgan Hill, 353 F.3d 651, 657
(9th Cir. 2003) (holding that an as-applied regulatory
takings claim ripened when the agency rendered a final decision because “there [were] no further [administrative] procedures available to [the plaintiff ] to
challenge that decision short of resort to state courts
for a writ of administrative mandamus”); Wellswood
Columbia, LLC v. Town of Hebron, 171 A.3d 409, 421
(Conn. 2017) (“[T]he denial of a variance by a zoning
board of appeals is considered a final decision by an
initial decision maker, which is all that is required to
establish finality in order to bring a takings claim, and
that once the zoning board of appeals makes its decision, the regulatory activity is final for purposes of an

App. 143
inverse condemnation claim[.]”) (citations and quotations omitted); Scott v. Sioux City, 432 N.W.2d 144, 148
(Iowa 1988) (“Although damages for flooding and physical invasion can occur intermittently over the passage
of time, in this case, the passage of the permanent ordinance had immediate adverse economic consequences for plaintiffs.”); Edwards Aquifer Auth. v.
Bragg, 421 S.W.3d 118, 135 (Tex. App. 2013) (“[A]n asapplied [regulatory takings] claim is not ripe until the
regulatory authority has made a final decision regarding the application of the regulation to the property.”)
(emphasis added).
Accordingly, to the extent that the stabilization
principle applies in regulatory takings actions, we hold
that, under the circumstances of this case, the alleged
taking of MRA’s property occurred on June 5, 2007,
when the Board of Appeals denied MRA’s requests for
variances. In our view, the alleged taking had clearly
“stabilized” within the meaning of Dickinson, because,
as of that date, it was abundantly clear that the County
would not permit MRA to operate a rubble landfill.
MRA’s alleged damages may have been reduced if the
Court in MRA IV reversed the Board’s decision. Nevertheless, the mere fact that damages may fluctuate does
not operate to delay the accrual date of MRA’s claim.
Indeed, for a takings claim to accrue, “[i]t is not necessary for the precise extent of the loss to be known[.]”
Duke St. Ltd. P’ship, supra, 112 Md. App. at 48. We,
therefore, hold that MRA’s inverse condemnation claim
accrued in 2007 and is time-barred.

App. 144
In sum, the Harford County Board of Appeals rendered its final decision proscribing MRA from operating a rubble landfill on the property at issue on June
5, 2007, when it denied MRA’s requests for variances.
Consequently, MRA’s inverse condemnation claim accrued on that date. Because MRA did not file its complaint until February 2013 – nearly six years later –
its cause of action is barred by the statute of limitations.11 The circuit court, therefore, erred in permitting
the claim to proceed to trial.12 Accordingly, we reverse
MRA’s judgment of $45,420,076 and remand the case
for the circuit court to enter judgment in favor of the
County.
We are well aware that we are vacating a significant judgment rendered against the County. Nevertheless, because the cause of action accrued in this case
more than three years before MRA filed its inverse condemnation claim, the statute of limitations mandates
that its judgment be reversed. Indeed, Maryland
“courts are required to enforce the Statute of Limitations as adopted by the Legislature and have no authority to create an unauthorized exception[.]” Sheng

11

MRA’s per se takings claim is time-barred for the same rea-

sons.
12

In light of our holding that MRA’s inverse condemnation
claim is time-barred, we need not consider either the County’s alternative arguments for vacating the judgment or MRA’s crossappeal.

App. 145
Bi v. Gibson, 205 Md. App. 263, 269 (2012) (citations
omitted).
JUDGMENT OF THE CIRCUIT COURT
FOR HARFORD COUNTY REVERSED.
CASE REMANDED TO THAT COURT
FOR ENTRY OF JUDGMENT IN FAVOR OF HARFORD COUNTY, MARYLAND. COSTS TO BE PAID BY
APPELLEE.

App. 146
APPENDIX C
MARYLAND RECLAMATION * IN THE
ASSOCIATES, INC.
* COURT OF
* APPEALS
v.
*
HARFORD COUNTY,
* OF MARYLAND
MARYLAND
* COA-REG-0052* 2019
*
* No. 52
* September Term,
* 2019
ORDER
Upon consideration of the Motion for Reconsideration filed by Maryland Reclamation Associates, Inc. in
the above-captioned case, it is this 11th day of May,
2020,
ORDERED, by the Court of Appeals of Maryland,
that the Motion for Reconsideration be, and it is
hereby, DENIED.
/s/ Mary Ellen Barbera
Chief Judge

App. 147
APPENDIX D
MARYLAND RECLAMATION * IN THE
* CIRCUIT COURT
ASSOCIATES, INC.
*
Plaintiff
* FOR
v.
* HARFORD
* COUNTY
HARFORD COUNTY,
*
MARYLAND
* CASE NO.
Defendant
* 12-C-13-509
************
MEMORANDUM OPINION
(Filed Mar. 9, 2018)
This case comes before the court on the Plaintiff ’s
Motion to Establish Ultimate Fact by Collateral Estoppel and the Defendant’s opposition to that motion. The
original Motion to Establish the Ultimate Fact was
filed on May 24, 2016. Subsequent motions requesting
the same relief were filed by the Defendant on February 7, 2018 and February 26, 2018.
It is these motions that are now before the court.
PROCEDURAL HISTORY
On October 15, 2015 the Defendant filed a Motion
for Summary Judgment and the Plaintiff filed its opposition. On May 24, 2016, the Defendant filed a Motion to Establish Ultimate Facts by Collateral Estoppel
and the Plaintiff filed its opposition. This Court issued

App. 148
a Memorandum Opinion and Order denying the motion to dismiss and for summary judgment. The Court
did in its ruling, however, preclude the Plaintiff ’s claim
for lost profit damages.
The parties were ordered into mediation and the
trial date was continued. The mediation was unsuccessful and a new scheduling order was signed. The
trial is scheduled for April 2, 2018. There are a bevy of
motions in limine that are to be ruled on before the
April 2, 2018 trial.
On January 9, 2018 the parties scheduled a stipulations hearing, to stipulate to material facts not in
genuine dispute and to the genuineness of documents.
That hearing was canceled due to inclement weather
and is to be rescheduled.
On November 13, 2017 the Defendant filed a Motion Requesting Ruling of Unaddressed Issues of Law
and the Plaintiff filed its opposition on November 21,
2017. On January 11, 2018 the Defendant then filed
a Renewed Motion to Preclude the Testimony for R.
Bruce Gamble or alternatively For Leave to Depose
Gamble. The Plaintiff filed its opposition on January
24, 2018.
On February 7, 2018 the Defendant filed a motion
for partial summary judgment based on the legal doctrine of res judicata, and statute of limitations. The
Plaintiff filed a Motion to Strike, or in the alternative,
opposition to the Defendant’s motion. On February 26,
2018, the Defendant filed yet another motion for

App. 149
summary judgment requesting a ruling that the zoning regulations at issue do not effect a total taking.
I.

DISCUSSION

The doctrine of collateral estoppel and its close
cousin res judicata were developed at common law. The
doctrine of collateral estoppel or issue preclusion as it
is sometimes referred to, is based upon the concept
that when an issue of fact or law is actually litigated
and decided by a valid and final judgment and the determination in question is essential to the judgment,
that determination is conclusive in a subsequent action between the parties, whether on the same or a different claim. James v. State, 350 Md. 283, 711 A.2d
1319 (1998); Murray International v. Graham, 315 Md.
543, 555 A.2d 502 (1989).
The purpose of having both of these legal doctrines
is to avoid the expense and vexation of multiple lawsuits, to conserve judicial resources and foster reliance
on judicial actions by minimizing the possibility of
inconsistent decision on the same issue. Murray International, supra. While closely akin, the doctrines of
collateral estoppel and res judicata are distinct in both
their form and function.
The doctrine of res judicata is applied in a second
suit that is between the same parties and that is based
on the same cause of action. If the first case has been
brought to a conclusion, any judgment rendered on the
merits is an absolute bar not only to all matters that
were litigated in the earlier case but also all matters

App. 150
that could have been litigated. The doctrine of collateral estopped is called into play when there is a second
suit or dispute between the same parties and, even
though the cause of action is different, any determination of fact that was actually litigated in the first case
is conclusive in the second case. Garrity v. Maryland
State Bd. of Plumbing, 447 Md. 359, 368, 135 A.3d 452,
458 (2016); Cosby v. Dept of Human Res., 425 Md. 629,
639, 42 A.3d 596, 602 (2012); MPC. Inc. v. Kenny, 279
Md. 29, 367 A.2d 46 (1977); Sterling v. Local 438, 207
Md. 132, 113 A.2d 389 (1955).
When the doctrine of collateral estoppel is invoked, facts or issued decided in the previous action
are conclusive only if (1) identical to the facts and/or
issues presented in the subsequent proceedings, and
(2) the case involves the same parties. Under these considerations the earlier resolutions on findings of fact
and the law are conclusive as to the issues between the
parties. Bankers & Shippers Insurance Company of
New York v. Electro Enterprises, Inc., 287 Md. 641, 415
A.2d 278 (1980); MPC Inc. v. Kenny, supra; Prescott v.
Coppage, 266 Md. 563, 296 A.2d 150 (1972). Collateral
estoppel is concerned with the implication of the resolution of issues between the parties in an earlier litigation in a different case and is based on the judicial
policy that the losing litigant deserves no rematch after an issue has been resolved after it has been raised
or should have been raised. Department of Human
Resources v. Thompson, 103 Md. App. 175, 653 A.2d
1183 (1995).

App. 151
The concept is based on the principle of judicial
efficiency and fairness and provides that treating adjudicated facts as established protects parties and litigants from the burden of relitigating identical issues
with the same party or a party in privity to prevent
needless litigation. Garrity v. Maryland State Bd. of
Plumbing, supra.
The Court of Appeals in the case of Colandrea v.
Wild Lake Community Association, 361 Md. 371, 761
A.2d 899 (2000) reiterated that there is a four part test
which must be satisfied in order for the doctrine of collateral estoppel to be applicable:
1.

Was the issue decided in a prior adjudication identical to the one presented in the
action in question

2.

Was the party against whom the plea is
asserted given a fair opportunity to be
heard on the issue

3.

Was the party against whom the plea is
asserted a party in privity with the party
in the prior adjudication

4.

Was there a final judgment on the merits

It is conceded there are same parties and a final
judgment on the merits as the collateral estoppel motion relies on County Council of Harford Co. v. Maryland Reclamation, 382 Md. 229, 614 A.2d 78 (1992);
Maryland Reclamation Assocs., Inc. v. Harford Cty.,
342 Md. 476, 677 A.2d 567 (1996); Maryland Reclamation Assocs., Inc. v. Harford Cty., Maryland, 382 Md.
348, 855 A.2d 351 (2004); Maryland Reclamation

App. 152
Assocs., Inc. v. Harford Cty., 414 Md. 1, 994 A.2d 842
(2010). The issues previously litigated were made final
on the merits by the Harford County Board of Appeals,
affirmed by this court, and then reaffirmed by the Maryland Court of Appeals.
A. Identical Issues
It is the Plaintiff ’s position is that the Harford
County Board of Appeals and Maryland Reclamation
Assocs., Inc. v. Harford Cty., 414 Md. 1, 994 A.2d 842
(2010) (hereinafter referred to as “MRA IV”) involved
a due process analysis of whether Bill 91-10 was arbitrary and capricious and whether or not Bill 91-10
properly applied to the Gravel Hill property. The validity of Bill 91-10 was decided before the Zoning Hearing
Examiner and affirmed by the Court of Appeals.
The Plaintiff relies on Lingle v. Chevron U.S.A.,
Inc. 544 U.S. 528, 540 (2005), which held that a due
process analysis has no proper place in takings jurisprudence. The Plaintiff argues that the standard is different for a takings analysis because not only does the
court determine the reasonableness of the government
action but also the impact of the regulation on the
property owner. Id. at 544 U.S. 538-9, 125 S. Ct. 2074,
161 L. Ed. 2d 876 (2005). The Plaintiff contends that
the issues as they relate to a regulatory taking are
different, arguing pursuant to the holding in Lingle,
supra. the issue in this case does not involve analysis
of whether the underlying regulations are valid, and
that the validity of the regulations is distinct from the

App. 153
question whether a regulation has the effect of being a
taking.
The issue presented in this case is a claim of a regulatory taking under Section 40 of Article III of the
Maryland Constitution and Articles 19 and 24 of the
Maryland Declaration of Rights. The case of Penn Central Transp. Co. v. New York City, 438 U.S. 104 (1978)
sets forth factors to aid in the determination of
whether the action was a regulation significant enough
to be considered as a “taking.” The Penn Central test
is a balance of three factors: (1) the economic impact
of the regulations on the property, (2) the extent to
which the regulation interfered with Plaintiff ’s distinct investment-backed expectations, and (3) the
character of the governmental actions. The takings
analysis is distinguishable from the due process analysis because it looks to the factual assessments or the
purposes of the government action and the economic
effect on the landowner, taking into account the character of the government’s action. Lingle, supra.
MRA IV was decided under a due process standard. In determining whether the regulation failed to
serve a government objective, the court used the standard as to whether or not the objective was so arbitrary
or irrational that it deprived the Plaintiff of its rights
under due process. MRA IV found there were sufficient
reasons for deeming Bill 91-10 emergency legislation
because of the citizen concern and it was therefore
found not be arbitrary or capricious.

App. 154
It is Defendant’s position that collateral estoppel
is applicable to this case. They assert that although
the earlier case involved different legal theories and
causes of action, collateral estoppel is not concerned
not with the legal consequences of a judgment, but
with findings of ultimate fact that lay behind the judgment.
The Defendant seeks the following to be established as ultimate facts:
•

the reasonableness of the government action and
also the impact of the regulation on the property
owner and the requirement that a rubble landfill
be located on a property at least 100 acres in size
does not have a disproportionately adverse impact
on MRA because any landfill located in the agricultural zoning district would be subject to that
same requirement;

•

that the rubble landfill MRA proposed to construct
and operate on the property has a high potential
for adversely impacting the lives, well-being and
property values of the residents in the area;

•

that there was no good faith reliance by the Plaintiff on the County Council before deciding to purchase and operate a rubble landfill at the Gravel
Hill site where 200 foot buffers are required to be
established at the beginning of the project;

•

MRA did not have a non-conforming use right to
develop the property as a rubble land fill, i.e., the
existing industrial waste permit to be operated on
approximately (24) acres of the property did not

App. 155
give MRA a right or expectation it would dispose
rubble waste; and
•

MRA has no vested right to construct and to operate a rubble landfill on the property.
The court will address each issue in turn.
1. Whether it may be established by ultimate fact the reasonableness of the
government action and that there
was no disproportionate adverse impact of the regulation

The Defendant argues that pursuant to a Penn
Central analysis, the character of the government action was appropriate and within the purview of the
zoning authority where that authority found an adverse public impact. That argument holds no weight
since the Court in Penn Central, supra. reviewed the
zoning board’s analysis to determine whether or not it
was a regulatory taking and found that the prior litigation concerned the merits of the government action
and not its nature. The Plaintiff cites Wensmann Realty, Inc. v. City of Eagan, 734 N.W.2d 623, 639 (Minn.
2007), which held that the focus of the character of government action inquiry is on the nature rather than the
merit of the government action and an important consideration is whether the burden of the regulation falls
disproportionately on relatively few property owners.
This Court cannot say that the zoning regulations
were reasonable as a matter of law pursuant to the
decision in MRA IV because that case issued a final

App. 156
judgment on the merits of a vested rights issue. The
Court in Lingle v. Chevron, U.S.A. Inc., at 544 U.S.
528-9 (2005) found that the due process review of the
regulation reveals nothing about the magnitude or
character of the burden that a particular regulation
imposes upon private property rights or how any regulatory burden is distributed among property owners.
Magnitude and the character of the burden of a particular regulation that is imposed on private property
rights is not totally resolved by a due process finding.
In other words, a due process analysis assessing the
vested rights of the Plaintiff is not fit to identify regulations whose effects are comparable to a government
appropriation.
The only thing actually litigated in MRA IV was
that the character of the government action was not
arbitrary or capricious. It cannot be found as a matter
of law via collateral estoppel that the government actions were or were not reasonable or that this was not
a taking.
The Defendant also asks this court find that the
impact of the regulation on the property owner and the
requirement that a rubble landfill be located on a property at least 100 acres in size does not have a disproportionately adverse impact on MRA because any
landfill located in the agricultural zoning district
would be subject to that same requirement
There is no issue of how the regulations’ burdens
were apportioned. It was decided by the Harford
County Board of Appeals. It was concluded in prior

App. 157
litigation that the regulation had negative impacts on
all landfill property located in the county. The Harford
County Hearing Examiner found and the Court of
Appeals affirmed:
MRA cannot allege a disproportionate impact
of the 100 acre size requirements upon it. All
properties of less than 100 acres in size are
similarly impacted by the prohibition against
rubble landfills on parcels of less than that
size. The applicant it treated no differently
than any other similarly situated property
owner.
MRA IV at 414 Md. 1, 33, 994 A.2d 842, 861 (2010).
The Board of Appeals Zoning Hearing Examiner
found that the (100) acre requirement is not disproportionate because all properties of less than (100) acres
are similarly impacted by the prohibited against rubble landfills on the parcels of less than that size and
that MRA was treated no differently. The Zoning Hearing Examiner also found that the (1000) foot buffer requirement treated MRA no differently, and further
found that traffic required a buffer that large and that
otherwise there would be an adverse impact to the
neighbors.
The impact of the regulation on the property
owner and the requirement that a rubble landfill must
be located on a property at least 100 acres in size may,
for purposes of the litigation before this court, have a
disproportionately adverse impact on MRA irrespective of the fact that landfills located in the agricultural

App. 158
zoning district would be subject to that same requirement. Therefore while it can be established as ultimate
fact that the (100) acres was applicable to all landowners under 91-10, that fact is not conclusive as a matter
of law as it relates to the issues presented by this court.
2. Whether it may be established by ultimate fact that the rubble landfill
has a high potential for adversely
impacting the lives, well-being and
property values of the residents in
the area and that it was a nuisance
to the community.
The Hearing Examiner issued a decision February
28, 2007 denying MRA’s requests for a variance. In
that decision the Hearing Examiner noted factual findings that a rubble landfill at the Gravel Hill site would
have a detrimental effect on adjacent properties. There
was also a finding that there was sufficient evidence
that MRA’s proposal would adversely affect the public
health, safety and general welfare as resulting in dangerous traffic conditions. More particularly the hearing
found that a community would be affected by dust,
fumes and deforestation, and that a church of historical significance would be affected.
The Court of Appeals in MRA IV affirmed the Examiner and Board of Appeals determination that there
was sufficient evidence presented with respect to each
requested variance to support the conclusion that the
landfill was substantially detrimental. The Defendant
therefore argues that it may be established as ultimate

App. 159
fact that the proposed landfill would have an adverse
impact on the lives, well-being and property values of
the residents in the area.
The Defendant request this court establish by collateral estoppel that a landfill on the site would constitute a nuisance. To sustain an action of nuisance a
plaintiff must demonstrate that the defendant’s interference with the plaintiff ’s property rights is both unreasonable and substantial in order to recover. Exxon
Mobil Corp. v. Albright, 433 Md. 303, 409–11, 71 A.3d
30 (2013); Blue Ink, Ltd. v. Two Farms, Inc., 218 Md.
App. 77, 92–93, 96 A.3d 810, 820 (2014). A finding of
private nuisance requires a two-part analysis: (1) viewing the defendant’s activity, was the interference unreasonable and substantial and (2) viewing the
plaintiff ’s alleged harm, was the inconvenience or
harm caused by the interference objectively reasonable. Blue Ink, Ltd. v. Two Farms, Inc., supra.
The issue of nuisance was not argued at the hearing or on appeal. Even though the Court found in MRA
IV there was legally sufficient evidence to show the
rubble landfill would be substantially detrimental,
there was no inquiry as to whether the interference of
the property was objectively reasonable. The County
argues that there was a factual finding of the nuisance
in the impact of a rubble landfill where the Zoning
Hearing Examiner found an adverse impact on traffic,
noise, dust, vermin and the general unpleasantness of
having a landfill in close proximity to their homes etc.
as was determined by the Zoning Hearing Examiner,
and that, when the County Council enacted Bill 91-10

App. 160
it did so for classic zoning considerations. MRA IV, 414
Md. 1, 33.
In the opinion of the court, however, this finding of
the Court of Appeals that there was sufficient facts
produced to justify the decision of the County Council
and/or the Board of Appeals does not as a matter of law
amount to a legal conclusion that the proposed landfill
was determined to be a nuisance under the criteria set
forth above.
3. Whether it may be established by ultimate fact that there was no good
faith reliance before deciding to purchase and operate a rubble landfill
The Plaintiff contends that in MRA IV that the
County was estopped from applying the new requirements in Bill 91-10 to the Gravel Hill property. MRA
IV held against the Defendant’s under their theory of
zoning estoppel. MRA IV found that where the developer had good reason to believe before or while that the
zoning would change, a finding for estoppel may not be
justified. The Court of Appeals found that facts were
available to MRA at the time of the February 1990 purchase that should have alerted MRA to the possibility
that its plans for a rubble fill would not be successful.
In MRA IV the Plaintiff sought damages for lost
expenses, arguing that it relied on the inclusion of the
Gravel Hill property into the Harford County SWM
plan. The Plaintiff further argues that this issue as decided in MRA IV went to the validity of the legislation

App. 161
before the issue of inverse condemnation was ripe and
that equitable estoppel analysis differs from the analysis set forth in Lucas and Penn Central.
Elements of equitable estoppel are (1) relying in
good faith (2) upon some act/omission and (3) made
such a substantial change in position or incurred extensive hardship and expense that it would be inequitable and unjust to destroy the rights acquired.
Equitable estoppel requires that the voluntary conduct
or representation constitute the source of the estopping party’s detriment. Gregg Neck Yacht Club, Inc. v.
Cty. Comm’rs of Kent Cty., 137 Md. App. 732, 773, 769
A.2d 982, 1006 (2001); Gould v. Transamerican Assoc.,
224 Md. 285, 297, 167 A.2d 905 (1961); Liberty Mutual
Ins. Co. v. American Auto. Ins. Co., 220 Md. 497, 501,
154 A.2d 826 (1959); Zimmerman v. Summers, 24
Md.App. 100, 120, 330 A.2d 722 (1975).
MRA IV found that in terms of getting approval
for a rubble landfill, the Plaintiff did not rely in good
faith on the action of the County Council because in
February 1990, MRA should have known of the real
possibility its final inclusion in the SWM plans might
not come to fruition. MRA IV found that the vote initially included the Plaintiff in the SWM plan was attained by a “fragile majority” and just because it was
included in the SWM plan was not a sufficient step in
the reliance because the final approval of the site for
a landfill also required zoning approval. MRA IV additionally found that the Plaintiff should have been
more diligent to figure out the chances of operating in
that locale, including community outreach. The Court

App. 162
balanced the good faith reliance with the hardship and
found that the Plaintiff had not incurred extensive
hardship and expense.
MRA IV found that there was insufficient reliance
in good faith where it was unknown whether the Plaintiff could procure all of the necessary approvals. The
elements of equitable estoppel is a question of fact to
be determined in each case. Gregg Neck Yacht Club,
Inc., supra. Here, the issue of good faith reliance differs
because the issue concerns whether there was taking
of the property rather than a right to use the property.
This court cannot find as a matter of law that there
was a lack of good faith reliance and between the resolution of that issue as it may relate to the Plaintiff ’s
claim should be left to the finder of fact.
4. MRA did not have a non-conforming
use right to develop the property as
a rubble land fill
MRA contended in MRA IV that the use of its
property prior to the Board’s ruling was a valid nonconforming use and therefore insulated MRA’s
planned landfill from further zoning regulation. The
Court of Appeals found that MRA could not a claim
non-conforming use status for the property at the time
of 91-10’s passage. MRA IV at 64.
MRA IV answered the question of whether the operation of the landfill with a State permit constituted
a valid, non-conforming use under the Harford zoning
Section 267-18. The Court held that MRA failed to

App. 163
prove that its property was protected from re-zoning as
a non-conforming use by failing to show that substantially all of the property was being used in permissible
means before a zoning change was enacted. The existing industrial waste permit to be operated on approximately (24) acres of the property did not give MRA a
right or expectation that it could also operate a rubble
fill.
A non-conforming use was an identical issue established in the previous litigation and therefore it
may be established as fact for purpose of this litigation.
5. MRA has no vested right to construct
and to operate a rubble landfill on the
property
As discussed above, the vested rights issue was addressed as a challenge to the validity of the regulations. As set forth above, the resolution of that issue
is distinct from the question of whether a regulation
effects a taking. The Takings Clause presupposes that
the government acted in pursuit of a valid public purpose and expressly requires compensation where the
government takes private property for public use. It
does not bar the government from interfering with
property rights, but rather requires compensation in
the event of otherwise proper interference amounting
to a taking where a regulation completely deprives a
landowner of all economically beneficial or productive
use of his land. Lingle v. Chevron, supra.

App. 164
While it was established as fact that the Plaintiff
has no vested right to operate a rubble landfill on the
property, that fact is not conclusive as to the issue of
whether there was a regulatory taking sufficient to allow the Plaintiff to receive damages from the Defendant.
B. Fair opportunity to be heard on the issues
An agency decision can have preclusive effect
when that agency is performing the quasi-judicial
functions and a court will grant an agency decision
preclusive effect for purposes of collateral estoppel
upon satisfaction of the three-part test arising from
Exxon Corp. v. Fischer, 807 F.2d 842, 84506 (9th Cir.
1987). That test provides that an agency decision can
have preclusive effect if: (1) the agency acted in judicial
capacity; (2) the issue presented to the fact finder in
the second proceeding was fully litigated before the
agency and; (3) resolution of the issue was necessary to
the agency’s decision. Gerrity v. Maryland State Bd. of
Plumbing, 447 Md. 359, 380 135 A.3d 452, 465 (2016).
Neifert v. Department of Environment, 395 Md. 486,
910 A.2d 1100 (2006). When those elements are satisfied agency findings made in the course of the proceeding that are judicial in nature should be given the same
preclusive effect as findings made by a court. Gerrity,
supra. A preclusive effect is governed to the extent the
case comports with principles of judicial economy and
fairness. Gerrity v. Maryland State Bd. of Plumbing,
447 Md. 359, 376, 135 A.3d 452, 463 (2016).

App. 165
The Court of Appeals in Gerrity, supra. found determinative in whether the first factor is satisfied was
whether there is opportunity to conduct a hearing that
allowed parties to present evidence and exhibits. The
Plaintiff was given a fair opportunity to present evidence and to participate fully in all hearings. There is
no allegation by the Plaintiff that there was different
procedural opportunities in the two proceedings.
The second factor is satisfied where the issues to
which the Board granted preclusive effect were actually litigated and determined in the Hearing. Gerrity,
supra. The Court in Colandrea v. Wilde Lake Community Association, Inc. v. 361 Md. 371, 761 A.2d 899
(2000) found that decisions made by an administrative
agency are given preclusive effect only where the
agency was acting in quasi-judicial capacity, where the
issue was actually litigated and where the resolution
was necessary to the agencies decision. The third factor is satisfied where the finding of fact was necessary
as a predicate the final order.
The Plaintiff contends that because the identical
issues in the takings analysis was not fully heard, the
Defendants are prevented from relief under collateral
estoppel. The Defendant argues that it must not be the
same exact issue because that would constitute res judicata because the facts argued during the Hearing
were determinative to the action.
As set forth above, the issues before this court are
different than the issues decided in MRA IV. The issues
decided in MRA IV, while it did make findings of fact,

App. 166
do not go to the ultimate issue currently before this
court as a matter of law.
II.

CONCLUSION

In the opinion of the court, as set forth above, the
doctrine of collateral estoppel is not applicable to the
issue in this case and should be denied. It should be
clear, however, that this ruling does not mean that all
of the facts and ruling of the Hearing Examiner, the
Board of Appeals, or the Court of Appeals is in any way
irrelevant or should not be presented in some form to
the ultimate finder of fact for its consideration in resolving this case. Indeed, many of those findings would
seem to be relevant in some way to the issue presented
here. Whether and how those issues are presented
should be left to the discretion of the trial judge.
The issue raised in the February 7, 2018 motion
also requested summary judgment for reason the statute of limitation had run. That issue was raised on the
original October 15, 2015 motion for summary judgment. The court issued its ruling denying relief on the
basis of statute of limitations on January 31, 2017. The
thirty day time period had run for this court to reconsider the previous order, this request must be denied.
The Defendant’s January 11, 2018 Renewed Motion to Preclude the Testimony for R. Bruce Gamble
is an issue pending as a motion in limine. (See Defendant’s Motion in Limine to Strike Much of the Expert
Testimony of R. Bruce Gamble). The January 11, 2018

App. 167
request for leave to Depose Bruce Gamble is untimely
where discovery was closed over a year ago.
/s/ WILLIAM O. CARR
WILLIAM O. CARR, JUDGE
cc:
Brett Ingermann
DLA Piper LLP
The Marbury Building
6225 Smith Avenue
Baltimore, MD 21209
Attorney for Plaintiff
William D. Hooper, Jr.
1718 Mews Way
Fallston, MD 21047
Attorney for Plaintiff
Robert H.B. Cawood
Cawood & Cawood, LLC
209 West Street, Suite 303
Annapolis, MD 21401
Attorney for Plaintiff
John R. Greiber, Jr.
Smouse & Mason
125 West Street, Suite 302
Annapolis, MD 21401
Attorney for Plaintiff

App. 168
Jefferson Bloomquist
Funk & Bolton, P.A.
36 S. Charles Street, 12th Floor
Baltimore, MD 21201-3111
Attorney for Defendant

App. 169
MARYLAND RECLAMATION * IN THE
ASSOCIATES, INC.
* CIRCUIT COURT
*
Plaintiff
* FOR
v.
* HARFORD
* COUNTY
HARFORD COUNTY,
*
MARYLAND
* CASE NO.
Defendant
* 12-C-13-509
************
ORDER
It is this it is this 9th day of March, 2018, hereby
ORDERED;
(1) the Defendant’s May 24, 2016 Motion to Establish Ultimate Fact by Collateral Estoppel is DENIED;
(2) the Defendant’s February 7, 2018 Motion for
Partial Summary Judgment, Res Judicata, and Statute of Limitations is DENIED as moot;
(3) the Defendant’s February 26, 2018 Motion for
Summary Judgment Zoning Regulations at Issue Do
Not Effect a Total Taking is DENIED as moot; and
(4) the Defendant’s January 11, 2018 Request for
Leave to Depose Bruce Gamble is DENIED.

App. 170
It is further ORDERED that at the March 22,
2018 Pre-Trial Conference, counsel bring a list of witnesses and evidence to be presented at trial.
/s/ WILLIAM O. CARR
WILLIAM O. CARR, JUDGE
cc:
Brett Ingermann
Melissa L. Mackiewicz
DLA Piper LLP
The Marbury Building
6225 Smith Avenue
Baltimore, MD 21209
Attorney for Plaintiff ’
William D. Hooper, Jr.
1718 Mews Way
Fallston, MD 21047
Attorney for Plaintiff
Robert H.B. Cawood
Cawood & Cawood, LLC
209 West Street, Suite 303
Annapolis, MD 21401
Attorney for Plaintiff
John R. Greiber, Jr.
Smouse & Mason
125 West Street, Suite 302
Annapolis, MD 21401
Attorney for Plaintiff

App. 171
Jefferson Bloomquist
Funk & Bolton, P.A.
36 S. Charles Street, 12th Floor
Baltimore, MD 21201-3111
Attorney for Defendant

App. 172
APPENDIX E
MARYLAND RECLAMATION * IN THE
* CIRCUIT COURT
ASSOCIATES, INC.
*
Plaintiff
* FOR
v.
* HARFORD
* COUNTY
HARFORD COUNTY,
*
MARYLAND
* CASE NO.
Defendant
* 12-C-13-509
* * ** * ** * ** * ** * ** * ** * *
MEMORANDUM OPINION
(Filed Jan. 31, 2017)
This case comes before the court on a Motion for
Summary Judgment filed by the Defendant.
FACTUAL BACKGROUND
On August of 1989, Maryland Reclamation Associates, Inc. (hereinafter referred to as “the Plaintiff ’ or
“MRA”) entered into a contract to purchase property
located on or adjacent to Gravel Hill Road in Harford
County with the intent of constructing and operating
a rubble landfill.
MRA began the process of obtaining a rubble landfill permit from the Maryland Department of the Environment (hereinafter referred to as “MDE”). As part of
that process, MRA requested that the site be included

App. 173
in the County’s Solid Waste Management Plan (hereinafter referred to as “the SWM plan”). As a result of
that request, Harford County (hereinafter referred to
as “the Defendant” or “the County”) amended its SWM
plan to include the Gravel Hill Road site subject to (27)
conditions, including but not limited to MRA providing
a minimum landscape buffer of 200 feet. The (27) conditions were designed to mitigate any negative impact
of the use of the property as a rubble landfill on the
surrounding community.
On November 7, 1.989 the County Council conducted a hearing and on November 14, 1989, passed a
motion including the Plaintiff ’s proposed site in the
SWM plan. The Council’s attorney had advised the
Council that it must act on the matter before November 17, or MDE would treat MRA’s request as having
been approved.
MRA began the process of seeking a permit from
MDE to construct and operate a rubble fill and on November 20, 1989, the Plaintiff received a Phase I approval. MRA subsequently filed additional reports and
statements with MDE to obtain Phase II and Phase III
approval.
As a result of the receipt of this preliminary approval for a rubble landfill permit, the Plaintiff and the
sellers finalized the purchase of the Gravel Hill property on February 9, 1990 for the sum of $732,500, a
purchase price below the appraised value of the property.

App. 174
Subsequent to the purchase being finalized the
wheels began to come off the cart, at least from MRA’s
perspective. On February 14, 1990 the newly appointed
President of the County Council introduced Resolution
4-90 which would require that the Gravel Hill Road
site be removed from the SWM plan. After public hearings were held on this proposed resolution, it was
passed on May 8, 1990, by the four members of the
Council who chose not to abstain or who were not otherwise disqualified from voting on the resolution and
the Gravel Hill site was removed from the SWM plan.
Subsequently to the passage of Resolution 4-90
the President of the County Council wrote to MDE requesting that it delay consideration of any final approval of MRA’s permit. MDE thereafter stopped
processing MRA’s application for a rubble landfill permit.
Feeling aggrieved by the action of the council,
MRA filed suit in the Circuit Court for injunctive relief
and a declaratory judgment to overturn the Council’s
decision. On October 10, 1990 the court granted a Motion for Summary Judgment in favor of MRA and effectively voided the May 8, 1990 resolution.
The individual property owners and the County
Council appealed and the trial court’s decision was affirmed by the Court in the case Holmes v. MRA, 90 Md.
App. 120, 600 A.2d 864 (1992) (hereinafter referred to
as “MRA I”). The Court of Special Appeals held that the
Council’s resolution to delete the plan because of
groundwater considerations and other land use issues

App. 175
was an impermissible invasion on the State’s permit
review prerogative. An attempt by the County Council
to seek a review by the Court of Appeals was no
granted on the grounds that the Council lacked standing to file an appeal of its own. County Council of Harford Co. v. Maryland Reclamation, 382 Md. 229, 614
A.2d 78 (1992).
While the MRA I litigation on Resolution 4-90 was
still pending in the appellate system, the County
Council introduced Bill 91-10 as emergency legislation.
The purpose of this bill was to amend the requirements
for rubble landfills by increasing the minimum acreage
to 100 acres and to increase buffer zones from 200 to
1000 feet. The bill passed after a public hearing on
March 19, 1991 and was signed into law on June 10,
1991 by the County Executive.
Bill 91-16 was also introduced to the Harford
County Council on April 2, 1991. The purpose of this
bill was to authorize the County Council to remove a
specific site from the SWM plan if the site failed to
comply with any ordinance if a permit had not been
issued by MDE within 18 months of the site being
placed in the SWM plan or where the owner had not
placed the site in operation within the same 18 month
period. Once again, the bill was passed by the County
Council and was signed into law by the County Executive on June 10, 1991.
Even before Bill 91-16 was signed into law, a copy
was sent to MDE calling into question the status of the
various sites that were in the process of being

App. 176
considered for rubble land fill permits. On April 25,
1991 the County sent a letter to MDE with a copy of
Bill 91-10, advising MDE that the Bill would call into
question any pending permits. On May 2, 1991 MDE
advised the Council that if a permit were to be issued
to MRA such issuance would not authorize MRA to violate any local zoning or land-use requirements.
On May 14, 1991 the County Council passed Resolution 15-91 which purported to interpret Harford
County law and to find that the Gravel Hill Road site
was not in compliance with the County law. That resolution effectively removed the Gravel Hill Road site
from the SWM plan.
On May 2, 1991 the County sent a letter to MRA
stating it failed to meet the requirements of Bill 91-10
and that MRA would need to apply for a variance to
operate a rubble landfill on their property. Instead of
filing for a variance, MRA filed an appeal to the Harford County Board of Appeals from the Planning Director’s decision requesting that the Board review and
reverse the decision of the Planning Administrator
that the standards of Bill 91-10 applied to the applicant’s site.
On June 20, 1991 MRA filed a complaint in the
Harford County Circuit Court again seeking declaratory judgment and injunctive relief. In that complaint
they requested that Bills 91-10, 91-16 and 15-91 be
found null and void as they related to the MRA’s
Gravel Hill site and to enjoin the County from enforcing those resolutions and amendments.

App. 177
An interlocutory injunction was issued by the
court expressly allowing MDE to continue to process
MRA’s pending permit. On February 28, 1992 the MDE
issued to MRA a permit to operate a rubble landfill on
its property. MDE expressly stated, however, that the
permit was conditioned upon MRA’s compliance with
all local land use requirements.
Cross motions for summary judgment were filed
and on May 19, 1994 the Circuit Court held 91-10 and
91-16 were not invalid on the grounds asserted by
MRA. The court ruled, however, 15-91 was invalid on
its face. After the court’s ruling, MRA filed an appeal.
The issues MRA brought in MRA II were whether
MRA had a constitutionally protectable property interest in the Harford County SWM plan and had vested
rights in the permit process. The Court of Appeals at
MRA v. Harford County, 342 Md. 476, 677 A.2d 567
(1996) (hereinafter referred to as “MRA II”) held that
MRA had failed to exhaust its administrative remedies
because MRA had never applied for zoning or requested a variance or exception and therefore the issue
was not ripe.
Pursuant to the suggestions made by the Court of
Appeals, MRA filed an administrative appeal that requested an interpretation of the effect on the changes
to the zoning ordinance from the Director of Planning.
The questions asked by administrative appeal were as
follows: (1) did 91-10 apply to MRA’s property on
Gravel Hill; (2) did 91-10 properly apply to MRA property under the circumstances and in light of the Environmental Code; (3) would the operation of the landfill

App. 178
pursuant to its state permit be deemed to violate the
Harford County Code; and (4) may MRA get a grading
permit without having proper zoning. In December
1998, MRA made a second request for an interpretation of the zoning ordinance and applied for a zoning
certificate to operate the landfill. MRA presented five
questions as follows: (1) whether a permit would violate applicable Harford County zoning; (2) whether the
County was permitted by estoppel from applying provisions relating to zoning; (3) whether applying 91-10
was prohibited by the Maryland Declaration of Rights;
(4) whether Harford is preempted by State Environmental law and; (5) whether MRA’s operation of landfill was a valid non-conforming use pursuant to the
County’s Zoning Code.
On February 22, 1999, the Zoning Administrator
issued a letter stating that the 1991 amendments applied to MRA’s proposal and denied zoning approval
unless MRA obtained variances. Dissatisfied with
what they considered to be unfavorable rulings, MRA.
filed an administrative appeal to the Harford County
Board of Appeals. On April 2, 2002 the Zoning Hearing
Examiner issued an extensive written decision deciding 91-10 did not violate local, State or federal law.
On June 11, 2002 the County Council, sitting as
the Harford County Board of Appeals held MRA must
abide to existing zoning laws and that the County was
not prohibited from applying the new ordinances to the
property in question by principles of estoppel. The
Board also found that MRA did not acquire vested
rights and therefore no constitutional rights because a

App. 179
vested right was not established. They also held that
the action by the County was not preempted by State
environmental laws and that the nibble fill was not a
valid non-conforming use pursuant to the zoning code.
On October 22, 2003 MRA sought review of the
Board’s decision in the Circuit Court. The court affirmed the Board’s decision and the dispute again went
to the Court of Appeals, in MRA v. Harford County, 382
Md. 348, 855 A.2d 351 (2004) (hereinafter referred to
as “MRA III”). The Court of Appeals once again did not
address the issues, and found only that MRA had failed
to exhaust its administrative remedies because it had
not sought a variance from the Board of Appeals.
On May 12, 2005, MRA requested variances to the
requirements established by Bill 9110 and hearings
were held before the zoning hearing examiner for Harford County. MRA requested the following variances:
(1) a variance to the 30ft buffer; (2) a variance to the
200ft buffer; (3) a variance to allow solid waste disposal; (4) a variance to the historic district buffer; (5) a
variance to code requirement of no less than 100 acres
for a nibble landfill; and (6) a variance from the 1000ft
buffer.
Over a ten month span the Zoning Hearing Examiner presided over seventeen nights of hearings and
heard the testimony of eleven witnesses. Eight experts
were produced by MRA and six experts were presented
from the County. He also heard the testimony of sixteen residents from the community and St. James Parish. On February 28, 2007, the Hearing Examiner

App. 180
issued a report and recommendation that the variance
requests be denied.
It goes without saying that MRA was dissatisfied
with the Hearing Examiner’s decision and appealed to
the Board of Appeals. On June 5, 2007 the Board voted
seven to zero to adopt the Hearing Examiner’s findings
and decision, effectively denying the requested variances. This decision was appealed to the Circuit Court
for Harford County which affirmed the findings of the
Board of Appeals in an order dated July 7, 2008.
MRA again appealed to the Court of Special Appeals and certiorari was granted by the Court of Appeals on its own initiative. In Maryland Reclamation
Associates, Inc. v. Harford County, 414 Md. 1 (2010)
(hereinafter referred to as “MRA IV”) the Court held
that the hearing provided sufficient evidence on the
record to support the Board’s finding that the rubble
fill would have a detrimental effect on the public
health, safety and general welfare and would jeopardize the lives of people living in the area and result in
dangerous traffic conditions. The court cited the
nearby historic graveyard’s risk of dust and vibrations,
that the diesel fumes and air pollution might affect the
asthma in children, that the removal of the wooded
area would make soil temperatures rise and increase
erosion, and that traffic conditions would be affected.
After finding the Board’s denial of the variance as
reasonable, the court renewed and addressed the other
issues presented in MRA III. The Court held the
County’s enactment of Bill 91-10 was not preempted by

App. 181
the State because zoning is a sphere separate from
State regulation and that while the County could not
remove MRA from the SWM plan, Bill 91-10 involved
classic zoning considerations.
The Court of Appeals in MRA IV also addressed
constitutional issues that had been raised and found
that MRA did not have a vested right in its prior
County zoning approval to proceed with Phases II and
II of the MDE permitting process and that the application of 91-10 was not arbitrary and capricious because
there were sufficient reasons for the emergency legislation because of citizen concern.
The Court also did not grant relief under the doctrine of equitable estoppel, finding that MRA did not
substantially rely in good faith because as early as
February 1990, MRA should have known of the real
possibility that its plans would not come to fruition
and that the SWM plan was attained by a fragile majority. They found that the fact that MRA was included
in the SWM plan was not a sufficient step in establishing reliance because, in good faith, the process required
further zoning approval. The court also found no substantial change in position or that MRA had incurred
extensive hardship and expense that it would be inequitable and unjust because while MRA asserted that it
spent over one million in reliance on the County’s approval, MRA did not specify any specific figures or
sums.

App. 182
The Court also found that MRA failed to prove
that it had a property interest protected as a nonconforming use because of the failure to show that
substantially all of the property was being used in permissible means before a zoning change was enacted.
With no more administrative remedies available
to them this case was filed by MRA who now seeks
compensation for the actions of the County relating to
the use of its property.
PROCEDURAL BACKGROUND
This case was filed on February 19, 2013. The
Plaintiff ’s complaint had one count, which alleges that
the Defendant has violated Article III, Section 40 of the
Maryland Constitution, Article 19 and 24 of the Maryland Declaration of Rights and Article 24 of the Maryland Declaration of Rights. The complaint is based on
the Plaintiff ’s contention that the actions by the
County have had the effect of depriving MRA of the
beneficial use of their property and that the Plaintiff
therefore has a claim for inverse condemnation.
On April 12, 2013, the Defendant filed a Motion to
Dismiss arguing that the Plaintiff failed to file their
complaint within the statute of limitations and that
they had failed to state a claim of inverse condemnation or eminent domain. The Plaintiff submitted its opposition to that motion. On March 31, 2014 the court
denied the Defendant’s request to dismiss.

App. 183
On April 9, 2014, the Defendant submitted a motion to bifurcate and on April 21, 2014 the Plaintiff
submitted its opposition to that motion.
On April 15, 2015 the Plaintiff filed an amended
complaint for inverse condemnation and a demand for
jury trial and the Defendant filed an answer. On October 15, 2015, the Defendant filed a motion for summary
judgment, of alternatively motion for partial summary
judgment. The Plaintiff filed a response.
A motion for protective order and to establish ultimate facts by collateral estoppel was filed on behalf
of the Defendant on May 24, 2016. An opposition was
filed on the Plaintiffs behalf on June 8, 2016 and the
Plaintiff ’s reply to the motion was filed on June 15,
2016. On July 8, 2016 the Defendant filed a sur-reply
to which the Plaintiffs opposition was filed on July 25,
2016.
Numerous motions with regard to discovery were
filed thereafter. The Defendant filed a motion to
shorten time for MRA’s response to the County’s motion for additional time to take deposition and motion
to compel discovery. The Plaintiff filed its opposition on
August 19, 2016 where after the Defendant’s sur-reply
was filed on October 18, 2016.
This court ordered on August 11, 2016, that MRA
shall have to the 19th day of August to response to the
County’s motion to compel.
On October 17, 2016 the County filed a motion for
the return of a privileged document, alleging that

App. 184
during a deposition, a privileged document was inadvertently disclosed. The Defendant filed its opposition
November 2, 2016. On October 18, 2016, the Plaintiff
filed a motion to compel designation and deposition of
Defendant’s corporate designee.
On October 19, 2016 counsel for the parties had a
discussion in chambers. The Plaintiff agreed to appoint
a corporate designee to be deposed. A bevy of discovery
motions were filed, however, relating to changes after
the October 31, 2016 discovery deadline regarding the
County’s supplements to its answers to interrogatories
relating to the scope of the subject matter of certain
fact witnesses who were named after the discovery
deadline classified as expert witnesses.
The Plaintiff motion to strike the County’s untimely disclosure of expert opinions or supplemental
opinions and to preclude the expert testimony of Joseph Stevens, Daniel Pazdersky or Mark Gutberlet, or
motion to compel expert discovery and for modification
of the scheduling order as to the deadline for the MRA’s
expert rebuttal witness was filed on October 19, 2016
and on November 4, 2016, the Plaintiff filed its opposition.
On October 31, 2016, the County amended its interrogatories after the proposed end of discovery and
on November 9, 2016 the Plaintiff filed a motion to
strike the third supplemental answers to MRA’s first
set of interrogatories and preclude the testimony of
persons and subject matter referenced therein. The
Plaintiff filed a motion to strike Daniel Pazdersky’s

App. 185
11-04-2016 supplemental report and preclude testimony to that subject matter because it was provided
after the deadline. The Defendant filed its opposition
on November 23, 2016.
During this time, both parties filed letters with the
court alleging the problems that have been encountered with the discovery. The parties were brought in
for a conference on November 22, 2016 to discuss the
discovery difficulties. The parties agreed to have Daniel Pazdersky, among others, be deposed as corporate
designees.
The motions for return of a privileged document,
to strike untimely disclosure and to preclude expert
testimony, and a motion for protective order to preclude discovery on ultimate facts established by collateral estoppel remain outstanding.
The Defendant’s motion for renewed summary
judgment was filed November 14, 2016. On December
2, 2016, the Plaintiff ’s filed MRA’s opposition to that
motion. It is this motion that is now before the court.
STANDARD OF REVIEW
Maryland Rule 2-501 states in pertinent part:
The court shall enter a judgment in favor of or
against the moving party if the motion and response show that there is no genuine dispute
as to any material fact and that the party in
whose favor judgment is entered is entitled to
judgment as a matter of law.

App. 186
The purpose of the summary judgment procedure
is not to try the case or to decide the factual disputes,
but to decide whether there is an issue of fact, which is
sufficiently material to be tried. Sadler v. Dimensions
Healthcare Corp., 378 Md. 509, 534, 836 A.2d 655, 66970 (2003) (citing Taylor v. NationsBank, 365 Md. 166,
173, 776 A.2d 645, 650 (2001) (quoting Jones v. MidAtlantic Funding, 362 Md. 661, 675, 766 A.2d 617, 624
(2001))). When a court is making its decision under
Rule 2-501, it engages in a two-part legal analysis. See
Hendrix v. Burns, 205 Md. App. 1, 18, 43 A.3d 415, 42526 (2012), reconsideration denied (June 7, 2012);
Jurgensen v. New Phoenix Atl. Condo. Council of Unit
Owners, 380 Md. 106, 113-14, 843 A.2d 865 (2004).
First, the court determines whether there is any genuine dispute of material fact. Hendrix, 205 Md. App. at
18, 43 A.3d at 425-26; Appiah v. Hall, 416 Md. 533, 546,
7 A.3d 536 (2010). A material fact is one, the decision
about which, will affect the outcome of the claim. Debbas v. Nelson, 389 Md. 364, 373, 885 A.2d 802 (2005)
(quoting Todd v. Mass Transit Admin., 373 Md. 149,
155, 816 A.2d 930 (2003)). A factual dispute relating to
grounds upon which the decision is not rested is not a
dispute with respect to a material fact and such dispute does not prevent the entry of summary judgment.
O’Connor v. Baltimore County, 382 Md. 102, 110, 854
A.2d 1191, 1196 (2004) (quoting Lippert v. Jung, 366
Md. 221, 227, 783 A.2d 206, 209 (2001)). In other words,
a material fact is a fact “necessary to resolve the controversy as a matter of law[.]” D’Aoust v. Diamond, 424
Md. 549, 575, 36 A.3d 941, 955-56 (2012) (quoting Lynx,
Inc. v. Ordnance Products, Inc., 273 Md. 1, 8, 327 A.2d

App. 187
502, 509 (1974)). The court is to make no findings of
fact in granting or denying a motion for summary judgment. Hill v. Cross Country Settlements, LLC, 402 Md.
281, 294, 936 A.2d 343, 351 (2007). Additionally, the
trial court will not determine any disputed facts, but
rather will make a ruling simply as a matter of law.
O’Connor, 382 Md. at 111, 854 A.2d at 1196. If there is
a genuine dispute as to any material fact, summary
judgment is improper. Cross Country Settlements,
LLC, 402 Md. at 294, 936 A.2d at 351.
If, however, there is no genuine dispute of material
fact, the court next moves to consider whether, on the
undisputed material facts, the moving party is entitled
to judgment on the claim as a matter of law. See 120 W.
Fayette St., LLLP v. Mayor and City Council of Balt.
City, 413 Md. 309, 328-29, 992 A.2d 459 (2010); Hill v.
Knapp, 396 Md. 700, 711, 914 A.2d 1193 (2007); O’Connor, 382 Md. at 110-11, 854 A.2d 1191. If the answer to
that question is yes, summary judgment should be
granted. See Piscatelli v. Smith, 424 Md. 294, 35 A.3d
1140 (2012); 120 W. Fayette St., 413 Md. at 329, 992
A.2d at 471; Maryland State Bd. of Elections v. Libertarian Party of Maryland, 426 Md. 488, 505, 44 A.3d
1002, 1012 (2012).
The court views the facts, including all inferences,
in the light most favorable to the party against whom
summary judgment is sought. Sadler, 378 Md. at 536,
836 A.2d at 671. If the undisputed facts are susceptible
to more than one inference, the party against whom
inferences are to be drawn is entitled to the inferences
most favorable to his contentions. Cross Country

App. 188
Settlements, 402 Md. at 294, 936 A.2d at 351 (quoting
Roland v. Lloyd E. Mitchell, Inc., 221 Md. 11, 14, 155
A.2d 691, 693 (1959) (citing White v. Friel, 210 Md. 274,
285, 123 A.2d 303, 308 (1956))). If the facts are subject
to more than one inference, those inferences should be
submitted to the trier of fact. Id.; Porter v. Gen. Boiler
Casing Co., 284 Md. 402, 413, 396 A.2d 1090, 1096
(1979); Fenwick Motor Co. v. Fenwick, 258 Md. 134,
138, 265 A.2d 256, 258 (1970). Additionally, a moving
party may not rely on unsupported conclusory statements to justify the grant of summary judgment. Cross
Country Settlements, 402 Md. at 308, 936 A.2d at 359.
Further, the failure to contradict facts recited in affidavits constitutes an admission of those facts for purposes of summary judgment. Mathis v. Hargrove, 166
Md. App. 286, 306, 888 A.2d 377, 389 (2005).
DISCUSSION
The issues to be determined are in order as discussed: (1) is the Plaintiff ’s case barred by the statute
of limitations; (2) the Plaintiff ’s claim of inverse condemnation; (3) and the issue of appropriate damages.
I.

STATUTE OF LIMITATIONS

A taking claim is ripe “once . . . the permissible
uses of the property are known [by the court] to a reasonable degree of certainty.” Palazzolo v. Rhode Island,
533 U.S. 606, 620, 121 S.Ct. 2448, 150 L.Ed.2d 592
(2001). To be ripe, a taking claim based on a permit denial must spring from a final decision. Williamson

App. 189
County Reg’l Planning Comm’n v. Hamilton Bank, 473
U.S. 172, 186, 105 S.Ct. 3108, 87 L.Ed.2d 126 (1985).
Alternatively, a claimant can show its claim was ripe
with sufficient evidence of the futility of further pursuit of a permit through the administrative process.
MacDonald, Sommer & Frates v. County of Yolo, 477
U.S. 340, 350 n. 7, 106 S.Ct. 2561, 91 L.Ed.2d 285
(1986). Cooley v. United States, 324 F.3d 1297, 1301-02
(Fed. Cir. 2003)
A final decision denying land use on the merits
provides information that a regulation has deprived a
landowner of all economically beneficial use of the
property, or defeated the reasonable investmentbacked expectations of the landowner to the extent
that a taking has occurred. Palazzolo, 533 U.S. at 618,
121 S.Ct. 2448; Cooley v. United States, 324 F.3d 1297,
1302 (Fed. Cir. 2003); MacDonald, Sommer & Frates,
477 U.S. at 351, 106 S.Ct. 2561 (stating that the court
must know the “nature and extent of permitted development” on the land in question to determine whether
a taking claim is ripe for review). A denial is final when
the applicant has no appeal mechanism available and
the denial is based on an unchanging fact. Bayou des
Families Dev. Corp. v. United States, 130 F.3d 1034,
1040 (Fed.Cir.1997).
In Palazzolo v. Rhode Island, supra, the court
found that a landowner must give land use authority
the opportunity to exercise its discretion, and once it
becomes clear that the agency lacks the discretion to
permit any development, or the permissible uses of the
property are known to a reasonable degree of certainty,

App. 190
a takings claim is likely to have ripened. The court
found that “a landowner may not establish a taking before a land-use authority has the opportunity, using its
own reasonable procedures, to decide and explain the
reach of the challenged taking.” Id.
The Court further held that where the land use
dispute was ongoing for more than thirty years the Supreme Court held they would not place an expiration
on a takings clause claim where the property was
transferred with notice of the regulatory restrictions,
stating the State may not evade the duty to pay compensation on that premise where a taking had occurred. Palazzolo, supra.
The Plaintiff cites Litz v. MDE, 434 Md. 623
(2013), which held that violations that are continuing
in nature are not barred by the statute of limitations.
In Litz the court held that, despite the property owners
becoming informed that the pollution rendering the
property valueless occurred in 1996, the statute of limitations did not begin to run until the property was
foreclosed on in 2010. The Plaintiff argues that this is
analogous to Litz, because that the final decision of
MRA IV where they are contending the County rendered the property valueless was when the taking was
final and when limitations began to run
Irrespective of whether inverse condemnation is a
continuing cause of action, this claim satisfies the
three year statute of limitations because this court
finds that the final decision issued by the Court of Appeals in MRA IV on March 11, 2010 was the final

App. 191
decision which foreclosed on any possibility of using
the property in question for rubble fill. The Plaintiff
filed this case on February 19, 2013 making the date of
filing within the statute of limitations.
II.

INVERSE CONDEMNATION

The Plaintiff brings this inverse condemnation
claim contending that the Defendant effectively “took”
the Gravel Hill property without just compensation in
violation of its rights under Section 40 of Article III of
the Maryland Constitution and Articles 19 and 24 of
the Maryland Declaration of Rights.
The United States Supreme Court recognized in
Pennsylvania Coal Co. v. Mahon, 260 U.S. 393, 43 S.Ct.
158, 67 L.Ed. 322 (1922), that government regulation
of private property may be so onerous that it has the
effect and is tantamount to a direct appropriation and
if that regulation goes too far it will be recognized as a
taking. Regulatory actions will be deemed a per se taking for purposes of the Fifth Amendment where; (1)
government requires an owner to suffer a permanent
physical invasion or (2) the regulations completely deprive an owner of all economically beneficial use of his
property. Lucas v. South Carolina Council, 505 U.S.
1003 (1992). Where the taking is not a per se complete
deprivation of all beneficial use, a Penn Central Transportation Co. v. New York City, 438 U.S. 104 (1978)
analysis is necessary to weigh factors to determine

App. 192
whether the regulatory action is so significant to
amount to a taking.
It is undisputed that the taking in this case was
not a physical but a regulatory taking. The issue turns
on the extent that the regulations had on the Plaintiff ’s property interest and whether there has been a
complete taking under Lucas v. South Carolina Council, 505 U.S. 1003 (1992) or under Penn Central Transportation Co. v. New York City, 438 U.S. 104 (1978)
where the regulatory taking is not complete but is substantial and that the character of the government conduct warrants compensation.
The Defendant argues that the Plaintiff is precluded from a takings analysis because it was established the Plaintiff did not have a vested right to use
the property as a rubble fill because the Gravel Hill
property could not comply with the 200 feet buffer requirement prior to the enactment of Bill 91-10. Despite
case law to the contrary, the Defendant contends that
the takings clause was not intended to compensate
property owners for property rights they never had.
The cases the Defendant cites in support of that point,
however, still permit a takings analysis before making
the determination of whether a taking had occurred.
The Defendant cites a number of cases including,
Guggenheim v. City of Goleta, 638 F.3d 1111 (2010)
which held that a rent control ordinance in effect long
before the plaintiffs purchased the property was not a
taking after making a takings analysis and finding the
claim failed under the investment backed expectations

App. 193
of a Penn analysis. Laurel Park Community LLC. V.
City of Tumwater, 698 F.3d 1180 (2012) which held
that land zoning that did not change the present state
of the property, only the future price and use, failed due
to an insufficient economic impact and reasonable investment backed expectations under factor one and
two of the Penn analysis. Another case cited is Gove v.
Zoning Board of Appeals of Chatham, 444 Mass. 754
(2005) held that inherited land that was found to be
unfit for residential development before the land was
inherited and sought to be sold lacked investment
backed expectations under the Penn analysis.
The Defendant next asserts that the equal application of a zoning regulation assures that, in its uniform applicability, a taking can never occur and the
character of the government action will always favor
the government. No case law is cited by the Defendant
exempting local zoning regulations from a takings
analysis. While the third factor weighs in determining
whether in fact a taking had occurred, it does not preclude a takings analysis, which is what it seems the
Defendant is requesting this court do. The cases the
Defendant cites actually support and do not totally
preclude a takings analysis.
The Defendant also argues that because there was
no vested right to the land use, as determined in MRA
IV. there can be no taking.
Vested rights have no place in a takings analysis.
Lingle v. Chevron U.S.A. Inc., 544 U.S. 528, 125 S. Ct.
2074, 161 L. Ed. 2d 876 (2005). Even where there is no

App. 194
vested right to the property, the courts are not prohibiting in making a takings analysis. In Ruckelshaus v.
Monsanto Co., 467 U.S. 986, 104 S.Ct. 2862 (1984) the
court held that property rights are protected and that
property interests arise from an independent sources
such as state and common law. In Palazzolo v. Rhode
Island supra, the court held that the basis of a takings
challenge is that the very enactment of the statute reduced the value of the property has effected a transfer
of the property interest.
A vested right to the zoning is irrelevant to a taking or eminent domain proceeding where the party
owns the property as issue and that property can no
longer be used for reasonable purposes. It is undisputed that the Plaintiff owns the property on Gravel
Hill Road and therefore a takings analysis may proceed.
A. Per se regulatory takings under Lucas
v. South Carolina Council
In Lucas v. South Carolina Council, 505 U.S. 1003
(1992) the Supreme Court concluded that a land use
regulation that denies a plaintiff all economically beneficial use of his property may constitutes a taking except to the extent that background principles of
nuisance and property law independently restrict the
owner’s intended use of the property. Gove v. Zoning
Board of Appeals of Chatham, 444 Mass. 754, 762-3,
831 N.E.2d 865, 872 (2005).

App. 195
In Lucas, plaintiff bought two residential lots on a
barrier island intending to build single family homes.
At the time of the purchase the parcels were not subject to the State’s coastal zoning building permit requirements. Shortly thereafter, however, the State
legislature enacted the Beachfront Management Act,
barring Plaintiff from erecting any permanent habitable structure on his parcels. The plaintiff paid
$975,000 for two residential lots at a time when he was
not legally obliged to obtain a permit in advance of development. The issue was whether the State deprived
him of all economically valuable use of his property
and therefore had effectuated a taking under the Fifth
and Fourteenth Amendments. The Court in Lucas
found that the State’s exercise of its powers where they
take all economically beneficial use of property, cannot
be upheld without just compensation.
The Plaintiff argues that it is entitled to compensation under Lucas because the Defendant deprived it
of all economically beneficial or productive use of the
property. The Plaintiff further contends that even
where it is unclear whether they were deprived of all
viable use of the property, it is for a jury to decide
whether there was a deprivation of all economically
beneficial use.
The Plaintiff has proferred the testimony of Robert S. Lynch, who testified before the Zoning Hearing
Examiner that in his opinion the property does not
have any economically beneficial value for any use
other than a rubble landfill because the extensive excavation on the property created a “moonscape” with

App. 196
extreme changes in elevation which would not make it
economically viable for MRA to undertake any other
permitted use.
To be deprived of all beneficial use means that restrictions imposed must be such that the property cannot be used for any reasonable purpose. The property
must be rendered valueless by the zoning action, leaving the property without beneficial uses. Governor of
Maryland v. Exxon Corp., 279 Md. 410, 372 A.2d 237
(1977); Andrus v. Allard, 444 U.S. 51, 100 S.Ct. 318
(1979). A plaintiff must demonstrate that the challenged regulation leaves the property economically
idle and that he retains no more than a token interest.
Lucas 121 S. Ct. at 2446. There must be a permanent
deprivation of all use as a whole not a mere temporary
restriction that causes a diminution in value until the
restriction is lifted. Tahoe-Sierra Pres. Council, Inc. v.
Tahoe Reg’l Planning Agency, 535 U.S. 302, 122 S. Ct.
1465, 152 L. Ed. 2d 517 (2002).
The Plaintiff argues that the holding in Lucas creates at a minimum a dispute of material fact as to
whether there was a complete and total taking of the
property by Bill 91-10.
It is undisputed the zoning ordinance at issue only
relates to nibble landfills and that the property is still
in an agricultural district to which there are (30) categories of permitted uses for such zoning. It is also apparently undisputed that the Plaintiff could deposit
broken concrete and tree stumps from land clearing

App. 197
activities on the 24.28 acres subject to an Industrial
Waste Management Permit.
The issue is whether this is only a token interest.
In the case of Gove v. Zoning Board of Appeals of Chatham, 444 Mass. 745, 631 N.E. 2d 865 (2005), the court
held that the zoning on the property that prevents residential land use was not an absolute taking under Lucas because the plaintiff must demonstrate that the
challenged regulations leaves the property economically idle. Because the property was still worth $23,000
it had a value that in itself was more than a token interest. In Gove the court also found that the property
still allowed non-residential uses and uses by special
permit which, by the plaintiff ’s admission, could have
an income producing potential. Id. 444 Mass at 762.
In the case Palazzolo v. Rhode Island, 533 U.S. 606,
121 S.Ct. 2448 (2001) the Court denied a Lucas analysis because there was some value retained in the land.
The court, however, remanded the case back to the
lower court because the extent of the remaining value
had not been determined and that the amount of development value remaining in the land was equally undetermined. The court held that while that finding did
not preclude a takings argument under the Penn Central analysis, it did preclude a Lucas analysis.
It is undisputed the Gravel Hill property retains a
resale value. It is also undisputed that there are other
uses for the property.
For the reasons set forth above, this court does not
find that Bill 91-10 destroyed all economic value of the

App. 198
Plaintiff ’s property and therefore cannot constitute
taking under the Lucas standard.
The Plaintiff will be barred from making an argument that it was deprived a per se taking under the
Lucas standard. No jury instruction at trial will be permitted under such analysis.
B. Whether there was a regulatory taking
under the Penn Central analysis
Regulatory taking challenges are governed by the
standards set forth in Penn Central Transportation Co.
v. New York City, 438 U.S. 104 (1978) The factors to be
weighed are as follows: (1) the economic impact of the
regulation on the claimant and; (2) the extent to which
the regulation has interfered with distinct investmentbacked expectations; (3) weighed with the character of
the government action.
The factors aim to identify regulatory actions that
are functionally equivalent to the classic taking in
which government directly appropriates private property or ousts the owner from his domain. Whether a
taking has occurred depends on the particular circumstances of the case, and it is essentially an ad hoc factual inquiry to be made by the court. United States v.
Central Eureka Mining Co. 357 U.S. 155. Neifert v. Department of Environment, 395 Md. 486, 517-8 910 A.2d
1100, 1119 (2006); Ruckelshaus v. Monsanto Co., 467
U.S. 986, 104 S.Ct. 2862 (1984); Tahoe-Sierra Preservation Council, Inc. v. Tahoe Regional, 525 U.S. 302, 122

App. 199
S.Ct. 1465 (2002); Laurel Park Community LLC. V.
City of Tumwater, 698 F.3d 1180 (2012).
The Penn Central framework eschews any set formula or mathematically precise variables for evaluating whether a regulatory taking has occurred,
emphasizing important guideposts and careful examination for all the relevant considerations to determine
whether there exists a compensable taking. Gove, 831
N.E. 2d at 872-3.
This court will deny the Defendant’s motion for
summary judgment for reasons set forth below. This
court finds that as a matter of law there is a legally
sufficient dispute as to whether there was a taking to
permit a finder of fact deliberate this issue under Penn
Central.
1. Economic impact to the landowner that
constitutes a taking
The Defendant argues that no taking can be established under Penn Central analysis because there was
no adverse economic impact on the property. They contend that the situation present here is analogous to Regan v. County of St. Louis, 211 S.W.3d 104, which held
that there is no economic impact where there is merely
a diminution in the value of property. That case involved a change in zoning after a landowner purchased
property and whether the owner was prevented from
his intended use where he bought the property for the
purpose of building office spaces in-between residential communities. Due to complaints by homeowners,

App. 200
the local councilmen introduced legislation to change
the zoning from industrial to residential. That change
no longer allowed Regan to develop office space on the
property. The Court found no economic impact because
diminution in property alone does not constitute a taking.
The Plaintiff, however, argues that the rubble
landfill was the only economically viable use for the
property in this case and that Regan is distinguishable
because that regulation did not have a severe impact
because it merely prevented landowner from developing the most beneficial use.
The Plaintiff in this case asserts there is no alternative economically viable use of the property other
than as a rubble landfill because development of the
property would require reclamation before it would be
utilized for any alternative use and that expense would
defeat the purpose. Additionally they assert that the
mineral rights are depleted so mining the property is
not possible.
The Defendant contends that Bill 91-10 did not
have a drastic or significant economic impact on property because it did not prohibit other, existing uses of
the property. They contend that there were other categories of landfill that the Plaintiff could have applied
for because Bill 91-10 zoning regulations only related
to the rubble fills.
The economic impact of a regulation must be significant because compensation is required only in
cases where the value of the property was reduced

App. 201
drastically. Rogin v. Bensalem Township., 616 F.2d 680,
682 (3d Cir. 1980). Additionally the court held that the
change in land use from multi-purpose to only manufactured homes constituted a small decrease in value
and that a mere diminution in property value cannot
establish a taking. Laurel Park Community LLC v.
City of Tumwater, 698 F.3d 1180 (2012). In the case
Palazzolo v. Rhode Island, 533 U.S. 606, 121 S.Ct. 2448
(2001) there was uncertainty to the lands permitted
use. Although it was undisputed that the parcel retained development value, the issue revolved around
whether or not that value was sufficiently drastic. In
Palazzolo the amount of $200,000 in development
value remained, and the court found that the remaining value did not preclude a takings argument.
The Defendant also argues that the Plaintiff only
attempted to build the largest landfill possible, seeking
the most profitable use of the property. There is no economic impact where the regulations impact only potential profitability. The Penn Central case involved a
designation of a building as a landmark under the
Landmarks law which was owned by Penn Central
Transportation. Penn Central entered into a lease to
construct a 50 story office building over the terminal
but the Landmark Commission rejected that plan as
destructive to the historic and aesthetic feature of the
property. The Court rejected a takings complaint because it found that the property in its present state
was able to offer a reasonable return, and that while
the property would be more valuable with the 50

App. 202
storied office building in the superjacent airspace,
there remained value in the historic landmark.
The court held that profitability is a speculation
and is less compelling than other property interests.
The court held that the denial of one traditional property right does not always amount to a taking where
an owner possesses a full bundle of property rights,
and the destruction of one strand of the bundle is not
a taking. Penn Central, supra.
While the profitability of the property is not factored in finding whether there was an economic impact, the issue of whether there is another use for the
property and whether the County foreclosed on a beneficial use of the property remains in dispute.
The amount of remaining value in the land is
clearly disputed and therefore this court must look to
the next Penn Central factor.
2. The extent to which the regulations interfered with the investment backed
expectations
There was clearly an expectation on the Plaintiff ’s
part to operate a rubble landfill, but that claim hinges
on whether or not that expectation was reasonable.
The Defendant argues the investment cannot be reasonable because the Plaintiff never secured land zoning approval or a final MDE permit and that the
amendment to include the Plaintiff ’s property in the
SWM plan at the October 11, 2989 meeting did not

App. 203
include any approval of site plans nor did it address
the final resolution all of the necessary zoning issues.
The Defendant’s argument under this factor is
simple. They contend that that no taking can be established under a Penn Central analysis because no reasonable investment backed expectation that the
property could be developed as a rubble land fill existed since the Plaintiff knew it needed both a State
permit and County zoning approval before operating a
rubble landfill they also knew the local community was
opposed to the rubble landfall at that property. They
therefore argue that the Plaintiff could not have a reasonable investment backed expectation at the time the
that they finalized the purchase of the property.
The Defendant cites Laurel Park Community, LLC
v. City of Tumwater, 698 F.3d 1180 (2012) where the
court held that despite the zoning laws previously allowing multi-development, there was no reasonable expectation that multiuse zoning would continue
indefinitely. A simple showing that the plaintiff was denied the ability to exploit a property interest that they
had believed was viable for development is untenable.
The court held that because Laurel Park was using the
land for manufactured home parks, the expectation for
multipurpose use was speculative because the zoning
did not affect that property’s “primary expectation.”
Laurel Park, 698 F.3d 1180, 1190. The situation in the
present case is unlike Laurel Park Community, LLC v.
City of Tumwater, however, the expectation of the
Plaintiff to operate a rubble landfill was not nearly as
speculative.

App. 204
The County argues the rubble landfill was a speculative possibility or an expectation similar to that
found in the case of Guggenheim v. City of Goleta, 638
F.3d 1111 (2010). In Guggenheim the plaintiffs had already invested in the rent control mobile park and that
to find that a rent control ordinance is a compensable
taking would give the plaintiffs a windfall. The court
in Guggenheim v. City of Goleta, found there can be no
expectation for what one anticipates or looks forward
to do but cannot do. The court in Guggenheim defined
a “distinct investment backed expectation” as there being a reasonable probability rather than a “starry eyed
hope of winning the jackpot if the law changes. Id. 638
F.3d 1180, 1120-1. Similar to Guggenheim, the Plaintiff in this case bought the property for a lesser sum
because of limited uses and compensation under the
takings clause will give the Plaintiff a windfall.
The inclusion of the Gravel Hill property into the
SWM plan produced at least some limited expectation
on the part of the Plaintiff but the fact remains that
the Plaintiff had secured neither final zoning approval
nor all of the necessary permits from MDE prior to finalizing the purchase of the property. The Defendant
asserts that the Plaintiffs purchase of the Gravel Hill
property was therefore a business gamble that the
Plaintiff chose to take. There was a risk that final approval would not be obtained and the developer assumed those risks. They further argue that the
operation of a rubble landfill was a “starry eyed hope,”
because the Plaintiff did not and could not secure all of
the necessary approvals prior to Bill 91-10 and that

App. 205
even without Bill 9110 the Plaintiff would have been
required to provide a 200 foot buffer for the operation
of the rubble landfill.
The Plaintiff refutes that characterization, providing evidence that it purchased the land with intent to
develop the landfill in reasonable reliance on the representation and decision of County Director of Planning and because the property was included in the
County’s SWM plan.
It is undisputed that the inclusion of the Gravel
Hill property in the SMW plan was secured before the
purchase with the expectation of operating a rubble
landfill. It is also undisputed that the Plaintiff purchased the property for the sum of $732,500, a purchase price below the appraised value of the property.
The Defendant argues that Gove v. Zoning Board
of Appeals of Chatham, 444 Mass. 754, 831 N.E. 2d 865,
supports their contention that there can be no reasonable investment found because the Plaintiff was never
entitled to use the property in any particular way. In
the Gove case the court found there was no reasonable
expectation to develop the land residentially and that
the takings clause was never intended to compensate
property for property rights they never had. Id. at 765.
The court went on to say, however, that where there is
a bona fide purchaser for value who invested in land fit
for development, only to see a novel regulation destroy
the value of the interest, there may be a reasonable expectation. Gove v. Zoning Board of Appeals of Chatham, supra.

App. 206
The Plaintiff contends there was a reasonable expectation to operate a landfill without the buffer requirement without first securing final zoning approval
because the rubble landfill was included in the SWM
plan, complete with (27) conditions addressing the
community and zoning concerns. They also assert that
the County Council was going to allow them to fill up
to the line of the property without a buffer because
there were preexisting holes which were already established.
The Plaintiff also argues that they had a reasonable investment backed expectation as evidenced by
their investment in the property. The Plaintiff ’s made
an effort to secure Phase I permitting from MDE, citing their engagement with an engineer firm to investigate zoning requirements, engaging with geo-technical
associates to perform engineering work and engaging
in an accounting firm to run projections on expected
expenses and revenue for the rubble landfill operations.
The Plaintiff also argues that because the Defendant was aware of the investment backed expectations
to build and operate the landfill, they assert that its
investment was reasonable, citing testimony by the
County Director of Planning acknowledging that the
County was aware MRA expected to use the property
as a rubble landfill.
The Plaintiff contends that it was the policy of the
County to provide zoning approval early on in the
MDE permit process to prevent the landowners from

App. 207
expending resources only to have their zoning denied,
which is exactly what happened here. The Plaintiff
provides further evidence that the Phase I permit to
MDE included a letter that confirmed MRA was included in the land use plan and that MRA secured a
grading permit which was approved by the Department of Planning and Zoning.
The Defendant, however, continues to assert there
was unreasonable reliance that final zoning approval
would be granted because the Plaintiff was not in conformance with the existing zoning regulations related
to rubble landfills because the property did not conform to the 200 foot buffer regulation. The (27) conditions addressed the 200 feet buffer requirement, and
allowed a “landscape” buffer. These conditions were for
the purpose of including MRA in the SWM plan despite
the fact that the property had been mined up to the
border of the property.
The issue is whether under the law, the (27) conditions that includes allowing a landscape buffer, the policy of the county for pro-private rubble landfills and
early zoning approval policy of the County combined
with the Gravel Hill site being included in the SWM
plan and approval of a grading permit, created an investment backed expectation, that is sufficiently reasonable.
The Defendant presents another issue of whether
in light of the public disfavor and in light of not having
secured a zoning permit at the time they purchased
the property that the investment was not made with

App. 208
reasonable backed expectations. It remained clear that
the MDE permit was contingent on zoning approval
and the Plaintiff knew the community was opposed to
the rubble landfill at the Gravel Hill site. This raises
the question of whether it was unreasonable for the
Plaintiff to expect that zoning would be granted. This
necessitates further discussion.
Investment backed expectations are found to be
reasonable where it is taken into account the power of
a government to regulate in the public interest.
Ruckelhaus v. Monsanto Co., 467 U.S. 986, 1005 (1984);
Pace Resources Inc v. Shrewsbury Township, 808 F.2d
1023. The Defendant again cites Regan v. County of St.
Louis, 211 S.W.3d 104 to support its contention that
the Plaintiff ’s expectations were not reasonable. In
that case the Court found that the commercial zoning
was inconsistent with the development because of the
residential nature of the surrounding neighborhood
when paired with County’s right to promote the general welfare, the court found that the landowner’s expenditures were not reasonable. In the present case,
however, the land was technically suitable for a rubble
landfill.
The Court must evaluate the government’s right
to modify zoning to benefit the public because the government is permitted to introduce legislation for
health, safety, morals or general welfare to promote the
general welfare. Regan, supra. For an investment to be
reasonable one must also take into account the right of
the government to modify zoning ordinances and it can
be unreasonable for a landowner to presume that the

App. 209
zoning on his property will remain indefinitely. A public interest is typically one where both parties benefit
from the government action. In Ruckelhaus v. Monsanto Co it was the public’s right to be informed of
chemical use of products and in City of St. Louis v. Union Quarry & Construction Co it was the mutual benefit of keeping Lake Tahoe’s water pristine and clear.
In the Penn Central case the court found the Landmarks law and the aesthetic feature of the property for
the general public. The restrictions in each case were
related to the general welfare and the law still allowed
for reasonable beneficial use of the land or property.
Reasonableness requires a consideration of the
regulations in place at the time the landowner acquires their property, the nature and extent of the existing and surrounding development compared to the
proposed development sought by landowner, taking
into account the governments right to modify by regulation for the benefit of the public and may change zoning when the health, safety, morals or general welfare
would be promoted. Penn Central Transportation Co.
v. New York City, supra; Palazzolo v. Rhode Island, 533
U.S. 606, 121 S. Ct. 2448, 150 L. Ed. 2d 592 (2001).
As set forth above, while the land in question was
included in the SWM plan, the Plaintiff did not have
final zoning approval at the time it actually finalized
the purchase and because of the communities’ opposition it could reasonably be concluded it may not have
been a reasonable investment because the zoning was
not guaranteed.

App. 210
At the time of purchase the Plaintiff knew the
Gravel Hill property was surrounded by residential
properties and three months prior to purchase knew
that the neighbors opposed the operation of a rubble
landfill with vigor. The Defendant further contends
that the Plaintiff knew that none of the council members supporting the bill to amend the SWM plan returned to office. Nevertheless the Gravel Hill property
was added to the County’s SWM plan and the Plaintiff
accepted (27) conditions to address the community’s
concern.
The Defendant relies on the Court of Appeals finding in MRA IV. which held that the Plaintiffs did not
have a reasonable reliance. MRA IV at 51-63 held that
under the theory of zoning estoppel, where the developer has good reason to believe before or while that the
zoning would change, a finding of estoppel may not be
justified. The Court found that facts were available to
MRA at the time of the February 1990 purchase should
have alerted MRA to the possibility that its plans for a
rubble fill would not be successful.
MRA IV further found that the Plaintiff did not
rely in good faith because in February 1990, MRA
should have known of the real possibility its SWM
plans would not come to fruition. The modification of
the SWM plan was attained by a “fragile majority” and
just because the property in question was included in
that plan was not a sufficient step in the reliance because the process further required zoning. MRA IV additionally found that the Plaintiff should have used its
due diligence to figure it out the chances of operating

App. 211
in that locale. The Court balanced the good faith reliance with the hardship.
The standard for zoning estoppel is a cause of action in equity, which requires an extremely high standard to be granted relief. The court believes under the
facts of this case there are insufficient facts to assert a
claim for zoning estoppel, however, there are sufficient
facts for a finder of fact to there existed a reasonable
expectation for its investment in the property to operate as a rubble landfill.
3. The character of the government regulation
The third factor of the Penn Central test requires
the court to examine the reasonableness of the government action and the impact of the regulation on the
property owner. The purpose and importance of the
public interest must be balanced that against the liberty interest in the private property. Penn Central
Transportation Co. v. New York City, 438 U.S. 104
(1978). Where the government action merely affects
property interests through some public program adjusting the benefits and burdens of economic life to promote the common good, that factor may be relevant in
discerning whether a taking has occurred. supra.
The character of the government action in a zoning case where the zoning is applied equally is typically found to be in the public interest where the public
and parties are equally benefited and burdened. The
government generally cannot force some people to bear

App. 212
public burdens which should be borne by the public as
a whole. Laurel Park Community, LLC v. City of Tumwater, 698 F.3d 1180 (2012); Lingle v. Chevron U.S.A.
Inc., 544 U.S. 528, 125 S. Ct. 2074, 161 L. Ed. 2d 876
(2005).
Zoning is a type of limited protection against
harmful private land use that typically withstands
taking analysis. In Gove v. Zoning Board of Appeals of
Chatham, supra, for example, there was a legitimate
government interest because there was a potential for
flooding that would adversely affect the surrounding
areas if the property was developed with residences.
The land was at special risk for such flooding and multiple studies found that the risk of development was
too great.
The Plaintiff disputes that Bill 91-10 was in the
public interest. They contend that there was no evidence or study performed to justify the more stringent
requirements for a rubble landfill that were related to
that bill.
The Plaintiff also argues that because the proposed rubble landfill was going to be regulated by
MDE, the agency that enforces regulations to avoid
compromising public health and safety, it was assured
that the property would not constitute a hazard. Nevertheless while it is undisputed that MDE would withhold issuing a final permit pursuant to final zoning
approval by the County, whether or not modifying the
zoning went against a reasonably backed investment
based expectation is a dispute of fact.

App. 213
Resolution 91-10 was an emergency bill and the
public agitation together with the timing and statements by Council members speak to the fact that the
Gravel Hill site could possibly be perceived as being
targeted. The Plaintiff claims such conduct shows that
the Defendant was acting in bad faith, especially since
a mere four days after the purchase of the property was
finalized, the County Council passed legislation to remove sites from the County SWM plan that do not
meet the requirements under Bill 91-10.
The Supreme Court in the case Penn Central
Transportation supra ultimately found that even if
there was a taking, those rights mitigate whatever financial burdens the law has imposed and are taken
into account when considering the impact of the regulation. It is less likely to be a taking where the restrictions are related to the general welfare. Penn
Central additionally found that an action must be reasonably relating to the promotion of the general welfare and cannot be discriminatory or “spot zoning” that
is where a property is arbitrarily singled out for less
favorable treatment. All property owners must be
uniquely burdened, not merely affect some property
more than others.
The Defendant stresses that there can be no Penn
Central taking because the zoning requirements under
Bill 91-10 are borne by virtually every landowner in
the County. They contend that the zoning applies to
every property owner equally in districts where rubble
landfills are permitted. All property owners are
equally benefited and burdened by the terms of the

App. 214
ordinance. That in and of itself, the Defendant asserts,
is enough to preclude a finding that the regulation had
the character of a taking.
The Defendant’s strongest argument is that Bill
91-10 was directed at landfills in general and was in
response to the great public concern over all of the proposed rubble landfills at the time. This is evidenced by
Section 218 of Article II of the Harford County Charter,
which states that bills introduced as emergencies affecting public health and safety or welfare shall be
plainly designated as emergency bills.
The Board of Appeals Zoning Hearing Examiner
found that the (100) acre requirement is not disproportionate because all properties of less than (100) acres
are similarly impacted by the prohibition against rubble landfills on the parcels of less than that size and
that MRA was treated no differently. Equally, the
Board of Appeals Zoning Hearing Examiner found that
the (1000) foot buffer requirement treated MRA no differently, holdings that traffic required a buffer that
large and there would be an adverse impact to the
neighbors.
With regard to how the regulations’ burdens were
apportioned, that issue it has been decided by the Harford County Board of Appeals and that decision has
been affirmed by the Court of Appeals. It was concluded that the regulation had impacts on all landfill
property located in the county. The Harford County
Hearing Examiner found and the Court of Appeals affirmed:

App. 215
MRA cannot allege a disproportionate impact
of the 100 acre size requirements upon it. All
properties of less than 100 acres in size are
similarly impacted by the prohibition against
rubble landfills on parcels of less than that
size. The applicant it treated no differently
than any other similarly situated property
owner.
Maryland Reclamation Assocs., Inc. v. Harford
Cty., 414 Md. 1, 21, 994 A.2d 842, 854 (2010)
The impact of the regulation on the property
owner and the requirement that a rubble landfill be located on a property at least 100 acres in size does not
have a disproportionately adverse impact on MRA because any landfill located in the agricultural zoning
district would be subject to that same requirement. It
can be established, therefore, that the applicability to
the (1000) acres to all landowners under 91-10, as ultimate fact.
As set forth above, the Hearing Examiner issued a
decision February 28, 2007 denying MRA’s requests
due to factual findings that a rubble landfill at the
Gravel Hill site would have a detrimental effect on
adjacent properties, finding there was sufficient evidence that MRA’s proposal would adversely affect the
public health, safety and general welfare and would
jeopardize the lives of people living in the area and result in dangerous traffic conditions in the community.
More particularly the hearing found that a church of
historical significance, the health and welfare of the

App. 216
community, traffic conditions, would be adversely affected by dust, fumes and deforestation.
The Court of Appeals in MRA IV affirmed the Examiner and Board of Appeals determination that there
was sufficient evidence, with respect to each requested
variance, to support the conclusion that the landfill
was substantially detrimental to the surrounding community.
This court must cede to the factual findings of the
Hearing Examiner and the Board. The reasons for deference to legislative judgments about the need for, and
likely effectiveness of, regulatory actions are well established in the case Lingle v. Chevron, U.S.A. Inc.,
544, 545 U.S. 528 (2005). The Court in Lingle held that
it would not entertain a battle of experts and the testimony of economists who testified as to whether the
regulations furthered a public interest. The court
would not be required to make such a judicial determination and instead found the court must give deference
to the legislators. Therefore giving full deference to the
findings made by the appropriate legislative process,
this court must find that the regulations furthered the
public interest.
The nature of the government action remains. It is
the Plaintiff ’s contention that the County Council introduced Bill 91-10 for the purpose of preventing them
from operating a rubble landfill on the property. The
Plaintiff ’s assert that this is shown by the fact that the
Bill was enacted as an emergency measure so it would
take effect before the MDE granted a zoning permit to

App. 217
MRA. The Plaintiff contends this shows both that the
County was acting in bad faith and applying regulations inconsistently to all landowners. More specifically, Resolution 4-90 and 15-90 were ruled invalid by
the Court of Appeals because the resolutions specifically targeted the Gravel Hill site.
In support of this position the Plaintiff ’s cite the
deposition testimony of James Vannoy, the draftsman
of Bill 91-10, who stated that the Bill was submitted as
emergency legislation for the purpose of preventing
the Plaintiff from moving forward with the rubble
landfill. The Defendant argues that statements of individual members of the County Council and employees
have no bearing on the zoning code requirements effectuated by Bill 91-10.
As set forth above this court believes that a finder
of fact could conclude that there was a taking. The
court also believes, however, that the decision of the
Court of Appeals in MRA IV, that the County Council’s
actions were reasonable to the promotion of the general welfare is binding on the parties of this case.
This court, however, will not go so far as to require
the Plaintiff to assume all financial burden because,
while in the public welfare, the regulations do not present a strong need as was presented in the cases above.
III.

DAMAGES

Just compensation is referred to as the fair market
value of the property at the time of the taking. The fair

App. 218
market value of land is what a reasonable buyer would
give who was willing but did not have to purchase and
what a seller would be willing to take who was willing
but did not have to sell. City of St. Louis v. Union
Quarry & Construction Co. 394 S.W.2d 300 (1965).
The question is not what has the taker gained but
what has the owner lost. Dep’t of Transp. v. Kendricks,
148 Ga. App. 242, 250 S.E.2d 854 (1978). The issue of
damages is a factual dispute that is proper for resolution by a jury. The jury, in arriving at just and adequate
compensation, is not only authorized but required to
consider the value which the thing taken has to the respective owners of the interests being condemned. A
condemnees is responsible for compensation for the
value of the land taken, and also for whatever damages
result to the condemnees from the condemnation proceeding. Dep’t of Transp. v. Kendricks, supra.
The Plaintiff argues that the law allows for consideration of the “best use” of the property and where
property is unique the court may allow to the recovery
of business losses that include the projected profit of
operating the landfill.
The Plaintiff cites City of St. Louis v. Union
Quarry & Construction Co. 394 S.W.2d 303 (Mo. 1965)
which held that a abandoned quarry being used as a
landfill site was unique and therefore profits derived
from it and its use are the chief source of value and
that there was sufficient evidence of such profits for
determining the value of the property. That case involved the owners of rock quarry being used by its

App. 219
owner as a private dump. The facts presented in that
case were as follows;
The owners obtained permits each year, and
continued the operation as a private dump until the date of condemnation, June 27, 1962.
They employed a manager, who kept books
and complete records. A charge was made for
dumping, $1 per truckload. Records for the 16
years preceding the taking show that an average of 20,000 truckloads of dirt and noncombustible material were dumped each year.
Loads averaged 5 cubic yards. Landowners
thus grossed $20,000 annually, on the average, from this operation. The quarry was only
partially filled as of the date of the taking.
Calculations show that as of that date it
would have taken 625,000 cubic yards of material to fill the hole so as to make it level with
surrounding land, taking into account the factor of compaction. Figuring that they were
handling about 100,000 cubic yards per year
of uncompacted rubbish the hole would have
been filled, not considering compaction, in
something over 6 years; with compaction, it
would take 10 or 11 years.
City of St. Louis v. Union Quarry & Const. Co., supra, 303-04). The court reversed the lower court’s decision because the trial court regarded the highest and
best use of the property, ignoring and rejecting the evidence that the highest and best use of the 2.634 acres
was filling up the quarry, the court reversed. Id.

App. 220
The Plaintiff contends that like the property in the
City of St. Louis case, the Gravel Hill site is a unique
property with a landscape that is unique. In City of St.
Louis, however, the facts that made the property
unique were that it was already operating as a private
landfill and after the government physically acquired
that property, the compensation the trial court offered
was for the property’s best use valued as residential
development although filling the remainder of the
quarry was a far more profitable and therefore a better
use. Different circumstances exist here because the entire Gravel Hill property had never been operated as a
nibble land fill, making the damages requested by the
Plaintiff more speculative.
The Plaintiff further makes the argument that because the profits are derived from its use and where
the property is unique, an owner may recover business
loss. The Plaintiff cites the Georgia case of Department
of Transp. v. Kendricks, 148 Ga. App. 242, 250 S.E.2d
854 (1978) to support that argument. The court in
Kendricks, held that a leaseholder in condemnation
proceeding, who established loss of a tractor business
in clear and positive terms totally separate from fee
owner’s property loss, could make a claim for compensation so long as it was not remote or speculative. In
that case the party was recovering for the loss of his
business, not the loss of the property. In this case the
Plaintiff is making the same argument in asking to be
compensated for the lost business that the property
would produce.

App. 221
In the Kendricks case the taking was not a regulatory taking but a real taking. More specifically the
government obtained an easement which had the effect of hindering the plaintiff in that case’s rented car
dealership businesses because it obstructed the display of the dealerships. Potential customers could no
longer see the inventory displayed from the road and
because of which the taking lent itself to lost business
profits.
Future damages must be established with reasonable certainty, and must not rest upon speculation or
conjecture. Pierce v. Johns – Manville Sales Corp., 296
Md. 656, 666, 464 A.2d 1020 (1983). Future damages
cannot be recovered if the future consequences upon
which the damages are premised are merely possibilities. Pierce v. Johns-Manville Sales Corp., 296 Md. 656,
464 A.2d 1020 (1983). Sufficient probability exists
when there is more evidence in favor of a proposition
than there is against the proposition. Lewin Realty III,
Inc. v. Brooks, 138 Md. App. 244, 279, 771 A.2d 446, 466
(2001), aff ’d, 378 Md. 70, 835 A.2d 616 (2003) abrogated by Ruffin Hotel Corp. of Maryland v. Gasper, 418
Md. 594, 17 A.3d 676 (2011).
The rubble landfill was a proposal but not yet realized business and new businesses in themselves are
considered speculative.
Operation of a rubble landfill is a new business
and that that is, in itself, speculative. The Plaintiff was
in the beginning stages of securing all of the necessary
permits and permission to operate said facility. Even

App. 222
had the County not taken any action at all, it remains
speculative whether or not the Plaintiff would have secured MDE permit approval and all of the necessary
existing zoning approvals. It is therefore the opinion of
this court that on the Defendant’s motion for summary
judgment should be granted to the extent that the evidence presented produced to the Plaintiff ’s loss should
be limited to the diminished value of the property.
This court will reserve for a jury to find not what
has the taker gained but what has the owner lost with
regard to the fair market value of the property.
IV.

FACTS NOT IN DISPUTE

Under Maryland Rule 2-501(g) a court, in denying
all or part of a party’s Motion for Summary Judgment,
may enter an order specifying issues not in dispute.
The rule in question provides specifically as follows:
(g) Order specifying issues or facts not
in dispute. When a ruling on a motion for
summary judgment does not dispose of the entire action and a trial is necessary, the court
may enter an order specifying the issues or
facts that are not in genuine dispute. The order controls the subsequent course of the action but may be modified by the court to
prevent manifest injustice.
In the opinion of this court, a number of facts are
not in dispute. They are as follows:
(1) In August of 1989, Maryland Reclamation Associates (hereinafter referred to as “MRA”) entered

App. 223
into a contract to purchase property located on or adjacent to Gravel Hill Road in Harford County.
(2) At the request of MRA on November 7, 1989,
Harford County Council (hereinafter referred to as
“the Council”) conducted a hearing on November 14,
1989 and passed a motion that included the property
in question as a proposed site in the County’s Solid
Waste Management Plan.
(3) On November 20, 1999, MRA received a
Phase I approval for the construction and operation of
a rubble fill from the Maryland Department of the Environment (hereinafter referred to as “MDE”).
(4) On February 9, 1990, MRA finalized the purchase of the property from the owner and paid the sum
of $732,500.00 for the property.
(5) On February 14, 1990, the President of the
Harford County Council introduced Resolution 4-90 to
require the property owned by MRA on Gravel Hill
Road to be removed from the Solid Waste Management
Plan.
(6) On May 8, 1990 four members of the Council
voted on Resolution 4-90 and the MRA property was
removed Solid Waste Management Plan.
(7) Bill 91-10 was introduced to the Council as
emergency legislation. This bill amended requirements for rubble fills by increasing the minimum acreage to 100 acres and increasing the buffer zone from
200 feet to 1,000 feet.

App. 224
(8) Bill 91-10 was passed by the Council on
March 19, 1991 and signed into law on June 10, 1991
by the Harford County Executive.
(9) Bill 91-16 was introduced to the Council on
April 2, 1991. This bill authorized the Council to remove a specific site from the Solid Waste Management
Plan that did not comply with any ordinance if a permit had not been issued by MDE within 18 months of
the site being placed in the Solid Waste Management
Plan or the owner had not placed a site in operation
within the same 18 month period. This bill was passed
by the Council and was signed into law by the County
Executive on June 10, 1991.
(10) On May 2, 1991, MDE advised the Council
that if a permit was issued by MDE to operate a rubble
fill such an issuance would not authorize MRA to violate any local zoning or land use requirements.
(11) Following a request by MRA for an interpretation of the effects of Bill 91-10 on MRA’s property on
Gravel Hill Road on February 22, 1991 the Zoning Administrator issued a letter stating that Bill 91-10 applied to MRA’s proposal and denied zoning approval to
operate a rubble fill on the property unless MRA obtained variances from the requirements of the zoning
ordinance.
(12) An appeal was filed from that decision of the
Zoning Administration and on April 2, 2002 the Zoning
Hearing Examiner issued a written decision finding
that Bill 91-10 did not violate local, state of federal law.

App. 225
(13) On June 11, 2002, the Council sitting as the
Harford County Board of Appeals held that MRA was
required to abide by the existing zoning laws and that
the County was not precluded from applying the requirements of Bill 91-10 to the property in question.
The Board of Appeals also held that the rubble fill was
not a valid non-conforming use under the terms of the
zoning ordinance.
(14) On May 12, 2005, MRA requested variances
to the requirements established by Bill 91-10. After
holding hearings, on February 28, 2007 the Zoning
Hearing Examiner issued a report and recommendation that the variance requests be denied.
(15) On June 5, 2007, the Council sitting as the
Board of Appeals voted to adopt to adopt the Hearing
Examiner’s findings and recommendations and denied
the request for variances.
Pursuant to the terms of the rule, the Court has
made these findings of fact that are undisputed. It is
noted that both the Plaintiff, and the Defendant have
indicated an intention to attempt to show the reasons
for the action taken by the Council in passing the various ordinances and resolutions. The Plaintiff will apparently attempt to show that the bills in question
were specifically directed at their facility and that they
have therefore be treated unfairly. The Defendant on
the other hand will attempt to present testimony as to
the reasons that the Council enacted the various
measures in question and call various witnesses to justify those measures.

App. 226
MRA IV also discussed and decided that it would
not consider the motive of the legislator, stating that it
is well-settled that when the judiciary reviews a statute or other governmental enactment, either for validity or to determine the legal effect of the enactment in
a particular situation, the judiciary is ordinarily not
concerned with whatever may have motivated the legislative body or other governmental actor. MRA IV
would not allow discussion into the motives of legislators having decided that there is ample evidence that
Bill 91-10 was directed at landfills in general and was
emergency legislation because of the great public concern over all of the proposed landfills at the time. Maryland Reclamation Assocs., Inc. v. Harford Cty., 414 Md.
1, 51, 994 A.2d 842, 871-72 (2010).
While due process and a takings analysis’ differ it
is clear that when evaluating the legal effect of a law
for any issue, including a case involving a taking, the
court cannot consider the legislatures motive.
Both Maryland and Federal law are clear that
such testimony would be inappropriate. The Court of
Appeals in the case of Maher v. State, 15 Md. 376 held
as long ago as 1859 that the motive of a legislative body
in passing or ordinance could not play a role in the
courts decision related to those laws. The Supreme
Court of the United States in Daniel v. Family Security
Life Insurance Company, 336 US 220, 69 S.Ct. 550, 93
L.Ed. 632 (1949), when confronted with the argument
that various lobbyists had influenced a state legislature to enact the statute that was the subject of litigation, held that courts were not to search or determine

App. 227
motive in passing that legislation but merely to judge
the results. It is therefore clear that the testimony presented by either party concerning the character of the
government action as it relates to motive for its enactment of the ordinances in question it is irrelevant and
improper to be presented to the finder of fact.
CONCLUSION
This Court will hold that:
(1) the Defendant’s Motion to Dismiss this case
for failure of the Plaintiff to comply with the statute of
limitations will be denied;
(2) to the extent that the Plaintiff ’s claim for inverse condemnation is based on the case of Lucas v.
South Carolina Council, 505 US 103 (1992) the court
will grant the Motion for Summary Judgment and find
that as a matter of law there is insufficient evidence to
justify a finding that there has been a complete taking;
(3) to the extent that the Plaintiff has filed a
claim for inverse condemnation under the case of Penn
Central Transportation Company v. New York City, 438
US 104 (1978) the Court will deny the Motion for Summary Judgment and believes that there are sufficient
facts in dispute to have this matter submitted for resolution by the ultimate finder of fact;
(4) the Defendant’s Motion for Summary Judgment will be granted to the extent that the Plaintiffs
damages will be limited to only the diminished value
of the property that is the subject of this litigation;

App. 228
(5) the findings of fact made by this court pursuant to the terms of Rule 2-501(g) are binding on both
parties.
/s/ William O. Carr
WILLIAM O. CARR, Judge
CC:
Brett Ingermann
Melissa L. Mackiewicz
DLA Piper LLP
The Marbury Building
6225 Smith Avenue
Baltimore, MD 21209
Attorney for Plaintiff
William D. Hooper, Jr.
1718 Mews Way
Fallston, MD 21047
Attorney for Plaintiff ’
Robert H.B. Cawood
Cawood & Cawood, LLC
209 West Street, Suite 303
Annapolis, MD 21401
Attorney for Plaintiff
John R. Greiber, Jr.
Smouse & Mason
125 West Street, Suite 302
Annapolis, MD 21401
Attorney for Plaintiff

App. 229
Jefferson Bloomquist
Funk & Bolton, P.A.
36 S. Charles Street, 12th Floor
Baltimore, MD 21201-3111
Attorney for Defendant

App. 230
MARYLAND RECLAMATION *
ASSOCIATES, INC.
*
*
Plaintiff
*
v.
*
*
HARFORD COUNTY,
*
MARYLAND
*
Defendant
*
*

IN THE
CIRCUIT COURT
FOR
HARFORD
COUNTY
CASE NO.
12-C-13-509

* * ** * ** * ** * ** * ** * ** * *
ORDER
It is this it is this 3rd day of January, 2017, hereby
ORDERED;
(1) the Defendant’s Motion to Dismiss this case
for failure of the Plaintiff to comply with the statute of
limitations will be denied;
(2) to the extent that the Plaintiff ’s claim for inverse condemnation is based on the case of Lucas v.
South Carolina Council, 505 US 103 (1992) the court
will grant the Motion for Summary Judgment and
find that as a matter of law there is insufficient evidence to justify a finding that there has been a complete taking;
(3) to the extent that the Plaintiff has filed a
claim for inverse condemnation under the case of Penn
Central Transportation Company v. New York City, 438
US 104 (1978) the Court will deny the Motion for Summary Judgment and believes that there are sufficient

App. 231
facts in dispute to have this matter submitted for resolution by the ultimate finder of fact;
(4) the Defendant’s Motion for Summary Judgment will be granted to the extent that the Plaintiff ’s
damages will be limited to only the diminished value
of the property that is the subject of this litigation.
(5) the findings of fact made by this court pursuant to the terms of Rule 2-501(g) are binding on both
parties.
/s/ William O. Carr
WILLIAM O. CARR, Judge
CC:
Brett Ingermann
Melissa L. Mackiewicz
DLA Piper LLP
The Marbury Building
6225 Smith Avenue
Baltimore, MD 21209
Attorney for Plaintiff
William D. Hooper, Jr.
1718 Mews Way
Fallston, MD 21047
Attorney for Plaintiff ’
Robert H.B. Cawood
Cawood & Cawood, LLC
209 West Street, Suite 303
Annapolis, MD 21401
Attorney for Plaintiff

App. 232
John R. Greiber, Jr.
Smouse & Mason
125 West Street, Suite 302
Annapolis, MD 21401
Attorney for Plaintiff
Jefferson Bloomquist
Funk & Bolton, P.A.
36 S. Charles Street, 12th Floor
Baltimore, MD 21201-3111
Attorney for Defendant

App. 233
APPENDIX F
MARYLAND RECLAMATION ) IN THE
ASSOCIATES, INC.
COURT OF
) APPEALS
vs.
HARFORD COUNTY,
MARYLAND

) OF MARYLAND
COA-REG-0052-2019
)
No. 52
) SEPTEMBER TERM
2019
– -o0o- –

The excerpt of this hearing in the above-entitled
matter was held on March 10, 2020, at 361 Rowe
Boulevard in Annapolis, Maryland.
BEFORE:
THE HONORABLE MARY ELLEN BARBERA
Chief Judge
[2] APPEARANCE
ON BEHALF OF THE PETITIONER/CROSSRESPONDENT:
ROSENBERG MARTIN GREENBERG, LLP
By: Andrew H. Baida, Esquire
25 South Charles Street, 21st Floor
Baltimore, Maryland 21201
(410)727-6600

App. 234
[3] Tuesday, March 10, 2020
PROCEEDINGS
(Excerpt of the hearing transcribed
as requested by Counsel.)
– -oOo- –
THE COURT:
rupt you.
MR. BAIDA:

Mr. Baida, I’m sorry to interThat’s all right.

THE COURT: Is Mr. – what about Mr. Ingerman’s point about res judicata? Is he correct that had
– I mean, do you agree with him that if MRA had
brought a constitutional takings claim into the administrative proceeding that the decision would have preclusive effect on the merits such that a jury couldn’t
consider it?
MR. BAIDA: Well, I think this – well, no, not
necessarily that way. I think if MRA lost before the
Board, as I said, it could have filed a petition for judicial review, seeking review of its take – of the Board’s
taking decision if there was no taking, and at the same
time it could have filed this independent judicial action.
[4] The independent judicial action, by the way,
only entitled MRA to a jury trial on the question of
compensation, of just compensation. It did not entitle
MRA to a jury trial on – whether there was, in fact, a
taking. And we’ve cited a couple cases in our brief that
s deal with that.

App. 235
But if MRA takes a petition for judicial review,
goes up the ladder, and at the end of the day, the court
holds or upholds the Board’s decision that it was no
taking, that’s conclusive. Yes, that is conclusive of its L
takings claim.
(Whereupon, the excerpt of the hearing requested
to be transcribed was concluded.)
[5] CERTIFICATE OF REPORTER
STATE OF MARYLAND
I, the undersigned, do hereby certify that I was authorized to and did stenographically transcribe to the
best of my ability to hear and understand the audio file
provided; and that the transcript is a true and correct
record of my stenographic notes.
I further certify that I am not a relative, employee,
attorney, or counsel of any of the parties, nor? am I a
relative or employee of any of the parties’ attorneys or
counsel connected with the action, nor am I financially
interested in the action.
_________________________
Nancy Dasovich
Certified Transcriptionist

App. 236
APPENDIX G
MARYLAND RECLAMATION * IN THE
* CIRCUIT COURT
ASSOCIATES, INC.
*
Plaintiff
* FOR
v.
* HARFORD
* COUNTY
HARFORD COUNTY,
*
MARYLAND
* CASE NO.
Defendant
* 12-C-13-509
*
* * ** * ** * ** * ** * ** * ** * *
VERDICT SHEET
(Filed Apr. 17, 2018)
After consideration of the three (3) factors as described in the jury instructions, do you find that MRA’s
inability to operate a rubble landfill constitutes a regulatory taking of the property?
Yes

(Y/N)

If you answered yes, please proceed to the next question
...
What is the amount of just compensation you find?
$45,420,076 (please insert the amount)

